<html>
<title> - THE WORLDWIDE THREAT TO UNITED STATES INTERESTS</title>
<body><pre>[Senate Hearing 107-765]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-765

            THE WORLDWIDE THREAT TO UNITED STATES INTERESTS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 19, 2002

                               __________

         Printed for the use of the Committee on Armed Services





                         U.S. GOVERNMENT PRINTING OFFICE
82-913 PDF                      WASHINGTON : 2002
---------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office 
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001










                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director
               Judy A. Ansley, Republican Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

            The Worldwide Threat to United States Interests

                             march 19, 2002

                                                                   Page

Tenet, George J., Director of Central Intelligence...............     3
Wilson, Vice Adm. Thomas R., USN, Director, Defense Intelligence 
  Agency.........................................................    19

                                 (iii)

 
            THE WORLDWIDE THREAT TO UNITED STATES INTERESTS

                              ----------                              


                        TUESDAY, MARCH 19, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, Ben Nelson, Carnahan, Warner, Inhofe, Roberts, 
Allard, Sessions, Collins, and Bunning.
    Committee staff members present: David S. Lyles, staff 
director; and Christine E. Cowart, chief clerk.
    Majority staff members present: Richard D. DeBobes, 
counsel; Evelyn N. Farkas, Richard W. Fieldhouse, Creighton 
Greene, Maren Leed, and Michael McCord, professional staff 
members.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; L. David Cherington and Scott W. 
Stucky, minority counsels; Charles W. Alsup, Edward H. Edens 
IV, Brian R. Green, Mary Alice A. Hayward, Ambrose R. Hock, 
George W. Lauffer, Patricia L. Lewis, Thomas L. MacKenzie, and 
Joseph T. Sixeas, professional staff members.
    Staff assistants present: Dara R. Alpert, Leah C. Brewer, 
and Nicholas W. West.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Neil D. Campbell, assistant to 
Senator Reed; Richard Kessler, assistant to Senator Akaka; 
William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; Neal Orringer, 
assistant to Senator Carnahan; Benjamim L. Cassidy, assistant 
to Senator Warner; John A. Bonsell, assistant to Senator 
Inhofe; George M. Bernier III, assistant to Senator Santorum; 
Robert Alan McCurry, assistant to Senator Roberts; Douglas 
Flanders and Charles Cogar, assistants to Senator Allard; Arch 
Galloway II, assistant to Senator Sessions; Kristine Fauser, 
assistant to Senator Collins; and Derek Maurer, assistant to 
Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning everybody. The committee meets 
this morning to receive testimony from the Director of the 
Central Intelligence Agency (CIA) and the Director of the 
Defense Intelligence Agency (DIA) on the threats to United 
States interests. Director Tenet and Admiral Wilson, we welcome 
both of you back to our Committee.
    First I want to express my appreciation to both of you and 
to the thousands of dedicated professionals throughout the 
Intelligence Community for their contributions to the war on 
terrorism in the past months. Some have made the ultimate 
sacrifice for their country. Seven DIA employees were killed 
and eight others were injured in the September 11 attack on the 
Pentagon. The first American killed in action in Afghanistan 
was Michael Spann who was the 79th CIA officer to die in the 
line of duty. The grateful nation will forever honor their 
service and their sacrifice.
    Every member of this Committee knows the critical 
importance of timely intelligence to the successes of Operation 
Enduring Freedom. I know that the entire military chain of 
command from the soldiers on the ground in Afghanistan to the 
highest levels of the national command authority are grateful 
for the tremendous efforts of the men and women of your two 
agencies.
    Last November, Senator Warner and I had the opportunity to 
meet with some of the dedicated intelligence professionals in 
the Afghanistan theater of operations and we saw first hand the 
critical contributions that they are making to Operation 
Enduring Freedom. In our letter of invitation to this hearing, 
Senator Warner and I asked our witnesses for their evaluation 
of the nontraditional threats to our interests both at home and 
abroad, which of course includes the terrorist threat as well 
as the new missions that the Intelligence Community is 
conducting or must be prepared to conduct to meet these 
threats.
    We are interested in learning the details of your agencies' 
support to Operation Enduring Freedom and the extent to which 
this operation reveals any deficiencies in our ability to 
collect, analyze, and disseminate intelligence to warfighters 
and policymakers. We are interested in the Intelligence 
Community's assessment of the extent to which Operation 
Enduring Freedom has disrupted the ability of the al Qaeda 
network to conduct operations against U.S. interests both here 
at home and throughout the world.
    We also want to get an assessment from both of our 
witnesses this morning of the current military capability of 
the Iraqi regime including its efforts to acquire weapons of 
mass destruction, the threat that Iraq poses to its neighbors, 
and what steps would be necessary to remove Saddam Hussein from 
power.
    Finally, we are interested in hearing what countries are 
exporting technologies that could help create weapons of mass 
destruction or the means to deliver them. Those are some of the 
questions which we will be addressing and I hope that our two 
witnesses would also address. I thought it was important that 
we begin this hearing in open session. Both Director Tenet and 
Admiral Wilson submitted their prepared statements for this 
hearing to the committee last week. Their statements will be 
made part of the record.
    I have asked our witnesses to limit their opening remarks 
to 5 to 7 minutes so that we can get right to questions. After 
one 6-minute round of questions in open session, we will go 
directly into closed session in Room 219 next door. Senator 
Warner suggested that.
    Proceed now to your opening statements and what we will do 
is we will call on Senator Warner later for his opening 
statement, but let me now call upon you, Director Tenet. Please 
proceed.

 STATEMENT OF GEORGE J. TENET, DIRECTOR OF CENTRAL INTELLIGENCE

    Mr. Tenet. Thank you, Mr. Chairman, and I will try and stay 
within the 5 or 6 minutes that you asked for and we will go 
right to terrorism and work through this as quickly as we can.
    Mr. Chairman, last year when we appeared in open session, 
we told the committee that bin Laden and the al Qaeda network 
were the most immediate and serious threat that the country 
faced. This remains true today despite an enormous amount of 
progress we have made in Afghanistan and in disrupting the 
network elsewhere in the world. We assessed that al Qaeda and 
other terrorist groups will continue to plan to attack this 
country and its interests abroad. Their modus operandi is to 
have multiple attacks in the works simultaneously and to have 
al Qaeda cells in place to conduct them. We know that 
terrorists have considered attacks in the United States against 
high profile government or private facilities, famous landmarks 
and U.S. infrastructure nodes such as airports, bridges, 
harbors, dams and financial centers. American diplomatic and 
military installations are at high risk especially in East 
Africa, Israel, Saudi Arabia, Turkey, Pakistan, and 
Afghanistan.
    Operations against U.S. targets could be launched by al 
Qaeda cells already in place in major European cities and the 
Middle East. Al Qaeda can also exploit its presence or 
connections to other groups in such countries as Somalia, 
Yemen, Indonesia, and the Philippines. Although the September 
11 attacks suggest that al Qaeda and other terrorist groups 
will continue to use conventional weapons, one of our highest 
concerns is their stated readiness to attempt unconventional 
attacks against us.
    Terrorist groups worldwide have ready access to information 
on chemical, biological, and even nuclear weapons through open 
sources. Documents recovered from al Qaeda facilities in 
Afghanistan show that bin Laden was pursuing a sophisticated 
biological weapons research program. We also believe that bin 
Laden was seeking to acquire or develop a nuclear device. Al 
Qaeda may be pursuing a radioactive dispersal device, what some 
call a dirty bomb.
    Alternatively, al Qaeda or other terrorist groups might try 
to launch conventional attacks against the chemical and nuclear 
industrial infrastructure of the United States to cause 
widespread toxic or radiological damage.
    We are alert to the possibility of cyber warfare attack. 
September 11 demonstrated our dependence on critical 
infrastructure systems that rely on electronic and computer 
networks. Attacks of this nature will become an increasingly 
viable option for terrorists as they and other foreign 
adversaries become familiar with these targets and the 
technologies required to attack them.
    We are also watching, Mr. Chairman, states like Iran and 
Iraq that continue to support terrorist groups. Iran continues 
to provide support including arms transfers to Palestinian 
rejectionist groups and Hezbollah. Tehran also failed to move 
decisively against al Qaeda members who have relocated to Iran 
from Afghanistan. Iraq has a long history of supporting 
terrorists, including giving sanctuary to Abu Nidal. Mr. 
Chairman, while al Qaeda represents a broadly-based Sunni 
worldwide extremist network, it would be a mistake to dismiss 
possible connections to either other groups or state sponsors, 
Sunni or Shia. There is a convergence of common interest in 
hurting the United States and its allies, an interest that 
makes traditional thinking in this regard unacceptable.
    The war on terrorism, Mr. Chairman, to answer one of your 
first questions, has dealt severe blows to al Qaeda and its 
leadership. The group is no longer able to run large scale 
training and recruitment programs in Afghanistan. Drawing both 
on our own assets, the military's action, and increased 
cooperation from allies around the world, we are uncovering 
terrorist plans and breaking up their cells around the world. 
These efforts have yielded the arrest of over 1,300 extremists 
believed to be associated with al Qaeda operatives in over 70 
countries and have disrupted terrorist operations and potential 
terrorist attacks.
    Mr. Chairman, bin Laden did not believe we would invade his 
sanctuary. He saw the United States as soft, impatient and 
unprepared for a fearful, long bloody war of attrition. He did 
not count on the fact that we had lined up allies that could 
help us overcome barriers of terrain and culture. He did not 
know about the collection and operational initiatives that 
allows us to strike with great accuracy at the heart of the 
Taliban and al Qaeda. He underestimated our capabilities, our 
readiness, and our resolve.
    That said, Mr. Chairman, I must repeat that al Qaeda has 
not been destroyed. It and other like-minded groups remain 
willing and able to strike us. Al Qaeda leaders still at large 
are working to reconstitute the organization and resume 
terrorist operations. We must eradicate these organizations by 
denying them their source of financing, their sanctuary, and 
eliminating their ability to hijack charitable organizations 
for terrorist purposes. We must be prepared for a long war and 
we must not falter.
    Mr. Chairman, we have to also look beyond the immediate 
danger of terrorist attacks to the conditions that allow 
terrorism to take root around the world. These conditions are 
no less threatening to U.S. national security than terrorism 
itself. The problems that terrorists exploit--poverty, 
alienation, and ethnic tensions--will grow more acute over the 
next decade. This will especially be true in those parts of the 
world that have served as the most fertile recruiting grounds 
for Islamic extremists.
    More importantly, demographic trends tell us that the 
world's poorest and politically most unstable regions, which 
include parts of the Middle East and Sub-Saharan Africa, will 
have the largest youth populations in the world over the next 
two decades and beyond. Most of these countries will lack the 
economic institutions or resources to effectively integrate 
these youth into their societies.
    Our campaign in Afghanistan, Mr. Chairman, has made great 
progress, but there are challenges ahead. The Afghan people 
with international assistance are working to overcome a 
traditionally weak central government, a devastated 
infrastructure, a grave humanitarian crisis and ethnic 
divisions that have deepened over the last 20 years. Interim 
authority chief Hamid Karzai will have to play a delicate 
balancing game domestically. Ongoing power struggles among 
Pashtun leaders there underscore the volatility of tribal and 
personal relationships that he must successfully navigate.
    Mr. Chairman, a word about Pakistan. The Musharraf 
government's alignment with the United States and its 
abandonment of nearly a decade of support for the Taliban 
represents a fundamental political shift with inherent 
political risks because of the militant Islamic and anti-
American sentiments that exist within Pakistan. President 
Musharraf's intention to establish a moderate, tolerant Islamic 
state as outlined in his landmark 12 January speech, is being 
welcomed by most Pakistanis, but he will still have to confront 
major vested interests. The speech has energized debate across 
the Muslim world about which vision of Islam is the right one 
for the future of the Islamic community. Incidents like the 
tragic murder of Wall Street Journal reporter Daniel Pearl and 
the tragic events this weekend highlight, however, the 
challenges that Musharraf faces in his efforts to crack down on 
Islamic extremists.
    With regard to India and Pakistan, Mr. Chairman, we have 
been very concerned subsequent to the attack on the Indian 
Parliament in December about the instability that has been 
created. The chance of war between these two nuclear armed 
states is higher than at any point since 1971. If India were to 
conduct large scale offensive operations into Pakistani 
Kashmir, Pakistan might retaliate with strikes of its own in 
the belief that its nuclear deterrent would limit the scope of 
an Indian counterattack. Both India and Pakistan are publicly 
downplaying the risks of nuclear conflict in the current 
crisis. We are deeply concerned however, that a conventional 
war once begun could escalate into nuclear confrontation.
    With regard to Iraq, Mr. Chairman, there are a number of 
points. Saddam has craftily responded to our progress in 
Afghanistan with a political and diplomatic charm offensive. He 
is carefully cultivating neighboring states, drawing them into 
economically dependent relationships in the hopes of further 
undermining their support for sanctions. The profits he gains 
from these relationships provide him the means to reward key 
supporters and more importantly to fund his pursuit of weapons 
of mass destruction. His calculus is never about bettering or 
helping the Iraqi people. I want to be clear about this. Saddam 
remains a threat. He is determined to thwart U.N. sanctions, 
press ahead with weapons of mass destruction and resurrect the 
military force he had before the Gulf War. Today he maintains 
his vise grip on the levers of power through a pervasive 
intelligence and security apparatus and even his reduced 
military force, which is less than half of its pre-war size, 
remains capable of defeating more poorly armed internal 
opposition groups and threatening Iraq's neighbors.
    We continue to watch Iraq's involvement in terrorist 
activities. Baghdad has a long history of supporting terrorism, 
altering its targets to reflect changing priorities and goals. 
It has also had contacts with al Qaeda. Their ties may be 
limited by divergent ideologies, but the two sides' mutual 
antipathy toward the United States and the Saudi royal family 
suggest that tactical cooperation between them is possible--
even though Saddam is well aware that such activity would carry 
serious consequences.
    If we could just go to Iran for a moment, Mr. Chairman, 
because I think it is very important to talk about the Iranian 
political situation. For almost 5 years, President Khatami and 
his reformist supporters have been stymied by Supreme Leader 
Khamanei and their hardliners. We are concerned that the reform 
movement could be losing its momentum. The hardliners have 
systematically used the unelected institutions they control, 
the security forces, the judiciary, and Guardians Council, to 
block reforms that challenged their entrenched interests. They 
have closed newspapers, forced members of Khatami's cabinet 
from office and arrested those who have dared to speak out 
against their tactics.
    Frustrations are growing as the populace sees elected 
institutions such as the Majles and the presidency unable to 
break the hardliners' hold on power. The hardline regime 
appears secure for now because the security forces have easily 
contained dissenters and arrested potential opposition leaders. 
No one has emerged to rally reformers into a forceful movement 
for change, and the Iranian public appears to prefer gradual 
reform to another revolution, but the equilibrium is very 
fragile.
    For all of this, reform is not dead. We must remember that 
the people of Iran have demonstrated in four national elections 
since 1997 that they want change and have grown disillusioned 
with the promises of the revolution. Social, intellectual, and 
political developments are proceeding. Civil institutions are 
growing and new newspapers open as soon as others are closed.
    The initial signs of Tehran's cooperation and common cause 
with us in Afghanistan are being eclipsed by Iranian efforts to 
undermine U.S. influence there. We have seen little sign of a 
reduction in Iran's support for terrorism in the past year.
    Mr. Chairman, moving on to proliferation, three categories 
that obviously concern us--chemical, biological and nuclear and 
ballistic missile systems. The CBW threat continues to grow for 
a variety of reasons and to present us with very important 
monitoring challenges. The dual-use nature of many CBW agents 
complicates our assessment of offensive programs. Many 
production facilities are hidden in plants that are virtually 
indistinguishable from commercial facilities.
    On the nuclear side, we are concerned about the possibility 
of significant nuclear technology transfers going undetected. 
On the missile side, the proliferation of ICBM and cruise 
missile design and technology has raised the threat to the 
United States from weapons of mass destruction (WMD) delivery 
systems to a critical threshold.
    As outlined in our recent national intelligence estimate on 
the subject, most of the Intelligence Community agencies 
project that by 2015 the U.S. most likely will face 
intercontinental ballistic missile (ICBM) threats from North 
Korea, Iran, and possibly Iraq. This is in addition to the 
longstanding missile forces of Russia and China. Short- and 
medium-range ballistic missiles pose a significant threat right 
now. Russian entities continue to provide other countries with 
technology and expertise applicable to chemical warfare (CW), 
biological warfare (BW), nuclear and ballistic missile, and 
cruise missile projects.
    Russia appears to be the first choice of proliferating 
states seeking the most advanced technology and training. These 
sales are a major source of funds for Russian commercial and 
defense industries and military research and development. 
Russia continues to supply significant assistance on nearly all 
aspect of Tehran's nuclear fuel cycle. It is also providing 
Iran assistance on long range ballistic missile programs.
    Chinese firms remain key suppliers of missile-related 
technologies to Pakistan, Iran, and several other countries. 
This is in spite of Beijing's November 2000 missile pledge not 
to assist in any way countries seeking to develop nuclear-
capable ballistic missiles. Most of China's efforts involve 
solid propellant ballistic missile development for countries 
that are largely dependent on Chinese expertise and materials, 
but it has also sold cruise missiles to countries of concern 
such as Iran. We are closely watching Beijing's compliance with 
its bilateral commitment in 1996 not to assist unsafeguarded 
nuclear facilities and its pledge in 1997 not to provide any 
new nuclear cooperation to Iran.
    North Korea continues to export complete ballistic missiles 
and production capabilities along with the related raw 
materials, components and expertise. Iraq continues to build 
and expand an infrastructure capable of building--or 
producing--WMD. Baghdad is expanding its civilian chemical 
industries in ways that could be diverted quickly into CW 
production. We believe it also maintains an active and capable 
BW program. Iraq told United Nations Security Command (UNSCOM) 
it had worked with several BW agents. We believe that Baghdad 
continues to pursue ballistic missile capabilities that exceed 
the restrictions imposed by U.N. resolutions. We believe that 
Saddam never abandoned his nuclear weapons program. Iraq 
maintains a significant number of nuclear scientists, program 
documentation, and probably some dual-use manufacturing 
infrastructure that could support a reinvigorated nuclear 
program. Baghdad's access to foreign expertise could support a 
rejuvenated program, but our major near-term concern is the 
possibility that Saddam might gain access to fissile material.
    Mr. Chairman, the other issue I want to raise is our unique 
space-borne advantage and our satellite advantage. This 
advantage that we have enjoyed over the past few decades is 
eroding as more countries including China and India field 
increasingly sophisticated reconnaissance satellites. Today 
there are three commercial satellites collecting high 
resolution imagery, much of it openly marketed.
    With regard to Russia, Mr. Chairman, the most striking 
development over the past year has been Moscow's greater 
engagement with the United States. Even before September 11, 
President Putin had moved to engage the United States as part 
of broader effort to integrate Russia more fully into the west, 
modernize its economy and regain international status and 
influence. During his second year in office, Putin has moved 
strongly to advance his policy agenda. He pushed the Duma to 
pass key economic legislation on budget reform, legitimizing 
urban property sales, flattening and simplifying tax rates and 
reducing red tape for small business. He reinvigorated military 
reform by placing his top lieutenant atop the defense ministry 
and increasing military spending for the second straight year--
even as he forced tough decisions on de-emphasizing strategic 
forces and pushing for a leaner, better equipped conventional 
military force.
    Putin is trying to build a strong Presidency that can 
ensure these reforms are implemented across Russia while 
managing a fragmented bureaucracy beset by informal networks 
that serve private interests. In his quest to build a strong 
state, however, he is trying to establish parameters within 
which political forces must operate. This managed democracy is 
illustrated by his continuing moves against independent 
national television companies.
    On the economic front, Putin will have to take on bank 
reform, overhaul Russia's entrenched monopolies and judicial 
reform to move the country closer to a western style market 
economy. He has made no headway on Chechnya. The war meanwhile 
threatens to spill over into neighboring Georgia. After the 
September 11, he emphatically joined us in the fight against 
terrorism.
    So far Putin's outreach to the United States has incurred 
little political damage. The depth of support within key 
elites, however, notwithstanding popular support, is unclear, 
particularly within the military and security services. Public 
comments by some senior military officers indicate that 
elements of the military doubt that the international situation 
has changed sufficiently to overcome deeply rooted suspicions 
of the United States.
    I want to turn next to China. Mr. Chairman, last year I 
told you that China's drive to become a great power was coming 
sharply into focus. The challenge, I said, was that Beijing saw 
the United States as the primary obstacle to the realization of 
that goal. Certainly a lot has changed. September 11 changed 
the context of China's approach to us, but did not change the 
fundamentals.
    China is developing an increasingly competitive economy and 
building a modern military force with the ultimate objective of 
asserting itself as a great power in East Asia. It fears that 
we are gaining regional influence at China's expense and it 
views our encouragement of a Japanese military role in 
counterterrorism as a support for Japanese rearmament.
    As always, Beijing's approach to the United States must be 
viewed against the backdrop of Chinese domestic politics. I 
told you last year that the approach of a major leadership 
transition and China's accession to the World Trade 
Organization (WTO) would soon be coloring all of Beijing's 
actions. Both of those benchmarks are now upon us.
    The 16th Party Congress will be held this fall and China is 
now confronting the obligations of WTO membership. Its entry 
into the WTO underscores the trepidation the succession 
contenders will have about maintaining internal stability. WTO 
membership is a major challenge to Chinese stability because 
the economic requirements of accession will upset already 
disaffected sectors of the population and increase 
unemployment.
    Mr. Chairman, the Taiwan issue remains central. Cross-
strait relations remain at a stalemate, but there are competing 
trend lines beyond that. Chinese leaders seemed somewhat 
complacent last year that the growing economic integration 
across the Taiwan Strait was boosting Beijing's long-term 
leverage. The results of Taiwan's legislative elections in 
December, however, strengthened President Chen's hand 
domestically. Although Beijing has since invited members of 
Chen's party to visit the mainland, Chinese leaders might 
resume a more confrontational stance if it suspects him of 
using his electoral mandate to move toward independence.
    Taiwan also remains the focus of China's military 
modernization programs. Earlier this month, Beijing announced a 
17.6 percent increase in defense spending. If this trend 
continues, China could double its announced defense spending 
between 2000 and 2005. Over the past year, Beijing's military 
training exercises have taken on an increasingly real world 
focus, emphasizing rigorous practice and operational 
capabilities and improving the military's actual ability to use 
force. This is aimed not only at Taiwan, but also at increasing 
the risk to the United States itself in any future Taiwan 
contingency.
    China continues to upgrade and expand the conventional 
short-range ballistic missile force it has arrayed against 
Taiwan. It is also continues to make progress toward fielding 
its first generation of road mobile strategic missiles, the DF-
31.
    Finally, Mr. Chairman, a word about North Korea. North 
Korea's large standing army continues to be a priority claimant 
on scarce resources. We have seen no evidence that Pyongyang 
has abandoned its goal of eventual reunification of the 
peninsula under the North's control. The accumulative effects 
of prolonged economic mismanagement have left the country 
increasingly susceptible to the possibility of state failure. 
North Korea faces deepening economic deprivation and the return 
of famine, in the absence of fundamental economic reforms and 
large scale international humanitarian assistance.
    It has ignored international efforts to address systemic 
agricultural problems that exacerbate North Korea's chronic 
food shortages. Large numbers of North Koreans face long-term 
health damage as the result of prolonged malnutrition and the 
collapse of the public health network.
    Mr. Chairman, I will stop there. There is a lot more in the 
statement, but I think I have exceeded my 5 or 6 minutes. Thank 
you, sir.
    [The prepared statement of Mr. Tenet follows:]
                 Prepared Statement by George J. Tenet
    Mr. Chairman, I appear before you this year under circumstances 
that are extraordinary and historic for reasons I need not recount. 
Never before has the subject of this annual threat briefing had more 
immediate resonance. Never before have the dangers been more clear or 
more present.
    September 11 brought together and brought home--literally--several 
vital threats to the United States and its interests that we have long 
been aware of. It is the convergence of these threats that I want to 
emphasize with you today: the connection between terrorists and other 
enemies of this country; the weapons of mass destruction they seek to 
use against us; and the social, economic, and political tensions across 
the world that they exploit in mobilizing their followers. September 11 
demonstrated the dangers that arise when these threats converge--and it 
reminds us that we overlook at our own peril the impact of crises in 
remote parts of the world.
    This convergence of threats has created the world I will present to 
you today--a world in which dangers exist not only in those places 
where we have most often focused our attention, but also in other areas 
that demand it:

        <bullet> In places like Somalia, where the absence of a 
        national government has created an environment in which groups 
        sympathetic to al Qaeda have offered terrorists an operational 
        base and potential haven.
        <bullet> In places like Indonesia, where political instability, 
        separatist and ethnic tensions, and protracted violence are 
        hampering economic recovery and fueling Islamic extremism.
        <bullet> In places like Colombia, where leftist insurgents who 
        make much of their money from drug trafficking are escalating 
        their assault on the government--further undermining economic 
        prospects and fueling a cycle of violence.
        <bullet> Finally, Mr. Chairman, in places like Connecticut, 
        where the death of a 94-year-old woman in her own home of 
        anthrax poisoning can arouse our worst fears about what our 
        enemies might try to do to us.

    These threats demand our utmost response. The United States has 
clearly demonstrated since September 11 that it is up to the challenge. 
But make no mistake: despite the battles we have won in Afghanistan, we 
remain a Nation at war.
                               terrorism
    Last year I told you that Osama bin Laden and the al Qaeda network 
were the most immediate and serious threat this country faced. This 
remains true today despite the progress we have made in Afghanistan and 
in disrupting the network elsewhere. We assess that al Qaeda and other 
terrorist groups will continue to plan to attack this country and its 
interests abroad. Their modus operandi is to have multiple attack plans 
in the works simultaneously, and to have al Qaeda cells in place to 
conduct them.

        <bullet> We know that terrorists have considered attacks in the 
        U.S. against high-profile government or private facilities, 
        famous landmarks, and U.S. infrastructure nodes such as 
        airports, bridges, harbors, dams, and financial centers.
        <bullet> American diplomatic and military installations are at 
        high risk--especially in East Africa, Israel, Saudi Arabia, 
        Turkey, Pakistan, and Afghanistan.
        <bullet> Operations against U.S. targets could be launched by 
        al Qaeda cells already in place in major cities in Europe and 
        the Middle East. Al Qaeda can also exploit its presence or 
        connections to other groups in such countries as Somalia, 
        Yemen, Indonesia, and the Philippines.

    Although the September 11 attacks suggest that al Qaeda and other 
terrorists will continue to use conventional weapons, one of our 
highest concerns is their stated readiness to attempt unconventional 
attacks against us. As early as 1998, bin Laden publicly declared that 
acquiring unconventional weapons was ``a religious duty.''

        <bullet> Terrorist groups worldwide have ready access to 
        information on chemical, biological, and even nuclear weapons 
        via the Internet, and we know that al Qaeda was working to 
        acquire some of the most dangerous chemical agents and toxins. 
        Documents recovered from al Qaeda facilities in Afghanistan 
        show that bin Laden was pursuing a sophisticated biological 
        weapons research program.
        <bullet> We also believe that bin Laden was seeking to acquire 
        or develop a nuclear device. Al Qaeda may be pursuing a 
        radioactive dispersal device--what some call a ``dirty bomb.''
        <bullet> Alternatively, al Qaeda or other terrorist groups 
        might try to launch conventional attacks against the chemical 
        or nuclear industrial infrastructure of the United States to 
        cause widespread toxic or radiological damage.

    We are also alert to the possibility of cyber warfare attack by 
terrorists. September 11 demonstrated our dependence on critical 
infrastructure systems that rely on electronic and computer networks. 
Attacks of this nature will become an increasingly viable option for 
terrorists as they and other foreign adversaries become more familiar 
with these targets, and the technologies required to attack them.
    The terrorist threat in the Muslim world goes well beyond al Qaeda. 
The situation in the Middle East continues to fuel terrorism and anti-
U.S. sentiment worldwide. Groups like the Palestine Islamic Jihad (PIJ) 
and Hamas have escalated their violence against Israel, and the 
intifadah has rejuvenated once-dormant groups like the Popular Front 
for the Liberation of Palestine. If these groups feel that U.S. actions 
are threatening their existence, they may begin targeting Americans 
directly.

        <bullet> The terrorist threat also goes beyond Islamic 
        extremists and the Muslim world. The Revolutionary Armed Forces 
        of Colombia (FARC) poses a serious threat to U.S. interests in 
        Latin America because it associates us with the government it 
        is fighting against.
        <bullet> The same is true in Turkey, where the Revolutionary 
        People's Liberation Party/Front has publicly criticized the 
        United States and our operations in Afghanistan.

    We are also watching states like Iran and Iraq that continue to 
support terrorist groups.
        <bullet> Iran continues to provide support--including arms 
        transfers--to Palestinian rejectionist groups and Hizballah. 
        Tehran has also failed to move decisively against al Qaeda 
        members who have relocated to Iran from Afghanistan.
        <bullet> Iraq has a long history of supporting terrorists, 
        including giving sanctuary to Abu Nidal.

    Mr. Chairman, while al Qaeda represents a broad-based Sunni 
worldwide extremist network, it would be a mistake to dismiss possible 
connections to either other groups or state sponsors--either Sunni or 
Shia. There is a convergence of common interest in hurting the U.S., 
its allies, and interests that make traditional thinking in this regard 
unacceptable.
    The war on terrorism has dealt severe blows to al Qaeda and its 
leadership. The group is no longer able to run large-scale training and 
recruitment programs in Afghanistan. Drawing on both our own assets and 
increased cooperation from allies around the world, we are uncovering 
terrorists' plans and breaking up their cells. These efforts have 
yielded the arrest of over 1,300 extremists believed to be associated 
with al Qaeda operatives in over 70 countries, and have disrupted 
terrorist operations and potential terrorist attacks.
    Mr. Chairman, bin Laden did not believe that we would invade his 
sanctuary. He saw the United States as soft, impatient, unprepared, and 
fearful of a long, bloody war of attrition. He did not count on the 
fact that we had lined up allies that could help us overcome barriers 
of terrain and culture. He did not know about the collection and 
operational initiatives that would allow us to strike--with great 
accuracy--at the heart of the Taliban and al Qaeda. He underestimated 
our capabilities, our readiness, and our resolve.
    That said, I must repeat that al Qaeda has not yet been destroyed. 
It and other like-minded groups remain willing and able to strike us. 
Al Qaeda leaders still at large are working to reconstitute the 
organization and to resume its terrorist operations. We must eradicate 
these organizations by denying them their sources of financing and 
eliminating their ability to hijack charitable organizations for their 
terrorist purposes. We must be prepared for a long war, and we must not 
falter.
    Mr. Chairman, we must also look beyond the immediate danger of 
terrorist attacks to the conditions that allow terrorism to take root 
around the world. These conditions are no less threatening to U.S. 
national security than terrorism itself. The problems that terrorists 
exploit--poverty, alienation, and ethnic tensions--will grow more acute 
over the next decade. This will especially be the case in those parts 
of the world that have served as the most fertile recruiting grounds 
for Islamic extremist groups.

        <bullet> We have already seen--in Afghanistan and elsewhere--
        that domestic unrest and conflict in weak states is one of the 
        factors that create an environment conducive to terrorism.
        <bullet> More importantly, demographic trends tell us that the 
        world's poorest and most politically unstable regions--which 
        include parts of the Middle East and Sub-Saharan Africa--will 
        have the largest youth populations in the world over the next 
        two decades and beyond. Most of these countries will lack the 
        economic institutions or resources to effectively integrate 
        these youth into society.
                            the muslim world
    All of these challenges come together in parts of the Muslim world, 
and let me give you just one example. One of the places where they 
converge that has the greatest long-term impact on any society is its 
educational system. Primary and secondary education in parts of the 
Muslim world is often dominated by an interpretation of Islam that 
teaches intolerance and hatred. The graduates of these schools--
``madrasas''--provide the foot soldiers for many of the Islamic 
militant groups that operate throughout the Muslim world.
    Let me underscore what the President has affirmed: Islam itself is 
neither an enemy nor a threat to the United States. But the increasing 
anger toward the West--and toward governments friendly to us--among 
Islamic extremists and their sympathizers clearly is a threat to us. We 
have seen--and continue to see--these dynamics play out across the 
Muslim world. Let me briefly address their manifestation in several key 
countries.
    Our campaign in Afghanistan has made great progress, but the road 
ahead is fraught with challenges. The Afghan people, with international 
assistance, are working to overcome a traditionally weak central 
government, a devastated infrastructure, a grave humanitarian crisis, 
and ethnic divisions that have deepened over the last 20 years of 
conflict. The next few months will be an especially fragile period.

        <bullet> Interim authority chief Hamid Karzai will have to play 
        a delicate balancing game domestically. Ongoing power struggles 
        among Pashtun leaders there underscore the volatility of tribal 
        and personal relations that Karzai must navigate.
        <bullet> Al Qaeda and Taliban elements still at large also pose 
        a continuing threat to the central government and to the 
        security of those involved in reconstruction and humanitarian 
        operations.
        <bullet> Some leaders in the new political order may allow the 
        continuation of opium cultivation to secure advantages against 
        their rivals for power.

    Let me move next to Pakistan. September 11 and the U.S. response to 
it were the most profound external events for Pakistan since the Soviet 
invasion of Afghanistan in 1979, and the U.S. response to that. The 
Musharraf government's alignment with the U.S.--and its abandonment of 
nearly a decade of support for the Taliban--represent a fundamental 
political shift with inherent political risks because of the militant 
Islamic and anti-American sentiments that exist within Pakistan.
    President Musharraf's intention to establish a moderate, tolerant 
Islamic state--as outlined in his landmark 12 January speech--is being 
welcomed by most Pakistanis, but he will still have to confront major 
vested interests. The speech has energized debate across the Muslim 
world about which vision of Islam is the right one for the future of 
the Islamic community.

        <bullet> Musharaff established a clear and forceful distinction 
        between a narrow, intolerant, and conflict-ridden vision of the 
        past and an inclusive, tolerant, and peace-oriented vision of 
        the future.
        <bullet> Incidents like the murder of Wall Street Journal 
        reporter Daniel Pearl, however, highlight the challenges that 
        Musharraf faces in his efforts to crack down on Islamic 
        extremists.

    Although September 11 highlighted the challenges that India-
Pakistan relations pose for U.S. policy, the attack on the Indian 
parliament in December was even more destabilizing--resulting as it did 
in new calls for military action against Pakistan, and subsequent 
mobilization on both sides. The chance of war between these two 
nuclear-armed states is higher than at any point since 1971. If India 
were to conduct large scale offensive operations into Pakistani 
Kashmir, Pakistan might retaliate with strikes of its own in the belief 
that its nuclear deterrent would limit the scope of an Indian 
counterattack.

        <bullet> Both India and Pakistan are publicly downplaying the 
        risks of nuclear conflict in the current crisis. We are deeply 
        concerned, however, that a conventional war--once begun--could 
        escalate into a nuclear confrontation.

    Let me turn now to Iraq. Saddam has responded to our progress in 
Afghanistan with a political and diplomatic charm offensive. Since the 
turn of the year he has hinted at the possible return of inspectors, 
allowed the U.N. Special Rapporteur for Human Rights to visit Baghdad, 
and had his Foreign Minister meet with U.N. Secretary General Annan--
for the first time in over a year--to discuss resolutions pertaining to 
Iraq.
    Saddam has carefully cultivated neighboring states, drawing them 
into economically dependent relationships in hopes of further 
undermining their support for the sanctions. The profits he gains from 
these relationships provide him the means to reward key supporters and, 
more importantly, to fund his pursuit of WMD. His calculus is never 
about bettering or helping the Iraqi people.
    Let me be clear: Saddam remains a threat. He is determined to 
thwart U.N. sanctions, press ahead with weapons of mass destruction, 
and resurrect the military force he had before the Gulf War. Today, he 
maintains his vise grip on the levers of power through a pervasive 
intelligence and security apparatus, and even his reduced military 
force--which is less than half its pre-war size--remains capable of 
defeating more poorly armed internal opposition groups and threatening 
Iraq's neighbors.
    As I said earlier, we continue to watch Iraq's involvement in 
terrorist activities. Baghdad has a long history of supporting 
terrorism, altering its targets to reflect changing priorities and 
goals. It has also had contacts with al Qaeda. Their ties may be 
limited by divergent ideologies, but the two sides' mutual antipathy 
toward the United States and the Saudi royal family suggests that 
tactical cooperation between them is possible--even though Saddam is 
well aware that such activity would carry serious consequences.
    In Iran, we are concerned that the reform movement may be losing 
its momentum. For almost 5 years, President Khatami and his reformist 
supporters have been stymied by Supreme Leader Khamenei and the 
hardliners.

        <bullet> The hardliners have systematically used the unelected 
        institutions they control--the security forces, the judiciary, 
        and the Guardian's Council--to block reforms that challenge 
        their entrenched interests. They have closed newspapers, forced 
        members of Khatami's cabinet from office, and arrested those 
        who have dared to speak out against their tactics.
        <bullet> Discontent with the current domestic situation is 
        widespread and cuts across the social spectrum. Complaints 
        focus on the lack of pluralism and government accountability, 
        social restrictions, and poor economic performance. 
        Frustrations are growing as the populace sees elected 
        institutions such as the Majles and the Presidency unable to 
        break the hardliners' hold on power.

    The hardline regime appears secure for now because security forces 
have easily contained dissenters and arrested potential opposition 
leaders. No one has emerged to rally reformers into a forceful movement 
for change, and the Iranian public appears to prefer gradual reform to 
another revolution. But the equilibrium is fragile and could be upset 
by a miscalculation by either the reformers or the hardline clerics.
    For all of this, reform is not dead. We must remember that the 
people of Iran have demonstrated in four National elections since 1997 
that they want change and have grown disillusioned with the promises of 
the revolution. Social, intellectual, and political developments are 
proceeding, civil institutions are growing, and new newspapers open as 
others are closed.
    The initial signs of Tehran's cooperation and common cause with us 
in Afghanistan are being eclipsed by Iranian efforts to undermine U.S. 
influence there. While Iran's officials express a shared interest in a 
stable government in Afghanistan, its security forces appear bent on 
countering the U.S. presence. This seeming contradiction in behavior 
reflects deep-seated suspicions among Tehran's clerics that the United 
States is committed to encircling and overthrowing them.

        <bullet> We have seen little sign of a reduction in Iran's 
        support for terrorism in the past year. Its participation in 
        the attempt to transfer arms to the Palestinian Authority via 
        the Karine-A probably was intended to escalate the violence of 
        the intifada and strengthen the position of Palestinian 
        elements that prefer armed conflict with Israel.

    The current conflict between Israel and the Palestinians has been 
raging for almost a year and a half and has been deteriorating. The 
violence has hardened the public's positions on both sides and 
increased the longstanding animosity between Israeli Prime Minister 
Sharon and Palestinian leader Arafat. Although many Israelis and 
Palestinians say they believe that ultimately the conflict can only be 
resolved through negotiations, the absence of any meaningful security 
cooperation between Israel and the Palestinian Authority--and the 
escalating and uncontrolled activities of the Palestine Islamic Jihad 
and Hamas--make any progress extremely difficult.

        <bullet> We are concerned that this environment creates 
        opportunities for any number of players--most notably Iran--to 
        take steps that will result in further escalation of violence 
        by radical Palestinian groups.
        <bullet> At the same time, the continued violence threatens to 
        weaken the political center in the Arab world, and increases 
        the challenge for our Arab allies to balance their support for 
        us against the demands of their publics.

    General Zinni's latest mission to broker an end to the violence 
offers a new hope of breaking the current downward spiral. Since it was 
announced, both sides have made gestures to avoid appearing to be 
spoilers. Arafat announced the arrest of the last of the killers of 
Israeli Tourism Minister Ze'evi, and Sharon has said he will not 
require 7 days of quiet before moving to a cease-fire plan.
                             proliferation
    I turn now to the subject of proliferation. I would like to start 
by drawing your attention to several disturbing trends in this 
important area. WMD programs are becoming more advanced and effective 
as they mature, and as countries of concern become more aggressive in 
pursuing them. This is exacerbated by the diffusion of technology over 
time--which enables proliferators to draw on the experience of others 
and to develop more advanced weapons more quickly than they could 
otherwise. Proliferators are also becoming more self-sufficient. They 
are establishing advanced production capabilities by taking advantage 
of both foreign assistance and the dual-use nature of WMD- and missile-
related technologies. This also allows them to conduct WMD- and 
missile-related research under the guise of legitimate commercial or 
scientific activity.
    Let me address in turn the primary categories of WMD proliferation, 
starting with chemical and biological weapons. The CBW threat continues 
to grow for a variety of reasons, and to present us with monitoring 
challenges. The dual-use nature of many CW and BW agents complicates 
our assessment of offensive programs. Many CW and BW production 
capabilities are hidden in plants that are virtually indistinguishable 
from genuine commercial facilities. The technology behind CW and BW 
agents is spreading. We assess there is a significant risk within the 
next few years that we could confront an adversary--either terrorists 
or a rogue state--who possesses them.
    On the nuclear side, we are concerned about the possibility of 
significant nuclear technology transfers going undetected. This 
reinforces our need to more closely examine emerging nuclear programs 
for sudden leaps in capability. Factors working against us include the 
difficulty of monitoring and controlling technology transfers, the 
emergence of new suppliers to covert nuclear weapons programs, and the 
possibility of illicitly acquiring fissile material. All of these can 
shorten timelines and increase the chances of proliferation surprise.
    On the missile side, the proliferation of ICBM and cruise missile 
designs and technology has raised the threat to the U.S. from WMD 
delivery systems to a critical threshold. As outlined in our recent 
National Intelligence Estimate on the subject, most Intelligence 
Community agencies project that by 2015 the U.S. most likely will face 
ICBM threats from North Korea and Iran, and possibly from Iraq. This is 
in addition to the longstanding missile forces of Russia and China. 
Short- and medium-range ballistic missiles pose a significant threat 
now.

        <bullet> Several countries of concern are also increasingly 
        interested in acquiring a land-attack cruise missile (LACM) 
        capability. By the end of the decade, LACMs could pose a 
        serious threat to not only our deployed forces, but possibly 
        even the U.S. mainland.

    Russian entities continue to provide other countries with 
technology and expertise applicable to CW, BW, nuclear, and ballistic 
and cruise missile projects. Russia appears to be the first choice of 
proliferant states seeking the most advanced technology and training. 
These sales are a major source of funds for Russian commercial and 
defense industries and military R&D.

        <bullet> Russia continues to supply significant assistance on 
        nearly all aspects of Tehran's nuclear program. It is also 
        providing Iran assistance on long-range ballistic missile 
        programs.

    Chinese firms remain key suppliers of missile-related technologies 
to Pakistan, Iran, and several other countries. This is in spite of 
Beijing's November 2000 missile pledge not to assist in any way 
countries seeking to develop nuclear-capable ballistic missiles. Most 
of China's efforts involve solid-propellant ballistic missile 
development for countries that are largely dependent on Chinese 
expertise and materials, but it has also sold cruise missiles to 
countries of concern such as Iran.

        <bullet> We are closely watching Beijing's compliance with its 
        bilateral commitment in 1996 not to assist unsafeguarded 
        nuclear facilities, and its pledge in 1997 not to provide any 
        new nuclear cooperation to Iran.
        <bullet> Chinese firms have in the past supplied dual-use CW-
        related production equipment and technology to Iran. We remain 
        concerned that they may try to circumvent the CW-related export 
        controls that Beijing has promulgated since acceding to the CWC 
        and the nuclear Nonproliferation Treaty.

    North Korea continues to export complete ballistic missiles and 
production capabilities along with related raw materials, components, 
and expertise. Profits from these sales help P'yongyang to support its 
missile--and probably other WMD--development programs, and in turn 
generate new products to offer to its customers--primarily Iran, Libya, 
Syria, and Egypt. North Korea continues to comply with the terms of the 
Agreed Framework that are directly related to the freeze on its reactor 
program, but P'yongyang has warned that it is prepared to walk away 
from the agreement if it concluded that the United States was not 
living up to its end of the deal.
    Iraq continues to build and expand an infrastructure capable of 
producing WMD. Baghdad is expanding its civilian chemical industry in 
ways that could be diverted quickly to CW production. We believe it 
also maintains an active and capable BW program; Iraq told UNSCOM it 
had worked with several BW agents.

        <bullet> We believe Baghdad continues to pursue ballistic 
        missile capabilities that exceed the restrictions imposed by 
        U.N. resolutions. It may also have retained the capability to 
        deliver BW or CW agents using modified aircraft or other 
        unmanned aerial vehicles.
        <bullet> We believe Saddam never abandoned his nuclear weapons 
        program. Iraq retains a significant number of nuclear 
        scientists, program documentation, and probably some dual-use 
        manufacturing infrastructure that could support a reinvigorated 
        nuclear weapons program. Baghdad's access to foreign expertise 
        could support a rejuvenated program, but our major near-term 
        concern is the possibility that Saddam might gain access to 
        fissile material.

    Iran remains a serious concern because of its across-the-board 
pursuit of WMD and missile capabilities. Tehran may be able to 
indigenously produce enough fissile material for a nuclear weapon by 
late this decade. Obtaining material from outside could cut years from 
this estimate. Iran may also flight-test an ICBM later this decade, 
using either Russian or North Korean assistance. Having already 
deployed several types of UAVs--including some in an attack role--Iran 
may seek to develop or otherwise acquire more sophisticated LACMs. It 
also continues to pursue dual-use equipment and expertise that could 
help to expand its BW arsenal, and to maintain a large CW stockpile.
    Both India and Pakistan are working on the doctrine and tactics for 
more advanced nuclear weapons, producing fissile material, and 
increasing their nuclear stockpiles. We have continuing concerns that 
both sides may not be done with nuclear testing. Nor can we rule out 
the possibility that either country could deploy their most advanced 
nuclear weapons without additional testing. Both countries also 
continue development of long-range nuclear-capable ballistic missiles, 
and plan to field cruise missiles with a land-attack capability.
    As I have mentioned in years past, we face several unique 
challenges in trying to detect WMD acquisition by proliferant states 
and non-state actors. Their use of denial and deception tactics, and 
their access to a tremendous amount of information in open sources 
about WMD production, complicate our efforts. So does their 
exploitation of space. The unique spaceborne advantage that the U.S. 
has enjoyed over the past few decades is eroding as more countries--
including China and India--field increasingly sophisticated 
reconnaissance satellites. Today there are three commercial satellites 
collecting high-resolution imagery, much of it openly marketed. Foreign 
military, intelligence, and terrorist organizations are exploiting 
this--along with commercially available navigation and communications 
services--to enhance the planning and conduct of their operations.
    Let me mention here another danger that is closely related to 
proliferation: the changing character of warfare itself. As 
demonstrated by September 11, we increasingly are facing real or 
potential adversaries whose main goal is to cause the United States 
pain and suffering, rather than to achieve traditional military 
objectives. Their inability to match U.S. military power is driving 
some to invest in ``asymmetric'' niche capabilities. We must remain 
alert to indications that our adversaries are pursuing such 
capabilities against us.
                                 russia
    Mr. Chairman, let me turn now to other areas of the world where the 
U.S. has key interests, beginning with Russia. The most striking 
development regarding Russia over the past year has been Moscow's 
greater engagement with the United States. Even before September 11, 
President Putin had moved to engage the U.S. as part of a broader 
effort to integrate Russia more fully into the West, modernize its 
economy, and regain international status and influence. This strategic 
shift away from a zero-sum view of relations with the United States is 
consistent with Putin's stated desire to address the many socioeconomic 
problems that cloud Russia's future.
    During his second year in office, Putin moved strongly to advance 
his policy agenda. He pushed the Duma to pass key economic legislation 
on budget reform, legitimizing urban property sales, flattening and 
simplifying tax rates, and reducing red tape for small businesses. His 
support for his economic team and its fiscal rigor positioned Russia to 
pay back wages and pensions to state workers, amass a post-Soviet high 
of almost $39 billion in Reserves, and meet the major foreign debt 
coming due this year (about $14 billion) and next (about $16 billion).

        <bullet> He reinvigorated military reform by placing his top 
        lieutenant atop the Defense Ministry and increasing military 
        spending for the second straight year--even as he forced tough 
        decisions on de-emphasizing strategic forces, and pushing for a 
        leaner, better-equipped conventional military force.

    This progress is promising, and Putin is trying to build a strong 
Presidency that can ensure these reforms are implemented across 
Russia--while managing a fragmented bureaucracy beset by informal 
networks that serve private interests. In his quest to build a strong 
state, however, he is trying to establish parameters within which 
political forces must operate. This ``managed democracy'' is 
illustrated by his continuing moves against independent national 
television companies.

        <bullet> On the economic front, Putin will have to take on bank 
        reform, overhaul of Russia's entrenched monopolies, and 
        judicial reform to move the country closer to a Western-style 
        market economy and attract much-needed foreign investment.

    Putin has made no headway in Chechnya. Despite his hint in 
September of a possible dialogue with Chechen moderates, the fighting 
has intensified in recent months, and thousands of Chechen guerrillas--
and their fellow Arab mujahedeen fighters--remain. Moscow seems 
unwilling to consider the compromises necessary to reach a settlement, 
while divisions among the Chechens make it hard to find a 
representative interlocutor. The war, meanwhile, threatens to spill 
over into neighboring Georgia.
    After September 11, Putin emphatically chose to join us in the 
fight against terrorism. The Kremlin blames Islamic radicalism for the 
conflict in Chechnya and believes it to be a serious threat to Russia. 
Moscow sees the U.S.-led counterterrorism effort--particularly the 
demise of the Taliban regime--as an important gain in countering the 
radical Islamic threat to Russia and Central Asia.
    So far, Putin's outreach to the United States has incurred little 
political damage, largely because of his strong domestic standing. 
Recent Russian media polls show his public approval ratings at around 
80 percent. The depth of support within key elites, however, is 
unclear--particularly within the military and security services. Public 
comments by some senior military officers indicate that elements of the 
military doubt that the international situation has changed 
sufficiently to overcome deeply rooted suspicions of U.S. intentions.
    Moscow retains fundamental differences with Washington on key 
issues, and suspicion about U.S. motives persists among Russian 
conservatives--especially within the military and security services. 
Putin has called the intended U.S. withdrawal from the ABM treaty a 
``mistake,'' but has downplayed its impact on Russia. At the same time, 
Moscow is likely to pursue a variety of countermeasures and new weapons 
systems to defeat a deployed U.S. missile defense.
                                 china
    I turn next to China. Last year I told you that China's drive to 
become a great power was coming more sharply into focus. The challenge, 
I said, was that Beijing saw the United States as the primary obstacle 
to its realization of that goal. This was in spite of the fact that 
Chinese leaders at the same time judged that they needed to maintain 
good ties with Washington. A lot has happened in U.S.-China relations 
over the past year, from the tenseness of the EP-3 episode in April to 
the positive image of President Bush and Jiang Zemin standing together 
in Beijing last month, highlighting our shared fight against terrorism.
    September 11 changed the context of China's approach to us, but it 
did not change the fundamentals. China is developing an increasingly 
competitive economy and building a modern military force with the 
ultimate objective of asserting itself as a great power in East Asia. 
Although Beijing joined the coalition against terrorism, it remains 
deeply skeptical of U.S. intentions in Central and South Asia. It fears 
that we are gaining regional influence at China's expense, and it views 
our encouragement of a Japanese military role in counterterrorism as 
support for Japanese rearmament.
    As always, Beijing's approach to the United States must be viewed 
against the backdrop of China's domestic politics. I told you last year 
that the approach of a major leadership transition and China's 
accession to WTO would soon be coloring all of Beijing's actions. Both 
of those benchmarks are now upon us. The 16th Communist Party Congress 
will be held this fall, and China is now confronting the obligations of 
WTO membership.
    On the leadership side, Beijing is likely to be preoccupied this 
year with succession jockeying, as top leaders decide who will get what 
positions--and who will retire--at the Party Congress and in the 
changeover in government positions that will follow next spring. This 
preoccupation is likely to translate into a cautious and defensive 
approach on most policy issues. It probably also translates into a 
persistently nationalist foreign policy, as each of the contenders in 
the succession contest will be obliged to avoid any hint of being 
``soft'' on the United States.
    China's entry into the WTO underscores the trepidation the 
succession contenders will have about maintaining internal stability. 
WTO membership is a major challenge to Chinese stability because the 
economic requirements of accession will upset already disaffected 
sectors of the population and increase unemployment. If China's leaders 
stumble in WTO implementation--and even if they succeed--they will face 
rising socioeconomic tensions at a time when the stakes in the 
succession contest are pushing them toward a cautious response to 
problems. In the case of social unrest, that response is more likely to 
be harsh than accommodative toward the population at large.
    The Taiwan issue remains central. Cross-strait relations remain at 
a stalemate, but there are competing trend lines behind that. Chinese 
leaders seemed somewhat complacent last year that the growing economic 
integration across the Taiwan Strait was boosting Beijing's long-term 
leverage. The results of Taiwan's legislative elections in December, 
however, strengthened President Chen's hand domestically. Although 
Beijing has since invited members of Chen's party to visit the 
mainland, Chinese leaders might resume a more confrontational stance if 
it suspects him of using his electoral mandate to move toward 
independence.
    Taiwan also remains the focus of China's military modernization 
programs. Earlier this month, Beijing announced a 17.6 percent increase 
in defense spending--replicating last year's increase of 17.7 percent. 
If this trend continues, China could double its announced defense 
spending between 2000 and 2005.

        <bullet> Over the past year, Beijing's military training 
        exercises have taken on an increasingly real-world focus, 
        emphasizing rigorous practice in operational capabilities and 
        improving the military's actual ability to use force. This is 
        aimed not only at Taiwan but also at increasing the risk to the 
        United States itself in any future Taiwan contingency.
        <bullet> China continues to upgrade and expand the conventional 
        short-range ballistic missile force it has arrayed against 
        Taiwan. It also continues to make progress towards fielding its 
        first generation of road mobile strategic missiles--the DF-31. 
        A longer-range version capable of reaching targets in the U.S. 
        will become operational later in the decade.
                              north korea
    Staying within East Asia for a moment, let me update you on North 
Korea. The suspension last year of engagement between P'yongyang, 
Seoul, and Washington reinforced the concerns I cited last year about 
Kim Chong-il's intentions toward us and our allies in Northeast Asia. 
Kim's reluctance to pursue constructive dialogue with the South or to 
undertake meaningful reforms suggests that he remains focused on 
maintaining internal control--at the expense of addressing the 
fundamental economic failures that keep the North mired in poverty and 
pose a long-term threat to the country's stability. North Korea's large 
standing army continues to be a priority claimant on scarce resources, 
and we have seen no evidence that P'yongyang has abandoned its goal of 
eventual reunification of the Peninsula under the North's control.
    The cumulative effects of prolonged economic mismanagement have 
left the country increasingly susceptible to the possibility of state 
failure. North Korea faces deepening economic deprivation and the 
return of famine in the absence of fundamental economic reforms and the 
large-scale international humanitarian assistance it receives--an 
annual average of 1 million metric tons of food aid over the last 5 
years. It has ignored international efforts to address the systemic 
agricultural problems that exacerbate the North's chronic food 
shortages. Grain production appears to have roughly stabilized, but it 
still falls far short of the level required to meet minimum nutritional 
needs for the population. Large numbers of North Koreans face long-term 
health damage as a result of prolonged malnutrition and collapse of the 
public health network.
                             latin america
    Other important regions of the developing world are test cases for 
many of the political, social, and demographic trends I identified 
earlier--trends that pose latent or growing challenges to U.S. 
interests, and sometimes fuel terrorists. I have already mentioned 
Southeast Asia in this respect, citing the rise of Islamic extremism in 
Indonesia and terrorist links in the Philippines.
    Latin America is becoming increasingly volatile as the potential 
for instability there grows. The region has been whipsawed by five 
economic crises in as many years, and the economic impact of September 
11 worsened an already bleak outlook for regional economies as the 
global slump reduces demand for exports.
    In this context, I am particularly concerned about Venezuela, our 
third largest supplier of petroleum. Domestic unhappiness with 
President Chavez's ``Bolivarian revolution'' is growing, economic 
conditions have deteriorated with the fall in oil prices, and the 
crisis atmosphere is likely to worsen. In Argentina, President Duhalde 
is trying to maintain public order while putting into place the 
groundwork for recovery from economic collapse, but his support base is 
thin.
    Colombia too remains highly volatile. Last month the peace process 
collapsed and President Pastrana ordered the military to retake the 
territorial safehaven of the Revolutionary Armed Forces of Colombia. 
The FARC has responded with a stepped-up bombing campaign against 
economic targets. As a result, the tenuous security situation is taking 
a toll on the economy and increasing the dangers for U.S. military 
advisers in the country. Together, the difficult security and economic 
conditions have hampered Bogota's ability to implement Plan Colombia's 
counterdrug and social programs. Colombia remains the cornerstone of 
the world's cocaine trade, and the largest source of heroin for the 
U.S. market.
                                 africa
    The chronic problems of Sub-Saharan Africa make it, too, fertile 
ground for direct and indirect threats to U.S. interests. Governments 
without accountability and natural disasters have left Africa with the 
highest concentration of human misery in the world. It is the only 
region where average incomes have declined since 1970, and Africans 
have the world's lowest life expectancy at birth. These problems have 
been compounded by the HIV/AIDS pandemic, which will kill more than 2 
million Africans this year, making it the leading source of mortality 
in the region.
    Given these grim facts, the risk of state failures in Sub-Saharan 
Africa will remain high. In the past decade, the collapse of 
governments in Somalia, Liberia, Rwanda, Congo-Kinshasa, and elsewhere 
has led the United States and other international partners to provide 
hundreds of millions of dollars worth of aid, and to deploy thousands 
of peacekeepers. A number of other African states--including Zimbabwe 
and Liberia--are poised to follow the same downward spiral. In 
Zimbabwe, President Mugabe's attempts to rig the presidential election 
last week increase the chances of a collapse in law and order that 
could spill over into South Africa and other neighbors. The UN-
monitored truce between Ethiopia and Eritrea also remains fragile.
                                balkans
    Finally, let me briefly mention the Balkans, the importance of 
which is underlined by the continuing U.S. military presence there. 
International peacekeeping troops, with a crucial core from NATO, are 
key to maintaining stability in the region.
    In Macedonia, the Framework Agreement brokered by the United States 
and the EU has eased tensions by increasing the ethnic Albanians' 
political role, but it remains fragile and most of the agreement has 
yet to be implemented. Ethnic Slavs are worried about losing their 
dominance in the country. If they obstruct implementation of the 
accord, many Albanians could decide that the Slav-dominated 
government--and by extension the international community--cannot be 
trusted.
    U.S. and other international forces are most at risk in Bosnia, 
where Islamic extremists from outside the region played an important 
role in the ethnic conflicts of the 1990s. There is considerable 
sympathy for international Islamic causes among the Muslim community in 
Bosnia. Some of the mujahedin who fought in the Bosnian wars of the 
early 1990s stayed there. These factors combine with others present 
throughout the Balkans--weak border controls, large amounts of weapons, 
and pervasive corruption and organized crime--to sustain an ongoing 
threat to U.S. forces there.
                               conclusion
    Mr. Chairman, I want to end my presentation by reaffirming what the 
President has said on many occasions regarding the threats we face from 
terrorists and other adversaries. We cannot--and will not--relax our 
guard against these enemies. If we did so, the terrorists would have 
won. That will not happen. The terrorists, rather, should stand warned 
that we will not falter in our efforts, and in our commitment, until 
the threat they pose to us has been eliminated.
    Thank you, Mr. Chairman. I welcome any questions you and your 
colleagues have for me.

    Chairman Levin. You have done very well. Thank you very 
much, Mr. Tenet. Admiral Wilson, we will hear from you.

STATEMENT OF VICE ADM. THOMAS R. WILSON, USN, DIRECTOR, DEFENSE 
                      INTELLIGENCE AGENCY

    Admiral Wilson. Good morning, Mr. Chairman. I would like to 
start by thanking you for your gracious comments about the DIA 
employees who were lost in the Pentagon. Also I should thank 
Senator Warner for reading their names and stories into the 
Congressional Record at the time of their memorial service. We 
appreciate it. I also point out that eight members of Naval 
Intelligence who were members of the General Defense 
Intelligence Program Federation also lost their lives in that 
attack.
    What I would like to do to supplement the Director of 
Central Intelligence's (DCI) country by country comments is 
restrict myself to a few preliminary observations about how the 
events of September 11 and their aftermath are affecting the 
emerging global security environment and our intelligence 
threat paradigm.
    For several years I and others have been talking about the 
asymmetric threat to the homeland and, on September 11, that 
theory became reality. A strategic attack was carried out not 
by the military forces of a rival state, but by a shadowy 
global network of extremists and terrorists who struck 
unprotected targets using methods we did not anticipate. The 
attack has turned two of our strengths--a free, tolerant and 
open society and the world's best air transportation system--
into deadly vulnerabilities. Their attack had human, economic, 
and psychological impacts of deep proportions.
    The terrorists were not deterred by our overwhelming 
military superiority. In fact for that day at least, they made 
it irrelevant. In the wake of that attack, traditional concepts 
of strategic threat, security, deterrence, warning and military 
superiority do not completely apply.
    Perhaps the most critical dynamic following the terrorist 
attacks is how the rest of the world now perceives the United 
States. On one hand, September 11 exposed our vulnerabilities 
and demonstrated the strategic potential of a well-executed 
asymmetric attack, facts that are extremely appealing to our 
foes. But rather than demoralizing us, the attack generated 
intense patriotism and resolve at home, sympathy and support 
abroad, and a greater willingness among the major powers to 
accept or accede to U.S. leadership at least temporarily. The 
speed and efficiency with which we projected power to an 
austere theater of operations, deposed the Taliban and continue 
to attack the al Qaeda network are leaving a lasting 
impression.
    Over the longer term, the outcome of the war on terrorism 
will be decisive in determining international perceptions of 
the United States. Success will strengthen our role and 
leverage and accentuate positive trends. Failure would invite a 
host of challenges.
    In many respects, the post-Cold War period ended on 
September 11. The next decade or so may well be defined by the 
struggle over globalization. Values and concepts long 
championed by the United States and the West, political and 
economic openness, democracy and individual rights, market 
economics, international trade, scientific rationalism and the 
rule of law, are being carried forward on the tide of 
globalization.
    Money, people, information, technology, ideas, goods and 
services are moving around the globe at higher speeds and with 
fewer restrictions. Our adversaries increasingly understand 
this link. They equate globalization to ``Americanization'' and 
see the United States as the principal architect and primary 
beneficiary of an emerging order that undermines their values, 
interests, beliefs, and culture. They blame the United States 
for what's wrong in the world and seek allies among states, 
groups, and individuals who worry about U.S. hegemony and are 
unhappy with the present or perceived future. They are adept at 
using globalization against us, exploiting the freer flow of 
money, people and technology, attacking the vulnerability 
presented by political and economic openness and using 
globalization's down side to foster an extremist message and 
attract recruits and support from among globalization's losers.
    In this context, the September terrorist attacks were the 
first strategic strikes in a war against our vision and the 
future world order. They targeted our homeland, but also struck 
a blow against global openness, the global transportation 
network, and the global economy. These extremists and their 
allies understand that their desired world cannot coexist with 
our brand of civilization. Encouraging, furthering and 
consolidating the positive aspects of globalization while 
reducing and managing its down sides and defeating its enemies 
may well be the civilized world's measure of merit for the next 
decade.
    Finally, even before September 11, I expected the coming 
decade to be at least as turbulent as the 1990s, because the 
basic factors driving global change are still largely at play. 
Since then my expectation of uncertainty has only heightened. 
The global economic outlook is worse. There are likely to be 
more people in need. Global defense and security issues are 
murkier. The Muslim world is under increased pressure, and key 
strategic relationships between the United States, Russia, 
China, India and Pakistan, for instance, are more in flux.
    At the same time, long-standing regional disputes, 
especially in the Middle East and South Asia, have taken on 
added global importance. In light of the above, I have 
accelerated my consideration of a new threat paradigm designed 
to capture the full range of challenges likely to confront our 
Nation during the next decade or so. This emerging framework 
rests on several basic ideas: the likelihood of prolonged 
global uncertainty, thoughts about how others are reacting to 
their perception of U.S. dominance, the notion of dangerous 
conditions arising from the convergence of negative global 
trends, the strategic importance of the asymmetric threat and 
one element that has not changed since September 11, the 
continuing military threat posed by the strategic and regional 
forces of other nations.
    Mr. Chairman, I would like to leave you with the 
understanding that we are working diligently to improve our 
capacity to handle all of these intelligence challenges, but 
the path is not an easy one. The complex nature of the global 
environment and the characteristics of many emerging threats, 
extremist, global, non-state, networked, adaptive--make them 
less vulnerable to traditional means. Ultimately we must 
improve our capacity to deal with these asymmetric adversaries 
even as we expand our understanding of more traditional 
military threats and enhance our ability to support military 
operations on the conventional battlefield.
    Mr. Chairman, I appreciate your and the committee's 
continued support in ensuring that our intelligence 
capabilities remain the best in the world. Thank you.
    [The prepared statement of Admiral Wilson follows:]
        Prepared Statement by Vice Admiral Thomas R. Wilson, USN
    The written testimony I provided this and other Congressional 
committees last February had three sections. The first highlighted key 
trends shaping the emerging global security environment and concluded 
that the general turmoil and uncertainty prevalent since the end of the 
Cold War would continue through the next decade, because the basic 
conditions driving change remained largely in place. The second section 
listed those potential near-term scenarios that worried me most. Some 
of these--a major terrorist attack against the U.S., worsening 
conditions in the Middle East, conflict between India and Pakistan--
were unfortunately, all too accurate. Others--dramatic changes on the 
Korean peninsula, worsening relations with Russia, and conflict between 
China and Taiwan--we continue to monitor. The final section, longer 
term concerns, focused on challenges resulting from the extent and pace 
of our global military engagement, the asymmetric threat, and the 
threat posed by the strategic and regional military forces of potential 
adversaries.
    On balance, I stand by last year's testimony, and believe it still 
captures the broad range of security issues most likely to confront the 
United States over the next decade or so. That said, the catastrophic 
events of 11 September (and their aftermath) brought a new dynamic to 
the global situation. While the longer term implications--for us, our 
adversaries, and the rest of the world--are still to be determined, we 
can make some preliminary observations.
      the post-september 11 security environment: what's changed?
A New Notion of `Strategic' Threat
    September 11 brought home the sharp reality of what previously had 
been more a theoretical concept--the asymmetric threat to our homeland. 
A strategic attack was carried out against U.S. territory, not by the 
military forces of a rival state, but by a shadowy, global network of 
extremists, who struck unprotected targets, using methods we did not 
anticipate. The attackers turned two of our strengths--a free, 
tolerant, and open society, and the world's best air transportation 
system--into deadly vulnerabilities. Their attack had deep human, 
economic, and psychological impacts. The terrorists were not deterred 
by our overwhelming military superiority, in fact, for that day at 
least, they made it irrelevant. Traditional concepts of security, 
threat, deterrence, warning and military superiority don't completely 
apply against this new strategic adversary.
Perceptions of the U.S.
    Perhaps the most critical dynamic in the wake of the terrorist 
attacks is how the rest of the world now perceives the U.S. On one 
hand, September 11 exposed U.S. vulnerabilities and demonstrated the 
strategic potential of a well-executed asymmetric attack, facts that 
are extremely appealing to our foes. But rather than demoralizing the 
U.S., the attack generated intense patriotism and resolve at home, 
sympathy and support from peoples and states around the globe, and a 
greater willingness among the major powers to accept or accede to U.S. 
leadership (at least temporarily). The speed and efficiency with which 
we have projected power to an austere theater, deposed the Taliban, and 
continue to attack al Qaeda, are leaving a lasting impression. Over the 
longer-term, the outcome of the war on terrorism will be decisive in 
determining international perceptions of the U.S. Success will 
strengthen our role and leverage, and accentuate positive trends. 
Failure would invite a host of challenges.
A New Struggle
    The `Post Cold War' period ended on 11 September. The next decade 
or so may well be defined by `the struggle over globalization.' Values 
and concepts long championed by the United States and the West--
political and economic openness, democracy and individual rights, 
market economics, international trade, scientific rationalism, and the 
rule of law--are being carried forward on the tide of globalization--
money, people, information, technology, ideas, goods and services 
moving around the globe at higher speeds and with fewer restrictions. 
Our adversaries increasingly understand this link. They equate 
globalization to Americanization and see the U.S. as the principal 
architect and primary beneficiary of an emerging order that undermines 
their values, interests, beliefs, and culture. They blame the U.S. for 
`what's wrong' in the world, and seek allies among states, groups, and 
individuals who worry about U.S. hegemony and are unhappy with the 
present or perceived future. They are adept at using globalization 
against us--exploiting the freer flow of money, people, and technology 
. . . attacking the vulnerabilities presented by political and economic 
openness . . . and using globalization's `downsides' (demographic and 
economic imbalances, large numbers of unemployed youth, western 
cultural penetration, declining living standards, corrupt and 
ineffective governments, decaying infrastructures, etc.) to foster an 
extremist message, and attract recruits and support from among 
`globalization's losers.'
    The 11 September terrorist attacks were the first strategic strikes 
in a war against the U.S. vision of the future world order. They 
targeted our homeland, but also struck a blow against global openness, 
the global transportation network, and the global economy. These 
extremists and their allies understand that their desired world cannot 
coexist with our brand of civilization. Encouraging, furthering and 
consolidating the positive aspects of globalization, while reducing and 
managing its downsides, and defeating its enemies, may well be the 
civilized world's `measure of merit' for the next decade.
Increased Uncertainty . . . and Unpredictability
    Last year, I highlighted several trends--globalization . . . 
disaffected states, groups, and individuals . . . demographic changes . 
. . rapid technology development and proliferation . . . ethnic 
conflict . . . resource shortages . . . humanitarian emergencies . . . 
and the uncertain future of Russia, China, and other key states and 
regions--as the factors most likely to define the emerging security 
environment. Recognizing the `staying power' of these trends, and their 
combined impact on global stability, I concluded that the next decade 
would be at least as turbulent and uncertain as the 1990s. Since 
September 11, my `expectation of turmoil and uncertainty' has 
heightened significantly:

        <bullet> The global economy looks worse than it did last year, 
        when most analysts were forecasting a near-term return to the 
        high-growth experience of the late 1960s and early 1970s. Many 
        now fear a global recession, which will take a heavy toll, 
        especially on countries like Argentina, Brazil and Turkey.
        <bullet> The number of people in need will likely increase 
        significantly over last year's outlook, a function of the 
        global economic slowdown, increasing emigration pressures in 
        low income countries, and continuing humanitarian pressures in 
        Afghanistan, Burundi, North Korea, Sudan, and Tajikistan.
        <bullet> Global defense issues are murkier. Last year, we were 
        anticipating a gradual increase in global defense spending, 
        believing that many states would seek to recapitalize defense 
        sectors neglected during the 1990s. A global recession will 
        undermine that. Spending constraints will also impact global 
        arms markets, defense industrial cooperation and consolidation, 
        and the pace of global military technology development. 
        Meanwhile, many states will reassess their military and 
        security needs, questioning the role of traditional military 
        forces in deterring and defeating terrorism and other 
        asymmetric threats.
        <bullet> The Muslim world is under increased pressure and may 
        be at a strategic crossroads, as populations and leaders sort 
        through competing visions of what it means to be a Muslim 
        state. Longstanding issues--resentment toward the U.S. and the 
        West, unfavorable demographic and economic conditions, efforts 
        to strike a balance between modernization and respect for 
        traditional values--are exacerbated by the global war on 
        terrorism. These pressures will be most acute in moderate Arab 
        states and Indonesia.
        <bullet> Geostrategic relationships are also more in flux since 
        September. The war on terrorism is affecting the global 
        perspective of all major powers, and relations between and 
        among the U.S., Russia, China, India, and Pakistan are 
        especially dynamic. New opportunities and challenges abound. By 
        the same token, longstanding regional problems--especially 
        Kashmir and the Israeli-Palestinian dispute--have taken on 
        increased global importance.

Near-Term Concerns
    The list of near-term (12 months) things that worry me most has 
changed somewhat since 11 September. In terms of `good news,' I am more 
optimistic now about the potential for lasting improvement in our 
relations with Russia. Putin's decision to side with the U.S. in 
fighting terrorism could be historic, although I recognize that 
obstacles remain. I am also less concerned about the prospects for a 
major confrontation between China and Taiwan. Beijing faces significant 
domestic changes in the coming year--the 16th Party Congress will take 
place this fall, and China will undertake a number of actions in line 
with WTO membership--and will want to use its cooperation on the war on 
terrorism as a means to ease tensions and maintain stability on the 
foreign policy front. Now for the bad news:

        <bullet> A major terrorist attack against U.S. interests here 
        or abroad, designed to produce mass casualties and/or severe 
        infrastructure and economic damage, remains my most pressing 
        concern (I will discuss the issue in more detail on page 13). 
        Operation Enduring Freedom has done significant damage to Osama 
        bin Laden's al Qaeda network, but it has not eliminated the 
        threat. Al Qaeda is not the only organization with the 
        capability and desire to do us harm.
        <bullet> Escalating violence in the Middle East is also still 
        high on my list. The Palestinian-Israeli conflict is 
        intensifying and both sides increasingly operate from a zero-
        sum perspective. The pressure on moderate Arab governments is 
        high. The situation could escalate rapidly, risking instability 
        within these states and/or a wider regional war.
        <bullet> Major war between India and Pakistan.  Tensions remain 
        high, and another high-profile terrorist attack inside India or 
        a major border incident between deployed forces could trigger a 
        general war, possibly risking a nuclear exchange. Neither side 
        has a complete appreciation of the other's red lines. The 
        potential for miscalculation is frightening.
        <bullet> Internal challenges to Pakistan's government. 
        President Musharraf has made dramatic changes in Pakistan, but 
        he faces opposition, perhaps violent, from extremists. 
        Pakistan's future course has a direct impact on U.S. 
        counterterrorism and counter-proliferation policies.
        <bullet> Widespread violence against U.S. citizens and 
        interests in Colombia, the Philippines, or Indonesia. 
        Political, economic, and social conditions and developments in 
        all these areas could result in an increased physical threat to 
        U.S. citizens and facilities.
                         a new threat paradigm
    During the Cold War, and in the period since the collapse of the 
Soviet Union, our threat paradigm focused primarily on other states, 
and especially the military `force-on-force' capabilities of known 
enemies. Even transnational issues--terrorism, crime, proliferation, 
the drug trade--were seen mostly from a state perspective, either in 
terms of state-sponsorship, or with the understanding that troubled 
states allowed or fostered these activities. This view oriented our 
National security response toward activities designed to influence the 
behavior of other nations--deterrence, demarches, economic sanctions, 
military assistance, etc. It put a very high premium on military power 
as the ultimate guarantor of our security.
    In today's world, this state-oriented threat model is necessary, 
but not sufficient. It no longer covers the entire threat spectrum, and 
those areas it leaves out can not be dismissed as `lesser included 
cases.' Globalization is creating new conditions that minimize the 
importance of national boundaries. Small cells operating within a 
state, or larger networks that transcend international borders, can do 
us great harm. Non-state adversaries are not likely to be deterred by 
our overwhelming military superiority, and will often present 
challenges that do not lend themselves to a predominantly military 
solution.
    In the wake of September 11, I have accelerated consideration of a 
new paradigm for assessing the full range of security challenges we 
face now and in the future. That framework rests on several basic 
ideas: the expectation of continuing global turmoil (outlined above) . 
. . thoughts about how others are reacting to the perception of U.S. 
dominance . . . the notion of dangerous conditions created by the 
convergence of numerous negative global trends . . . the strategic 
importance of the asymmetric threat . . . and one element that hasn't 
changed since 11 September--the traditional military threat posed by 
the strategic and regional forces of other nations. Collectively, these 
factors create an extremely dynamic, complex, and problematic global 
environment. Our security depends on the integrated application of all 
elements of national power against the full range of security 
challenges.
Identifying the Players (How Others React to Our Global Capabilities 
        and Status)
    Much of the world increasingly worries that the key trends driving 
global change--especially globalization--are inherently pro-U.S. and 
will result in the expansion, consolidation and dominance of American 
ideas, institutions, culture, and power. This causes varying degrees of 
apprehension, and the way that states, groups, and individuals react to 
that feeling will in many ways frame our strategic agenda. I see four 
general categories of reaction:

        <bullet> Friendly competitors. Our friends and allies are as 
        vital to our security as we are to theirs. They share our 
        values and vision of the future, prosper from globalization, 
        and are the least apprehensive about U.S. power. They desire 
        and benefit from U.S. leadership, even as they chafe at some 
        aspects of it. They will compete with us economically, and will 
        be at odds on select security issues, but are with us on the 
        big strategic challenges. While our differences are not 
        trivial, they generally fall into the policy realm--
        interoperability, burden sharing, arguments over specific 
        regional perspectives, U.N. Security Council votes, defense 
        industrial cooperation, coalition dynamics, etc. Our challenge 
        is to maintain productive relationships that secure our shared 
        interests.
        <bullet> People on the bubble. Much of the world--including 
        most larger regional powers--only partially shares our vision. 
        They want to secure what benefits they can from globalization 
        without being overwhelmed by it. They typically are not yet 
        willing or able to embrace it fully, fearing the domestic 
        consequences, and wary of U.S. `hegemony.' Those `on the 
        bubble' generally want to back a winner, and will frequently be 
        with us on the `easy' issues. But they will also pursue 
        policies that work against our interests (proliferation, for 
        instance), oppose us on a wider range of security questions, 
        and will frequently maintain troubling foreign relationships 
        and significant military forces as a hedge against U.S.-Western 
        dominance. They will generally present `carrot and stick' kinds 
        of problems for U.S. security . . . they must be deterred and 
        dissuaded from military `adventurism,' while being encouraged 
        and rewarded for actions that bring them closer to the 
        community of responsible nations.
        <bullet> Rogues, renegades, and outlaws. These states, groups, 
        and individuals fear U.S. power and absolutely reject our 
        vision. They blame us for the `world's problems' and will 
        routinely engage in violence, using primarily asymmetric means 
        to target our policies, facilities, interests, and citizens. 
        They respect, but are not necessarily deterred by our military 
        strength. They will not fight by our rules. Our vision cannot 
        coexist with theirs.
        <bullet> The `have nots.' These are `globalization's losers' . 
        . . too poor, uneducated, badly governed or otherwise 
        disadvantaged to reap the benefits of political and economic 
        openness. They generally face deepening economic stagnation, 
        political instability, and cultural alienation. On the surface, 
        this group is relatively powerless, and presents more 
        humanitarian than security challenges. But the conditions they 
        live in are fertile ground for political, ethnic, ideological, 
        and religious extremism, and their frustration is increasingly 
        directed at the United States and the West. In the globalized 
        world we ignore them at our own peril.
Dangerous Conditions . . . Accentuating the Negatives
    Many global trends are generally positive, and a decade from now 
most of the world's people will be better off. But almost every 
positive trend also has a downside. I am very concerned about dangerous 
conditions arising from the convergence of various negative global 
trends (highlighted below). Collectively, these create a potentially 
explosive mix of political, economic, social, technological and 
military circumstances. Our adversaries--especially rogues, renegades, 
and outlaws--will seek to exploit these to further their interests and 
undermine ours. These dangerous conditions underscore the 
interconnected, multidimensional nature of the security challenges we 
are most likely to encounter. They reinforce the notion that `all 
politics is global,' and that almost everything that happens in the 
world can impact our security.

        <bullet> Demographic and economic imbalances. The world will 
        add close to a billion people in the next decade, with 95 
        percent of the increase coming in poorer developing countries, 
        mostly in urban areas. Rapid population increases, growing 
        unemployment, youth bulges, stagnant or falling living 
        standards, poor government, and decaying infrastructures create 
        an environment (and a manpower pool) conducive to extremist 
        messages. The extensive spread of these conditions throughout 
        Middle Eastern countries makes them particularly susceptible.
        <bullet> Acute resource shortages in the Middle East, Sub-
        Sahara Africa, and parts of Asia are a source of resentment, 
        alienation, and frustration. They may not cause wars by 
        themselves, but they will exacerbate tensions, and could serve 
        as the trigger for violent conflict (the straw that breaks the 
        camel's back). On a grander scale, the West's relatively high 
        rate of consuming resources, despite its' declining percentage 
        of global population, is a continuing source of irritation for 
        many in the developing world.
        <bullet> Rapid technology development and proliferation. The 
        rapid pace of technology development is creating more, and more 
        exposed, technological vulnerabilities in advanced states. 
        Meanwhile, the globalization of technology and information--
        especially regarding weapons of mass destruction (WMD) and 
        advanced conventional weapons--will increasingly accord smaller 
        states, groups, and individuals access to destructive 
        capabilities previously limited to major world powers. Massive 
        destructive technologies in the hands of `evil doers' is my 
        worst fear.
        <bullet> Poor governance. Corrupt and ineffective governments 
        will fail to meet political, economic, and social challenges. 
        Their actions will marginalize large numbers of people . . . 
        foster economic stagnation, instability and cultural alienation 
        . . . spawn conflicts . . . create/allow lawless safe-havens . 
        . . and increase the power of dangerous non-state entities.
The Asymmetric Threat
    Make no mistake, we are the target. Our adversaries believe they 
must derail the emerging world order or be overcome by it. They also 
understand the singular importance of the United States in shaping that 
order and know that they cannot prevail if the U.S. remains actively 
engaged and influential around the globe. Finally, they recognize that 
they cannot match our tremendous political, economic, military, and 
cultural power on our terms. These perceptions are the driving elements 
behind the asymmetric threat.
    Asymmetric approaches involve acting in unexpected ways, to present 
your enemy with capabilities and situations he is unable or unwilling 
to respond to before you are able to achieve decisive results. While 
asymmetric concepts are as old as warfare itself, they are important 
today because they are virtually the only means our enemies have for 
coping with U.S. power. Asymmetry works at the strategic, operational, 
and tactical levels.
    At the strategic level, asymmetric approaches will be designed to 
fundamentally change the United States, the way we behave in the world, 
and the way others see us. Strategic goals could include: undermining 
our political, economic, and social infrastructures . . . destroying 
our general optimism . . . thwarting U.S. global leadership . . . 
eliminating our will and/or our capacity to remain globally engaged . . 
. curtailing the global appeal of our ideas, institutions, and culture 
. . . and denying U.S. leaders the military option. The 11 September 
attacks had elements of most of these themes. They brought `the war' to 
the American people, demonstrated U.S. vulnerability, and `gave heart' 
to anti-U.S. elements around the globe. The strategic intent was to 
deliver a blow that would force the U.S. to either alter its Middle 
East policies, or goad America into a `disproportionate response' that 
would trigger an apocalyptic confrontation between Islam and the West. 
Other secondary impacts, on the political and economic openness of the 
U.S. and other states, and more directly on the U.S. and global 
economies, were probably more `unintended consequences' than design. 
Still, their impact (and the implications for future attacks) is 
significant.
    In this context, it is important to think about what our 
adversaries might have learned from 11 September, and our subsequent 
actions. Some may conclude that those attacks were ultimately 
counterproductive, because they were the `wake-up call' that energized 
the U.S. and its partners to take decisive action against the global 
terrorist threat. This is likely to be especially true for states, 
because they are vulnerable to a strategic response from the U.S. From 
this perspective, we might expect future attacks to be more limited, to 
avoid crossing the threshold that generates an overwhelming U.S. 
reaction. But others, especially terrorist groups intent on inflicting 
the greatest damage possible, will undoubtedly be dazzled by the 
`strategic potential' of 11 September, and conclude that the only thing 
wrong with those attacks was that they did not go far enough. For them, 
11 September showed the way, and the `art of the possible' became 
almost infinite. If this proves true, our definition of success might 
eventually be that we prevented an asymmetric attack from having a 
decisive strategic impact.
    At the tactical and operational levels, our enemies (both state and 
non-state) will try to use asymmetry to `level the playing field' 
against the U.S. military, so that we are unable to fight the way we 
want to fight. While specific adversaries, objectives, targets, and 
means of attack will vary widely from situation to situation, I 
continue to expect that most military asymmetric approaches will fit 
generally into the five broad, overlapping categories I outlined in 
last year's testimony:

        <bullet> Counter will . . . designed to make us `not come, or 
        go home early' . . . by severing the `continuity of will' 
        between the U.S. national leadership, the military, the people, 
        our allied and coalition partners, and world public opinion.
        <bullet> Counter access . . . designed to deny U.S. (allied) 
        forces easy access to key theaters, ports, bases, facilities, 
        air, land, and sea approaches, etc.
        <bullet> Counter precision engagement . . . designed to defeat 
        or degrade U.S. precision intelligence and attack capabilities. 
        Counter protection . . . designed to increase U.S. (allied) 
        casualties and, in some cases, directly threaten the U.S. 
        homeland.
        <bullet> Counter information . . . designed to prevent us from 
        attaining information and decision superiority.

    Beyond these broader generalizations, I have highlighted below the 
kinds of asymmetric threats we are most likely to encounter during the 
next 10 to 15 years.
    Terrorism. As was vividly displayed on 11 September, terrorism 
remains the most significant asymmetric threat to U.S. interests at 
home and abroad. I am most concerned about Islamic extremist 
organizations, in the Middle East, and throughout the world. Other 
groups with varying causes--nationalistic, leftist, ethnic, or 
religious--will continue to pose a lesser threat.
    Operation Enduring Freedom has significantly damaged the al Qaeda 
network, destroying its' geographic center of gravity, causing the 
death or arrest of several key leaders, and putting others on the run. 
The group has suffered a loss of prestige, institutional memory, 
contacts, and financial assets that will ultimately degrade its 
effectiveness. Even if Osama bin Laden survives, his ability to execute 
centralized control over a worldwide network has been diminished.
    That said, the al Qaeda network has not been eliminated, and it 
retains the potential for reconstitution. Many key officials and 
operatives remain and new personalities have already begun to emerge. 
Some operations that were already planned could be easily completed. 
The organization could also splinter into a number of loosely 
affiliated groups, united by a common cause and sharing common 
operatives. Their capability to conduct simultaneous or particularly 
complex attacks would likely be degraded, but they would continue to be 
a lethal threat to our interests worldwide, including within the U.S.
    If bin Laden is killed or captured, there is no identified 
successor capable of rallying so many divergent nationalities, 
interests, and groups to create the kind of cohesion he fostered 
amongst Sunni Islamic extremists around the world. bin Laden is 
synonymous with al Qaeda, and the media attention he has garnered, 
along with his charisma and other attributes, have made him an 
inspirational rallying-point for like-minded extremists. With bin 
Laden's removal, the network most likely will eventually fragment under 
various lieutenants pursuing differing agendas with differing 
priorities.
    In general, terrorists will likely favor proven conventional 
weapons over chemical, biological, radiological, or nuclear (CBRN) 
materials, at least through the near-term. However, several groups, 
especially al Qaeda, have pursued CBRN capabilities, and the threat 
from terrorist use of these materials will continue. Many of the 
technologies associated with the development of CBRN weapons--
especially chemical and biological agents--have legitimate civil 
applications and are classified as dual-use. The increased availability 
of these technologies, coupled with the relative ease of producing some 
chemical or biological agents, make them attractive to terrorist groups 
intent on causing panic or inflicting larger numbers of casualties. The 
psychological impact of the recent anthrax cases in the U.S. did not go 
unnoticed. Some terrorist groups have demonstrated the willingness to 
inflict greater numbers of indiscriminate casualties and would take any 
measure to achieve these goals.
    Since 11 September, the U.S. has employed extraordinary security 
measures at home and abroad. We are also enjoying unprecedented 
cooperation on terrorism intelligence and security issues from 
governments across the globe. These conditions have resulted in a 
particularly difficult operating environment for terrorists. However, 
as history shows, terrorists work on their own timeline and are 
patient. They are content to wait for the right opportunity--even if it 
takes years--to increase their chances of success.
    Many terrorist groups consider themselves to be engaged in a war. 
They are willing to take risks, accept losses, and carry on. Terrorists 
make every effort to mask their operational infrastructure and 
activities until the moment they are used in an attack. This creates 
tremendous intelligence challenges. Counterterrorism must be viewed as 
a continuous campaign pitting intelligence and law enforcement services 
against intelligent, self-styled warriors. We need a fully coordinated 
community effort, with open sharing of critical intelligence, security, 
and law enforcement information among the various players. We must 
continue to be vigilant, and never assume that we have `won the war.' 
We will be most vulnerable when the threat `appears' to have 
diminished, security measures are relaxed, and we return to `normal.'
    Threats to critical infrastructures. Many adversaries are 
developing capabilities to threaten the U.S. homeland. In addition to 
more traditional strategic military threats (discussed in the next 
section), our national infrastructures and our economy are vulnerable 
to disruptions by other forms of physical and cyber attack. I am 
especially concerned about attacks against one or more, relatively 
unprotected, key nodes in our economic infrastructure--banking and 
finance, telecommunications, energy, power, agriculture, the industrial 
base, etc. The interdependent nature of these and other portions of our 
domestic infrastructure, and the connectivity between our 
infrastructure and the global economic system, create even more of a 
vulnerability. Foreign states have the greatest attack potential (in 
terms of resources and capabilities), but the most immediate and 
serious threat today is from insiders, terrorists, criminals, and other 
small groups or individuals carrying out well-coordinated strikes 
against selected critical nodes.
    Information operations. Potential adversaries recognize that our 
political and economic livelihood increasingly depends on advanced 
information technologies and systems. They also understand that 
information superiority provides the U.S. with unique military 
advantages. Many also assess that public opinion plays a key role in 
our society. Accordingly, numerous potential foes are pursuing 
information operations capabilities as a relatively inexpensive means 
to undermine domestic and international support for U.S. actions, to 
attack U.S. national infrastructures, or to challenge our information 
superiority. The threat from information operations will expand 
significantly during the next decade or so.
    Information operations can employ a range of capabilities, 
including electronic warfare, psychological operations, physical 
attack, denial and deception, computer network attack, and the use of 
more exotic technologies such as directed energy weapons or 
electromagnetic pulse weapons.

        <bullet> Computer network operations, for instance, offer new 
        options for attacking the United States, potentially 
        anonymously and with selective (including non-lethal) effects. 
        Although our classified networks are relatively secure from 
        these kinds of attacks, most of our unclassified networks--
        including some that host sensitive information--are not. 
        Software tools for network attack, intrusion, and disruption 
        are globally available over the Internet, providing almost any 
        interested U.S. adversary a basic computer network exploitation 
        or attack capability. The opportunity for terrorists to take 
        advantage of attack tools is escalating very rapidly. Further, 
        some hacker groups that actively support terrorists could 
        conduct attacks on their behalf.

    WMD and missiles. Potential adversaries may attempt to influence 
the U.S. and its allies, preclude U.S. force options, and offset U.S. 
conventional military superiority by developing WMD and missiles. The 
desire to acquire these capabilities is great and, unfortunately, 
globalization creates an environment more amenable to proliferation 
activities. Some 25 countries now possess or are actively pursuing WMD 
or missiles. Meanwhile, a variety of non-state actors, including al 
Qaeda, have an increasing interest. New alliances have formed, 
providing pooled resources for developing these capabilities, while 
technological advances and global economic conditions have made it 
easier to transfer materiel and expertise. Most of the technology is 
readily available, and most raw materials are common. The basic 
production sciences are generally understood, although the engineering 
and the component integration necessary for ballistic missile 
production are not so easily achieved. All told, the global WMD and 
missile threat to U.S. and allied territory, interests, forces, and 
facilities will increase.

        <bullet> Russia, China, and North Korea remain the suppliers of 
        primary concern. Russia has exported ballistic missile and 
        nuclear technology to Iran. China has provided missile and 
        other assistance to Iran and Pakistan. North Korea remains a 
        key source for ballistic missiles and related components and 
        materials.
        <bullet> The potential development/acquisition of 
        intercontinental missiles by several potentially hostile 
        states--especially North Korea, Iran, and Iraq--would increase 
        the strategic threat to the United States. Meanwhile, the 
        proliferation of longer range theater (up to 3,000 km) 
        ballistic and cruise missiles and technologies is a growing 
        challenge. The numbers of these systems will continue to 
        increase during the next 10 years. So too will their accuracy 
        and destructive impact.
        <bullet> Iran has established solid and liquid propellant 
        capabilities and already is beginning to proliferate missile 
        production technologies to Syria. Iranian proliferation of 
        complete missile systems may occur in the future.
        <bullet> Several states of concern--particularly Iran and 
        Iraq--could acquire nuclear weapons during the next decade or 
        so, and some existing nuclear states--India and Pakistan, for 
        instance--will undoubtedly increase their inventories.
        <bullet> Chemical and biological weapons are generally easier 
        to develop, hide, and deploy than nuclear weapons and will be 
        more readily available to those with the will and resources to 
        attain them. More than two dozen states or non-state groups 
        either have, or have an interest in acquiring, chemical 
        weapons, and there are a dozen countries believed to have 
        biological warfare programs. I expect the proliferation of 
        chemical and biological weapons to continue and these weapons 
        could well be used in a regional conflict or terrorist attack 
        over the next decade.
        <bullet> Volumetric weapons (VW) are not typically considered 
        WMD (a fact that might make them more appealing to our 
        adversaries), but their destructive potential is sobering. 
        Unlike traditional military weapons, which rely on high 
        explosive technologies, VW depend primarily on air blast or 
        overpressure to damage or destroy their targets. They actually 
        form clouds, or volumes, of fuel-rich materials that detonate 
        relatively slowly. The result is a much larger area of high 
        pressure that causes more damage to personnel (even dug in) and 
        structures. VW technology has been around for some time, and is 
        becoming more widely known, with several countries openly 
        advertising it for sale. We should anticipate facing VW in 
        either a terrorist or combat environment during the next 10 
        years.

    The foreign intelligence threat. We continue to face extensive 
intelligence threats from a large number of foreign nations and sub-
national entities including terrorists, international criminal 
organizations, foreign commercial enterprises, and other disgruntled 
groups and individuals. These intelligence efforts are generally 
targeted against our National security policy-making apparatus, 
national political, economic, and military infrastructures, military 
plans, personnel, and capabilities, our overseas facilities, and our 
critical technologies. While foreign states present the biggest 
intelligence threat, all our enemies are likely to exploit 
technological advances to expand their collection activities. Moreover, 
as the events of 11 September so tragically demonstrated, the open 
nature of our society, and the increasing ease with which money, 
technology, information, and people move around the globe in the modern 
era, make effective counterintelligence and security that much more 
complex and difficult to achieve.
    Denial and deception (D&D). Many potential adversaries are 
undertaking more and increasingly sophisticated D&D operations against 
the United States. These efforts generally are designed to hide key 
plans, activities, facilities, and capabilities from U.S. intelligence, 
to manipulate U.S. perceptions and assessments, and to protect key 
capabilities from U.S. precision strike platforms. Foreign knowledge of 
U.S. intelligence and military operations capabilities is essential to 
effective D&D. Advances in satellite warning capabilities, the growing 
availability of camouflage, concealment, deception, and obscurant 
materials, advanced technology for and experience with building 
underground facilities, and the growing use of fiber optics and 
encryption, will increase the D&D challenge.
    Counter-space capabilities. The U.S. reliance on (and advantages 
in) the use of space platforms is well known by our enemies. Many are 
attempting to reduce this advantage by developing capabilities to 
threaten U.S. space assets, in particular through denial and deception, 
signal jamming, and ground segment attack. A number of countries are 
interested in or experimenting with a variety of technologies that 
could be used to develop counter-space capabilities. These efforts 
could result in improved systems for space object tracking, electronic 
warfare or jamming, and directed energy weapons. Some countries have 
across-the-board programs underway, and other states and non-state 
entities are pursuing more limited--though potentially effective--
approaches. By 2010, future adversaries will be able to employ a wider 
variety of means to disrupt, degrade, or defeat portions of the U.S. 
space support system.
    Criminal challenges. International criminal activity of all kinds 
will continue to plague U.S. interests. I am very concerned about the 
growing sophistication of criminal groups and individuals and their 
increasing potential to exploit certain aspects of globalization for 
their own gain. The potential for such groups to usurp power, or 
undermine social and economic stability, especially in states with weak 
governments, is likely to increase.

        <bullet> International drug cultivation, production, transport, 
        and use will remain a major problem. The connection between 
        drug cartels, corruption, terrorism, and outright insurgency 
        will likely increase as drug money provides an important 
        funding source for all types of criminal and anti-government 
        activity. Emerging democracies and economically strapped states 
        will be particularly susceptible. The drug trade will continue 
        to produce tensions between and among drug producing, 
        transport, and user nations.
        <bullet> I remain concerned about other forms of international 
        criminal activity--for instance, `cyber-criminals' who attempt 
        to exploit the electronic underpinnings of the global 
        financial, commercial, and capital market systems, and 
        nationally based `mafia' groups who seek to undermine 
        legitimate governments in states like Russia and Nigeria. 
        Globally, criminal cartels are becoming more sophisticated at 
        exploiting technology, developing or taking control of 
        legitimate commercial activities, and seeking to directly 
        influence--through infiltration, manipulation, and bribery--
        local, state, and national governments, legitimate 
        transnational organizations, and businesses. Increased 
        cooperation between independent criminal elements, including 
        terrorist organizations, is likely.
Traditional Military Challenges
    Beyond the asymmetric threats outlined above, we will continue to 
face an array of more traditional, albeit evolving, challenges from the 
strategic and regional forces of other nations. While less advanced 
than the U.S. military, these forces will remain potent by global and 
regional standards, and, in many cases, be fully capable of 
accomplishing significant objectives. Moreover, during the next 10 
years, many states will seek to augment their militaries with selected 
higher-end systems, including: improved strategic strike capabilities . 
. . WMD and missiles . . . advanced command, control and intelligence 
systems, including satellite reconnaissance . . . precision strike 
capabilities . . . global positioning . . . advanced air defense 
systems . . . and advanced anti-surface ship capabilities. As I 
mentioned earlier, some of these `niche' capabilities will be designed 
to counter key U.S. concepts (global access, precision engagement, 
force protection, information superiority, etc.), in an attempt to 
deter the U.S. from becoming involved in regional contingencies, or to 
raise the cost of U.S. engagement.
    For the most part, however, even large regional forces will be hard 
pressed to match our dominant maneuver, power projection, and precision 
attack capabilities, and no state will field integrated, satellite-to-
soldier military `system of systems' capabilities on a par with the 
U.S. But in a specific combat situation, the precise threat adversary 
forces pose will depend on a number of factors, including: the degree 
to which they have absorbed and can apply key `21st Century' 
technologies, have overcome deficiencies in training, leadership, 
doctrine, and logistics, and on the specific operational-tactical 
environment. Under the right conditions, their large numbers, combined 
with other `situational advantages'--such as initiative, limited 
objectives, short lines of communication, familiar terrain, time to 
deploy and prepare combat positions, and the skillful use of asymmetric 
approaches--could present significant challenges to U.S. mission 
success. China and perhaps Russia at the high end, followed by North 
Korea, Iran, and Iraq, are all examples of militaries that could field 
large forces with a mix of current and advanced capabilities.
    China. Beijing recognizes that its long-term prospects to achieve 
great power status depend on its success at modernizing China's economy 
and infrastructure, and it will continue to emphasize those priorities 
ahead of military modernization. Despite the limitations posed by these 
other priorities, China's military is modernizing, but faces difficulty 
absorbing technological upgrades at a fast rate. Accordingly, I expect 
China to continue to allow total military spending to grow at about the 
same rate as the economy, maintaining a defense burden of as much as 5 
percent of GDP (between $40 and $60 billion in defense spending last 
year). Part of this steady defense spending increase will be absorbed 
by rapidly rising personnel costs, a consequence of the overall 
transformation toward a market economy.
    One of Beijing's top military priorities is to strengthen and 
modernize its small, dated strategic nuclear deterrent force. While the 
ultimate extent of China's strategic modernization is difficult to 
forecast, the number, reliability, survivability, and accuracy of 
Chinese strategic missiles capable of hitting the United States will 
increase during the next 10 years. We know little about China's 
concepts for nuclear weapons use, especially with respect to Beijing's 
views on the role and utility of strategic weapons in an international 
crisis involving important Chinese interests, for example Taiwan or the 
Korean peninsula.

        <bullet> China currently has about 20 CSS-4 ICBMs with a range 
        of over 12,000 km. New strategic missile systems are under 
        development, including two new road-mobile, solid-propellant 
        ICBMs. One of these, the 8,000 km DF-31, was flight-tested in 
        1999 and 2000. Another, longer range mobile ICBM, likely will 
        be tested within the next several years.
        <bullet> China currently has a single XIA class SSBN which is 
        not operational. It is intended to carry 12 CSS-NX-3 missiles 
        (with ranges exceeding 1,500 km). China is developing a new 
        SSBN and an associated SLBM (the 8,000+ km JL-2). These systems 
        likely will be developed and tested later this decade.
        <bullet> China also has upgrade programs for associated 
        command, control, communications, intelligence and other 
        related strategic force capabilities.

    In terms of conventional forces, Beijing is pursing the capability 
to defend its eastern seaboard--the economic heartland--from attacks by 
a `high-technology' opponent employing long-range precision strike 
capabilities. This means China is improving its air, air defense, anti-
submarine, anti-surface ship, reconnaissance, and battle management 
capabilities. China also is rapidly expanding its conventionally-armed 
theater missile force. Both efforts will give it increased leverage 
against Taiwan and, to a lesser extent, other U.S. Asian allies.
    As a result of these and other developments, China's capability for 
regional military operations will improve significantly. By 2010, 
China's forces will be much better equipped, possessing more than 750 
theater-range missiles, hundreds of fourth-generation (roughly F-16 
equivalent) aircraft armed with modern precision-guided weapons, 
thousands of older model tanks and artillery, over 20 advanced diesel 
and third generation nuclear submarines, and some 20 or so new surface 
combatants. China also is likely to field an integrated air defense 
system and modern command and control systems at the strategic and 
operational levels. Selective acquisitions of advanced systems from 
Russia--such as Sovremennyy destroyers, Kilo submarines, and Flanker 
aircraft--will remain an important part of the PLA's modernization 
effort.
    The Taiwan issue will remain a major potential flashpoint. It is 
doubtful, however, unless Taipei moved more directly toward 
independence, that China would attempt a large scale attack. Beijing 
recognizes the risk inherent in such a move. Nevertheless, by 2005-
2010, China's conventional force modernization will provide an 
increasingly credible military threat for short-duration attacks 
against Taiwan.
    Russia. The 11 September attacks against the United States brought 
a new dynamic to the U.S.-Russian relationship and new opportunities 
for cooperation. While Russia retains significant differences with the 
West--in its political, economic, and social make-up, and on a host of 
regional and global security issues--I am hopeful that we can form a 
more positive lasting relationship. But we should recognize that there 
are no easy, simple, or near-term solutions to the tremendous 
political, economic, social, and military problems confronting Moscow. 
Consequently, I expect that many of the issues that concern us today--
Russian proliferation of advanced military and WMD technologies, 
conventional weapons, and brainpower . . . the security of Russia's 
nuclear materials and weapons . . . the expanding local, regional, and 
global impact of Russian criminal syndicates . . . negative demographic 
trends . . . and Moscow's ultimate reliability as a global security 
partner--will be with us for some time to come.
    In the meantime, Russia's armed forces continue in crisis. Defense 
resources remain especially limited, given the still relatively large 
Russian force structure. Moscow spent some $40 billion on defense last 
year--about 3-5 percent of GDP--and the process of allocating monies 
remained extremely erratic and inefficient. This level of spending is 
not enough to fix the Russian military. With chronic underfunding and 
neglect the norm, compensation, housing, and other shortfalls continue 
to undermine morale. Under these conditions, military progress will 
remain limited. For most of the next decade (and perhaps longer), 
Russia's conventional forces will remain chronically weak, and will 
pose a diminishing threat to U.S. interests. Toward the end of that 
timeframe--assuming economic recovery, sustained political support, and 
success at military reform--Russia could begin rebuilding an effective 
military, and field a smaller, but more modern and capable force in the 
2015 timeframe. This improved force would be large and potent by 
regional standards, equipped with thousands of late-generation Cold 
War-era systems and hundreds of more advanced systems built after 2005.
    Russia will continue to rely on nuclear weapons--both strategic and 
non-strategic--to compensate for its diminished conventional military 
capability, a concept articulated in the October 1999 Russian Military 
Doctrine statement and reiterated in January and April 2000. Moscow has 
begun deployment of the new SS-27 ICBM and has upgrades to this missile 
and several other systems under development. But even priority 
strategic force elements have not been immune to the financial problems 
affecting the rest of the Russian military. SS-27 production is far 
below expectations and deployments are years behind. System aging, 
inadequate budgets, and arms control agreements ensure that Russia's 
strategic force will continue to decline--from some 4,500 operational 
warheads today, to perhaps under 1,500 by 2010 (depending on arms 
control treaties, decisions we make about missile defense, the state of 
the Russian economy, and Russian perceptions of other strategic 
threats, etc).
    Iran. President Khatami's strong popular support from restless 
intellectuals, youths, and women (all growing segments of Iran's 
population) led to his reelection last year. But his subservience to 
religious conservatives, and the lack of progress on the reform agenda, 
are undermining that support. The conservatives, in power since 1979, 
remain in control of the security, foreign policy, intelligence, and 
defense institutions, and generally continue to view the U.S. with 
hostility. For that reason, I remain concerned with Tehran's 
deliberate, though uneven, military buildup, which is designed to 
ensure the security of the regime, increase Iran's influence in the 
Middle East and Central Asia, deter Iraq or any other regional 
aggressor, and limit U.S. regional influence.
    While Iran's forces retain significant limitations with regard to 
mobility, logistics infrastructure, and modern weapons systems, Tehran 
is attempting to compensate for these by developing (or pursuing) 
numerous asymmetric capabilities, to include terrorism, the deployment 
of air, air defense, missile, mine warfare, and naval capabilities to 
interdict maritime access in and around the Strait of Hormuz, and the 
development and acquisition of longer range missiles and WMD to deter 
the U.S. and to intimidate Iran's neighbors.

        <bullet> Iran has a relatively large ballistic missile force--
        hundreds of Chinese CSS-8s, SCUD Bs and SCUD Cs--and is likely 
        assembling SCUDs in country. Tehran, with foreign assistance, 
        is buying and developing longer range missiles, already has 
        chemical weapons, and is pursuing nuclear and biological 
        weapons capabilities.
        <bullet> Iran's Defense Minister has publicly talked of plans 
        for developing a platform more capable than the Shahab 3 (a 
        1,300 km MRBM based on North Korea's No Dong). Iran also is 
        pursing an ICBM/space launch vehicle and could flight test such 
        a system before the end of the decade. Cooperation with 
        Russian, North Korean, and Chinese entities is furthering 
        Tehran's expertise. However, if Iran purchased an ICBM from 
        North Korea or elsewhere, further development might not be 
        necessary.
        <bullet> Iran's navy is the most capable in the region and, 
        even with the presence of Western forces, can probably stem the 
        flow of oil from the Gulf for brief periods by employing a 
        layered force of KILO submarines, missile patrol boats, naval 
        mines, and sea and shore-based anti-ship cruise missiles. Aided 
        by China, Iran has developed a potent anti-ship cruise missile 
        capability and is working to acquire more sophisticated naval 
        mines, missiles, and torpedoes.

    Although Iran's force modernization efforts will proceed gradually, 
during the next 15 years it will likely acquire a full range of WMD 
capabilities, field substantial numbers of ballistic and cruise 
missiles--including, perhaps, an ICBM--increase its inventory of modern 
aircraft, upgrade and expand its armored forces, and continue to 
improve its anti-surface ship capability. Iran's effectiveness in 
generating and employing this increased military potential against an 
advanced adversary will depend in large part on `intangibles'--command 
and control, training, maintenance, reconnaissance and intelligence, 
leadership, and situational conditions and circumstances.
    Iraq. Saddam's goals remain to reassert his rule over the Kurds in 
northern Iraq, undermine all U.N. restrictions on his military 
capabilities, and make Iraq the predominant military and economic power 
in the Persian Gulf and the Arab world. The on-going U.N. sanctions and 
U.S. military presence continue to be the keys to restraining Saddam's 
ambitions. Indeed, years of U.N. sanctions, embargoes, and inspections, 
combined with U.S. and Coalition military actions, have significantly 
degraded Iraq's military capabilities. Saddam's military forces are 
much smaller and weaker than those he had in 1991. Manpower and 
equipment shortages, a problematic logistics system, and fragile 
military morale remain major shortcomings. Saddam's paranoia and lack 
of trust--and related oppression and mistreatment--extend to the 
military, and are a drain on military effectiveness.
    Nevertheless, Iraq's ground forces continue to be one of the most 
formidable within the region. They can move rapidly and pose a threat 
to Iraq's neighbors. Baghdad's air and air defense forces retain only a 
marginal defensive capability. The Air Force cannot effectively project 
air power outside Iraq's borders. Still, Saddam continues to threaten 
Coalition forces in the No Fly Zones, and remains committed to 
interfering with Coalition military operations monitoring his military 
activities.
    Iraq retains a residual level of WMD and missile capabilities. The 
lack of intrusive inspection and disarmament mechanisms permits Baghdad 
to enhance these programs. Iraq probably retains limited numbers of 
SCUD-variant missiles, launchers, and warheads capable of delivering 
biological and chemical agents. Baghdad continues work on short-range 
(150 km) liquid and solid propellant missiles allowed by UNSCR 687 and 
can use this expertise for future long-range missile development. Iraq 
may also have begun to reconstitute chemical and biological weapons 
programs.
    Despite the damage done to Iraq's missile infrastructure during the 
Gulf War and Operation Desert Fox, Iraq may have ambitions for longer 
range missiles, including an ICBM. Depending on the success of 
acquisition efforts and the degree of foreign support, it is possible 
that Iraq could develop and test an ICBM capable of reaching the U.S. 
by 2015.
    Saddam's regime will continue to pose political and military 
challenges to Coalition interests. Should sanctions be removed formally 
or become ineffective, Iraq will move quickly to expand its WMD and 
missile capabilities, develop a more capable strategic air defense 
system, and improve other conventional force capabilities. Saddam is 
intent on acquiring a large inventory of WMD and modernizing and 
expanding his fleet of tanks, combat aircraft, and artillery guns. 
While Iraq would still have to grapple with shortcomings in training 
and military leadership, such a modernized and expanded force would 
allow Saddam to increasingly threaten regional stability and 
ultimately, the global economy.
    North Korea. During the past year, the diplomatic climate on the 
Korean peninsula turned more confrontational as the process of 
engagement stalled. Largely reversing its `smile diplomacy' of the 
previous year (the unprecedented willingness to engage the Republic of 
Korea and the United States), Pyongyang reacted strongly to its 
perception of a hard-line U.S. approach to negotiations. North Korea 
also has openly expressed concern that it might become a target for the 
U.S.-led war against international terrorism. Less willing to engage 
and less receptive to change, Pyongyang is reemphasizing its 
established ideology, excoriating Western ideas and influence, and 
touting its military strength. As a result, it continues to place heavy 
emphasis on the maintenance and improvement of its military 
capabilities.
    North Korea retains a large, forward deployed military force, 
capable of inflicting significant damage on the South. The Korean 
People's Army continues to demonstrate resiliency, managing during the 
past several years to slow the decline in force-on-force capabilities 
experienced during most of the 1990s and, in some ways, marginally 
improve its readiness and capability for war. War on the peninsula 
would still be very violent and destructive, and an attack could occur 
with little warning. Moreover, even if the North-South rapprochement 
were to resume, Pyongyang is unlikely to significantly reduce its 
military posture and capability in the near-term, because the North 
needs its military forces to ensure regime security, retain its 
regional position, and provide bargaining leverage.
    North Korea continues its robust efforts to develop more capable 
ballistic missiles. It has deployed both short-and medium-range 
missiles and is developing an ICBM capability with its Taepo Dong 2 
missile, judged capable of delivering a several-hundred kilogram 
payload to Alaska or Hawaii and a lighter payload to the western half 
of the United States. A three-stage TD 2 could deliver a several-
hundred kilogram payload anywhere in the U.S. Pyongyang, thus far, is 
honoring its pledge to refrain from test launching long-range missiles 
until 2003, but otherwise probably has the capability to field an ICBM 
within the next couple of years.
    For the near future, I expect North Korea will continue to 
proliferate WMD and especially missile technology--one of the few areas 
where it has something to offer for hard currency on the international 
market. Pyongyang's proliferation of No Dong missile technology is 
particularly important for those states seeking to extend the range of 
their missile fleet. I also expect North Korea to continue to develop 
and expand its own `asymmetric' capabilities--WMD, missiles, Special 
Operations Forces, small submarine insertion platforms, etc.--in part 
to offset its conventional force shortcomings. In short, as long as 
North Korea remains around in its present form, it will represent one 
of the major threats to our regional and global interests.
                            closing thoughts
    The longer term trends and conditions apparent before 11 
September--continuing global turmoil . . . the increasing importance of 
the asymmetric threat . . . and the traditional challenges posed by the 
regional and strategic military forces of other states--still apply 
today. But the terrorist attacks, and our response, have brought a new 
dynamic to the global security environment.
    The `expectation of prolonged uncertainty' has increased 
significantly since September, and our intelligence and analytic 
paradigms must be adjusted to assess the implications of what we do 
not, can not, and will not know about the nature of the future security 
environment and future threats. Accounting for and dealing with 
uncertainty has always been our biggest analytic challenge. But in 
today's environment, we need to be as adept at dealing with `complex 
mysteries' as we are at uncovering `hidden secrets.' Critical analytic 
thinking may be our most important national asset.
    On 11 September the asymmetric threat became real, and strategic. 
We are in a new struggle--for our way of life and our vision of the 
global future. Our adversaries see things the same way. They think the 
United States is the `center of gravity' for an emerging world order 
that undermines their beliefs, values, interests, and culture. They 
need to eliminate our global power, leadership, and influence or--in 
their eyes--be overwhelmed by it. We are too strong to take on 
directly, but are potentially vulnerable to a range of asymmetric 
approaches. We need to ensure these do not have a decisive strategic 
impact.
    The characteristics of this new strategic threat--extremist, 
global, non-state, networked, adaptive--make it less vulnerable to more 
traditional intelligence and security approaches, and perhaps 
impossible to deter (at least with military power alone). The long-term 
key to our adversaries' success may lie in their ability to exploit a 
host of `negative' global conditions to spread an extremist anti-U.S. 
message, recruit and train new members, and execute increasingly 
destructive attacks. In this context, our success at eliminating, 
containing, isolating, and managing globalization's downsides may be 
the strategic prerequisite to victory.
    We also continue to face an array of more traditional, albeit 
evolving, threats from the strategic and regional military forces of 
other nations. While generally less advanced than the U.S. military, 
these forces will remain potent by global and regional standards, and 
capable of accomplishing significant objectives. China and perhaps 
Russia at the high end, followed by North Korea, Iran and Iraq at the 
lower end are examples of states that will maintain significant 
military capabilities.
    Collectively, these factors create an extremely dynamic, complex, 
and problematic global environment. The spectrum of real and potential 
threats is very wide, and the intelligence challenges are many. Our 
success depends on our ability to make much-needed investments in 
intelligence--specifically in HUMINT and measurement and signature 
intelligence (MASINT) collection . . . in all-source analysis . . . in 
the collaborative and analytic tools needed to assist the analyst . . . 
and finally, in the communications and information technology systems 
that enable our principal customer--the warfighter--to access the 
intelligence we produce quickly and in a usable format.
    The intelligence budget request for fiscal year 2003 begins much-
needed investments to support the campaign against terrorism, as well 
as overdue increased investments in Defense intelligence collection, 
all-source analysis and critical supporting technology. The 
capabilities funded in the National Foreign Intelligence Program (NFIP) 
component that I manage--the General Defense Intelligence Program 
(GDIP)--are required to provide timely, accurate, and actionable 
intelligence to warfighters, national policymakers, and the weapons 
acquisition community. If the fiscal year 2003 GDIP budget request is 
approved, we will be better able to meet emerging crises and support 
military operations without undermining basic intelligence collection 
and analysis efforts that are the cornerstone of our Nation's 
intelligence readiness.
    In previous testimonies, I have reported to this committee and 
others of our consistently high operational tempo in defense 
intelligence and the `costs of engagement.' By `cost of engagement' I 
mean that the near-constant `surge state' of our intelligence 
collection and analytic assets over the past decade has, of necessity, 
reduced collection and analysis against some lower-priority regions and 
threats and caused the diversion of resources away from the longer term 
analysis required to do true predictive intelligence. Of course, the 
intelligence support required for military contingencies and operations 
must be provided--if we are going to commit our military, we must also 
be willing to commit our intelligence resources to support operations. 
But we must recognize that this comes at a cost--both in terms of real 
resources, and missed opportunities. The increases in the fiscal year 
2003 GDIP budget request--in HUMINT and all-source analysis in 
particular--begin to redress some of the most serious shortfalls we 
have faced over the last decade; this budget will better ensure the 
GDIP components can both support our military planners and operators 
and maintain a level of insight and knowledge of global threats.
    The GDIP funds the Defense Intelligence Agency, the four Service 
Intelligence Centers of Excellence, and the nine Unified Command Joint 
Intelligence Centers (JICs). We operate as a federated enterprise. That 
is, there is no single entity in the GDIP that operates independently--
all of the intelligence we produce incorporates the collective 
expertise and capabilities of our GDIP components. It is this federated 
approach that is our strength; it enables us to be an agile enterprise 
capable of rapidly shifting to meet the emerging requirements of our 
defense customer. Our future intelligence requirements include the 
asymmetric threats I noted above, enduring military challenges, and the 
newest mission area--protecting America. The growing requirements for 
intelligence support to the homeland security mission will require the 
GDIP to address the intelligence support structure for a new U.S. 
Northern Command. I look forward to working with Congress as we define 
the intelligence requirements and capabilities needed to support this 
critical mission.
    One final issue I must address is the security of the personnel, 
the facilities, and the information in the GDIP components. 15 GDIP 
personnel--7 Defense Intelligence Agency (DIA) employees and 8 naval 
intelligence professionals--were killed in the attack on the Pentagon. 
The tragic loss of these 15 GDIP colleagues underscores the need to 
accelerate our efforts to reduce the vulnerability of GDIP activities 
and facilities. The fiscal year 2003 GDIP budget request includes funds 
for enhancements to the physical security at our most vulnerable 
facilities, improvement to the protection of our automated information 
systems, and most urgently, military construction funds to accelerate 
the movement of several thousand GDIP personnel out of vulnerable, 
leased space into a secure facility on a military base. I seek your 
support for these critically important projects.
    We have made great strides to provide the most accurate, timely and 
actionable intelligence to policymakers and the weapons modernization 
community--and most importantly, to our men and women in uniform. 
However, more work needs to be done. Our security depends on the 
integrated application of all elements of national power against the 
full range of security threats I have described in this statement. The 
combined intelligence capabilities represented in the GDIP play a 
critical role in our Nation's ability to shape the global environment, 
to deter future attacks against the U.S. and our interests, to identify 
and warn of impending threats, and to satisfy the intelligence needs of 
military planners and operators once hostilities begin. I appreciate 
the support of Congress in ensuring that our Nation's intelligence 
capabilities remain the best in the world.

    Chairman Levin. Thank you, Admiral Wilson. Let me now call 
on Senator Warner for his opening comment.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you. Mr. Chairman, I will put my 
statement and Senator Thurmond's statement in the record. Mr. 
Tenet, we welcome you. Speaking for this Senator, I have a high 
degree of confidence, as I have always had, in your 
professional abilities. I think you are doing an exemplary job 
in your position, sir. You and I have worked together for many 
years since I was Vice Chairman of the Intelligence Committee 
and you were on that committee as the staff director at that 
time.
    Admiral, I have known you for many years as one sailor to 
another. As you bring your career to a close, this may well be 
your final appearance before this committee. I commend you. You 
served your Nation well. I hope you and your family can look 
forward to many more productive years, hopefully in service to 
the country in some way.
    Admiral Wilson. Thank you, Senator.
    Senator Warner. Thank you, Mr. Chairman.
    [The prepared statements of Senators Warner and Thurmond 
follow:]
               Prepared Statement by Senator John Warner
    I join you, Mr. Chairman, in welcoming our two distinguished 
witnesses, who are well known to the members of this committee. Their 
testimony on the scope and breadth of threats facing our Nation is the 
foundation for the committee's deliberations about the types of 
military forces and capabilities our Nation needs to detect, deter and 
defeat those who threaten us.
    I want to take a moment to acknowledge Vice Admiral Tom Wilson in 
what may well be his last appearance before our committee. Admiral 
Wilson will complete his term of service as the Director, Defense 
Intelligence Agency, in July.
    Admiral, you have been the face of military intelligence for a 
number of years--as the ``J2'' on the Joint Staff during the 1998-1999 
Iraq and Kosovo crises, and the Director, DIA, for the past 3 years. I 
know what this duty has required of you--the long hours, the missed 
family events, the cancelled plans. I want to express my personal 
thanks to you and your wife, Ann, for your selfless service to country. 
I also want to thank you for the competence, professionalism and 
friendship you have shown the committee and me, personally, over the 
years. We have been fortunate as a nation to have you at the helm--well 
done.
    The circumstances of this hearing are quite different from when we 
last met to receive this annual threat assessment. Since your last 
appearance before this Committee, the United States has been brutally 
attacked by terrorists; and our Nation is at war to defeat the global 
terrorist organization that attacked us without warning in September. 
Indeed, both of your agencies have suffered casualties at the hands of 
these terrorists, both in Afghanistan and at the Pentagon. We extend 
our heartfelt sympathies to the families, friends, and co-workers of 
those lost, and pledge that their service to country and sacrifice for 
freedom will not be forgotten.
    For the past 2 years, Director Tenet has been quite prophetic in 
warning us of ``greater risk'' and ``vulnerability to surprise attack, 
even at home.'' You were right in your broad assessment of the threat 
to this nation; the specifics of the actual attack took us all by 
surprise. In the aftermath of September 11, we are anxious to hear your 
thoughts on what needs to be done to improve the ability of our 
Intelligence Community to better detect and anticipate specific threats 
to our national security.
    Clearly, some improvements in our intelligence capabilities are 
required. It is tragic that it took events such as the U.S.S. Cole 
bombing and the horrific attacks of September 11 to confirm what many 
already knew--that our Intelligence Community must refocus its efforts 
and resources on the new and emerging threats of the post-Cold War 
world. The reports of both the Downing Commission on the Khobar Towers 
bombing and of the Crouch-Gehman Commission on the U.S.S. Cole attack 
highlighted this urgent need. Sadly, I believe the investigation into 
the events leading up to September 11 will once again confirm that not 
enough had been done to shift intelligence resources and manpower from 
the traditional Cold War threats to this new terrorist threat.
    Our Nation is now engaged in a global war against terrorism. It is 
a conflict that will consume much of your resources and attention, and 
it is a conflict we must and will win. However, we must not lose sight 
of the other, non-traditional threats that abound in this uncertain 
world--the proliferation of weapons of mass destruction and missile 
technologies, information warfare, and ethnic conflict. Our security 
demands vigilance in these areas, as well. We look forward to your 
frank assessments of the many wide ranging threats to our national 
security.
    There will be much discussion in the weeks and months ahead about 
what went wrong on September 11--and such an investigation must take 
place. But today we examine how we move forward, to transform our 
national security structure to focus on the threats of most 
consequence, and to develop the right defenses. This will require bold 
new thinking and leadership--the kind of leadership President Bush has 
provided, as he has rallied and united our Nation as I have seldom seen 
before in our history.
    We depend on you, gentlemen, to guide us as we make critical 
decisions in the weeks and months ahead about the resources and 
policies you will need to perform your critical missions. Success in 
your respective missions is essential to our national security--both at 
home and abroad.
    Thank you for your service to our country.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond
    Director Tenet, Admiral Wilson, I want to join Chairman Levin and 
Senator Warner in welcoming you and I look forward to your assessments 
of the threats to our National interest. Your presentations in prior 
years have been influential and helpful to this committee in 
formulating the annual national defense authorization bill. I expect 
that today's presentation will be no less. Thank you for your 
appearance and the service you and your agencies provide to our 
Country.
    September 11 tragically proved the Nation's vulnerability to 
terrorist attacks and the fact that technology and intelligence are 
imperfect. September 11 also demonstrated that earlier decision to 
reduce our investment in human intelligence and focus on technology 
were flawed. Despite the technical advances, those who want to harm our 
Nation can always come up with methods to negate the advances. The same 
cannot be said for a reliable and dedicated intelligence agent.
    Mr. Chairman, I hope we have learned a lesson from the events of 
the past months and will now focus on the future rather than try to 
place blame. The many dedicated men and women in the Intelligence 
Community deserve our support and gratitude. Because they carry out the 
work under the veil of secrecy, we will never know how many attacks 
they prevented.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you, Senator Warner. First Mr. Tenet, 
let me ask you about the agreed framework between ourselves and 
North Korea. The main requirement of this agreed framework is 
that the North Koreans maintain a freeze on their nuclear 
program and that includes shutting their reactor, halting 
construction of new reactors, sealing the reprocessing plant, 
canning spent fuel and allowing International Atomic Energy 
Agency (IAEA) inspectors to monitor their nuclear sites. In 
your judgment, is North Korea maintaining the freeze on its 
nuclear program?
    Mr. Tenet. Yes, sir. It is complying with that specific 
agreement with regard to that specific facility.
    Chairman Levin. Now on the question of missile and weapons 
of mass destruction exports, you have given us your assessment 
of what a number of countries have been doing. When I look at 
China's record, I see that they are currently exporting missile 
technology to Iran, ballistic missile technology to Libya and, 
as a matter of fact, also exporting ballistic missile 
technology to North Korea itself. The President has said that 
every nation has a decision to make, whether they are with us 
or with the terrorists. Where is China?
    Mr. Tenet. Sir, I think that we have a deep concern that 
the Chinese are engaging in activities that continue to be 
inimical not just to our interests, but that their activities 
stimulate secondary proliferation activities that only 
complicate the threat that we, our forces, and our allies face, 
particularly in the Middle East and other places where they 
have these relationships. I know that this is an intense focus 
on the part of the administration in terms of policy 
discussions and, in some instances we know the Chinese firms 
operate on their own and some instances activities are by 
condoned the government.
    But I would say that it is important to focus on the 
totality of what is going on. It is the combination of the 
Russian assistance, the Chinese assistance, the North Korean 
assistance that allows people to mix and match--to create an 
indigenous capability that then threatens us, that becomes 
available for secondary proliferation.
    So the line has to be drawn hard. We have to look at the 
regimes that are currently in place. Countries conveniently get 
underneath regimes; they may not sell total ballistic missiles. 
They will sell components and get underneath the specific 
lines, but we are at a point when you couple the convergence 
between terrorist activities and these proliferation activities 
that result either in ballistic missile proliferation or the 
proliferation of these technologies to terrorist groups. The 
convergence of these two threats poses a strategic threat to 
the United States that is not getting smaller.
    Chairman Levin. Does that lead you to the conclusion that 
China is either with us or against us in the war on terrorism?
    Mr. Tenet. The Chinese, sir, have actually attempted to be 
very cooperative in this regard.
    Chairman Levin. But they are still exporting missile 
technology to Iran, to Libya, and to North Korea?
    Mr. Tenet. Sir, you cannot have it both ways, and the 
bottom line has to be that behavior in one arena has to be 
matched by behavior in another arena.
    Chairman Levin. Therefore?
    Mr. Tenet. It is a mixed bag and they are not.
    Chairman Levin. Now on oil that is coming from Iraq into 
Jordan and Turkey, apparently truck loads of Iraqi oil outside 
of the UN-administered Oil for Food Program is getting into 
Turkey and Jordan every day. Have we asked them to stop?
    Mr. Tenet. Yes, sir. I believe that on the policy side we 
have talked to them about this. Obviously the Jordanians are 
great friends of ours and work so many accounts for us, and 
that dependency needs to be shut off. So we have to be--it is 
more complicated in this instance because of our concern that 
the King have all resources at his disposal to help us in so 
many other ways. But if we could offset that Iraqi oil by other 
suppliers providing the Jordanians, we could end a problem very 
quickly.
    Chairman Levin. Relative to Iraq, a couple other questions. 
Do you have any evidence that Saddam Hussein or his agents 
played a role in the September 11 terrorist attacks or that he 
has links to al Qaeda?
    Mr. Tenet. Well, as I note in my statement, there is no 
doubt that there have been contacts and linkages to the al 
Qaeda organization. As to where we are on September 11, the 
jury is out. As I said carefully in my statement, it would be a 
mistake to dismiss the possibility of state sponsorship, 
whether Iranian or Iraqi, and we will see where the evidence 
takes us.
    But I want you to think about al Qaeda as a front company 
that mixes and matches its capabilities. The distinctions 
between Sunni and Shia that have traditional divided terrorist 
groups are not distinctions you should make anymore, because 
there is a common interest against the United States and its 
allies in this region, and they will seek capability wherever 
they can get it.
    Chairman Levin. Relative to the question that I asked you 
to address on how do we change that regime in Iraq, what is 
your view as to whether the Iraqi National Congress, the Shias, 
the Kurds or other Iraqi opposition groups could perform a 
similar role to that played by the Northern Alliance and other 
opposition groups in Afghanistan?
    Mr. Tenet. Mr. Chairman, I would be happy to talk to you 
about this in closed session.
    Chairman Levin. Thank you. On the question of non-missile 
delivery means of weapons of mass destruction, there was a 
unclassified summary which was issued in December 2001 giving a 
national intelligence estimate on foreign ballistic missile 
developments and I just want to quote from it. It is quite a 
long quote, but I will--it is addressing an important subject. 
``The Intelligence Community judges that U.S. territory is more 
likely to be attacked with weapons of mass destruction using 
non-missile means''--this is page 18 of that report--
``Primarily because such means are less expensive than 
developing and producing ICBMs, can be covertly developed and 
deployed, the source of the weapon could be masked in an 
attempt to evade retaliation, probably would be more reliable 
than ICBMs that have not completed rigorous testing and 
validation programs, probably would be much more accurate than 
emerging ICBMs over the next 15 years, probably would be more 
effective for disseminating biological warfare agent than a 
ballistic missile and would avoid missile defenses.''
    Is that still the view of the Intelligence Community?
    Mr. Tenet. Yes, sir. As long as we put the front paragraph 
and the last paragraph in this that says, ``The probability 
that a missile with a weapon of mass destruction will be used 
against the United States or forces or interests is higher 
today than during most of the Cold War and will continue to 
grow as capabilities of potential adversaries mature.'' Then 
the bottom sentence after what you read says, ``Nevertheless, 
the missile threat will continue to grow, in part because 
missiles become more important regional weapons in the arsenals 
of numerous countries. Moreover, missiles provide a level of 
prestige, coercive diplomacy and deterrence that non-missiles 
do not.'' So we have two different phenomena here and we stand 
by both those judgments.
    Chairman Levin. With those sentences, of course, in the 
estimate, you still stand by the statement that it is more 
likely that the attack would come from non-missile means, for 
the reasons you give?
    Mr. Tenet. In the near-term, sir, but neither scenario for 
the use of missiles or terrorism is a no-likelihood situation 
for our country. We have to plan and deter against both.
    Chairman Levin. Thank you. Senator Warner.
    Senator Warner. Following up on that last comment--plan and 
deter, we know that it requires a very long time to prepare 
these missile defenses and we cannot start at the point in time 
when the scales might tilt towards missiles being the greater 
threat than what exists today. I just make that observation. Do 
you agree with that?
    Mr. Tenet. Well sir, we do not make the policy, but the 
question is, whatever you choose to do you have to figure out 
how long you want to take risk before you do something about 
something, and the rest is really a policy question that you 
all have to determine.
    Senator Warner. I would like to return to the question of 
Iraq. I fully appreciate the need to explore much of this 
behind closed doors, but the fact of the matter is that almost 
every day we pick up the paper, there is speculation in the 
papers and on television that consideration is being given to 
some action against Iraq. I am not criticizing the media; it is 
out there. Our President, I think quite properly, is 
concentrating a lot of thought on taking out Saddam Hussein 
militarily, if all other avenues, diplomatically, in the end 
fail. I admire him for that, because Saddam does pose a danger 
not only to this Nation but to much of the free world.
    Now, I think we have an obligation to talk about the 
consequences if in fact we are faced with that decision and 
have to carry through--hopefully with a coalition of other 
nations. But, if we have to go it alone, then we have to go it 
alone.
    Here are my concerns. I think militarily that the men and 
women of our Armed Forces, again hopefully with a coalition, 
can take him out expeditiously. There may be casualties, and 
possibly significant casualties. We as a Nation have to be 
prepared to stand behind the men and women of the Armed Forces 
and our Commander in Chief as that operation is executed and 
completed.
    Then the question, which I think Senator Levin posed, who 
fills the vacuum? Are there persons who exist that can step in, 
gain the confidence of the Iraqi people and lead that nation 
hopefully in a direction that is more compatible with a degree 
of democracy and freedom in that part of the world?
    We will also have to evaluate, and this is my question to 
you: in the aftermath, what is the likely degree of increase in 
the threats to this nation by means of terrorism? We now know 
painfully that a dozen or so individuals brought horrific 
damage to our Nation on September 11. They could fraction into 
groups of one and two and come into this nation.
    We saw in the aftermath of the Gulf War, we won a brilliant 
military campaign together with the coalition, but we lost the 
public relations battle over time. At the expense of his own 
people, Saddam Hussein really won over significant numbers of 
the hearts and the minds, particularly in the Muslim community. 
We are seeing that now as our Vice President evaluates the 
views in his trip. We saw it in polling data. Now you and I and 
others understand that that polling data reflects the tight 
control over the people in those various nations of the world 
as a consequence of their own governments and the manner in 
which the media is controlled, but nevertheless exists.
    My concern is in the aftermath of this, we will probably 
discover a significant infrastructure for weapons of mass 
destruction and research and development, and indeed probably 
manufacture and storage of these weapons. But how do we go 
about evaluating the degree of the increase of terrorist 
attacks, particularly by individuals who are ready to give up 
their lives willingly to bring further damage on our Nation? 
Will not that invasion of a sovereign nation--a transformation 
of that government by force--spawn an increase in the number of 
individuals not necessarily from Iraq, but from around the 
world, who will come and be inspired to inflict greater damage 
on this Nation?
    Mr. Tenet. Senator, I would say it is very hard to 
speculate in that regard. I think that on the one hand, you 
have a brutal regime in place that has done nothing for its 
people. That is clearly the fact. People have been repressed 
and brutalized for many years while a small coterie of 
individuals maintain power at their expense. So I would not 
make the one-for-one correlation. I think the terrorist 
phenomenon is something that is big right now and something 
hopefully that we will continue to basically dismantle and 
disrupt its ability to operate.
    I think that one of the messages that the President and 
Secretary of State have talked about is the importance of 
letting the Islamic world know that Islam is not the enemy. So 
our statements and thought about how we talk about the war on 
terrorism is as important as the actions we take in giving 
people a sense that it is not about the large Muslim world, 
many of whom do not condone--the Koran does not condone the 
kinds of activities that have been undertaken.
    Senator Warner. Well, that is all very well and good, Mr. 
Director, but I must tell you that I think it is important that 
we begin to spend a lot of time on this subject and try as best 
we can to inform the American people and others of the 
consequences of a significant military action to take out 
Saddam Hussein.
    Now what about the other governments in the Muslim world? 
They are very fragile and some of these leaders are saying that 
type of operation could in fact bring down the government in 
their nation. Is that a potential?
    Mr. Tenet. Well, Senator, let me say that I would like to 
hear from the Vice President when he gets back, because he has 
had these kinds of conversations. You often get a public face 
and a private face on these discussions and sometimes----
    Senator Warner. Well, you and I know that. We have all 
traveled and talked to those folks. I guess I am not going to 
make much progress this morning, but I am spending a lot of my 
time on this issue and I feel an obligation and I hope our 
President consults with Congress.
    That representation has been made by a series of 
individuals to this committee, but it is a major, major 
decision that we have got to prepare the American people for 
what the consequences would be. Yes, we would destroy weapons 
of mass destruction and the ability of that nation to produce 
it, but in the wake, would we spawn a higher, much higher 
degree of terrorism? The question is at what point do we 
exhaust diplomatic efforts and then take on this operation, if 
in fact this potential by Iraq to manufacture these weapons 
could result in tremendous damage to either our Nation or other 
parts of the world in the meantime? I just want to, as best I 
could engage that colloquy with you at this point in time. My 
time is up.
    Chairman Levin. Thank you so much, Senator Warner. Senator 
Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks, Mr. Tenet 
and Admiral Wilson, for being here and for your excellent 
testimony.
    I want to get to Iraq in a minute, but I want to, Mr. 
Tenet, draw attention to something you said in your testimony 
about al Qaeda and it echoes what the President and others have 
said. I sometimes wonder whether people are listening enough, 
which is, though we have achieved an extraordinary victory in 
Afghanistan and defeated the Taliban, liberated Afghanistan, it 
is my impression that both the Taliban and al Qaeda forces are 
still there. They are not in control, but we have not 
eliminated the Taliban and al Qaeda presence from even 
Afghanistan. Is that correct?
    Mr. Tenet. Sir, that is true. I would say that we are still 
not done in Afghanistan, that Operation Anaconda was enormously 
successful in dealing with a large presence of organized 
fighters who simply would not flee or run away----
    Senator Lieberman. Right.
    Mr. Tenet.--but that particularly in the eastern provinces 
up along the Pakistani border, there are still pockets of al 
Qaeda and Taliban that we still have to get after. So it is not 
done. You are entering into another phase here that actually is 
more difficult, because you are probably looking at smaller 
units who intend to really operate against you in a classic 
insurgency format.
    Senator Lieberman. Yes.
    Mr. Tenet. So I would caution that we still have much work 
to do here. Although the trend is certainly enormously positive 
in terms of denying this country as a sanctuary----
    Senator Lieberman. Absolutely.
    Mr. Tenet.--of unfettered activity.
    Senator Lieberman. Exactly. I thank you for that. Is it 
likely that al Qaeda forces are also not only in the mountains, 
but interspersed in some of the urban areas as well?
    Mr. Tenet. Less likely, sir, because of our presence, but I 
think in these provinces and the mountainous areas where they 
have learned how to hide and operate, and certainly as spring 
emerges, we will see--we may see some more activity on their 
part. But I think the net situation is a lot, lot better than 
it was, but we still have a long-term issue here.
    Senator Lieberman. Admiral?
    Admiral Wilson. I would like to give you a military 
perspective----
    Senator Lieberman. Yes.
    Admiral Wilson.--on this. It is that the most important 
thing we have done is eliminated their national training center 
for al Qaeda----
    Senator Lieberman. Right.
    Admiral Wilson.--to export worldwide terrorists who are 
trained. What you see now is enormous progress being made 
against al Qaeda and the Taliban, but a very widespread 
probability of insurgency-type warfare or operations that may 
bridge the difference between terrorism and insurgent warfare. 
That is what the military has to be prepared for in the urban 
areas and the rural areas, anywhere that they are operating in 
Afghanistan. What they are preparing for.
    Senator Lieberman. That is very important. I think it is 
very important that we acknowledge and understand it and that 
the American people do as well. I know when they do, they will 
stick with us as we continue the battle.
    Mr. Tenet. Just one more point, Senator, if I might.
    Senator Lieberman. Yes.
    Mr. Tenet. That is, Afghanistan is one theater, the rest of 
the world is another theater. We have done an enormous amount 
of work to disrupt that worldwide network----
    Senator Lieberman. Right.
    Mr. Tenet.--complicate planning, complicate command and 
control, and there is an enormous amount of progress that has 
been made. The key thing here is to deny other places--deny al 
Qaeda the sanctuary of operating with impunity any other place 
in the world, and there has been a lot of progress in that 
regard as well.
    Senator Lieberman. I appreciate that. Let me go to Iraq. 
Mr. Tenet, you know that I have a point of view here, and I 
have felt for a long time that as long as Saddam Hussein is in 
power in Baghdad, he represents a danger to the United States 
of America, to our allies, to our values. I think the statement 
that you have made here this morning on Iraq is very important, 
and it is the strongest statement that I have heard you make 
directly. I do not mean that you may not have made similar 
statements at other times elsewhere, but I would commend it to 
all of our--all of my colleagues in the Senate and the House 
for reading as we go forward in this debate about next steps 
with regard to Saddam Hussein's regime.
    Frankly, I would commend it to our allies around the world. 
Because you have laid out a very strong case here. ``Iraq has 
a''--I'm reading from your testimony--``long history of 
supporting terrorists including giving sanctuary to Abu Nidal. 
While al Qaeda represents a broad based Sunni worldwide 
extremist network, it would be a mistake to dismiss possible 
connections to either other groups or state sponsors either 
Sunni or Shia.'' There I hear that as Iraq or Iran in this 
case. ``Let me be clear,'' you say, ``Saddam remains a threat. 
He is determined to thwart U.N. sanctions, press ahead with 
weapons of mass destruction and resurrect the military force he 
had before the Gulf War.''
    I continue the quote: ``Baghdad has a long history of 
supporting terrorism, altering its targets to reflect changing 
priorities and goals. It has also had contacts with al Qaeda.'' 
Then on page 13 of your testimony you go to the Iraqis' program 
of weapons of mass destruction and ballistic missiles. I think 
we have acknowledged--everyone has--that he has chemical and 
biological capacity, in fact has used some of it against the 
Iranians and Iraqis.
    I think your statement about his nuclear weapons program is 
significant and unsettling and we really ought to focus on it. 
``We believe Saddam never abandoned his nuclear weapons 
program. Iraq retains a significant number of nuclear 
scientists, program documentation, probably some dual-use 
manufacturing infrastructure that could support a reinvigorated 
nuclear weapons program. Baghdad's access to foreign expertise 
could support a rejuvenated program, but our major near-term 
concern is the possibility that Saddam might gain access to 
fissile material.''
    I thank you for those statements. I guess I would just ask 
you one brief question, which is, where do you think Saddam 
might turn to gain access to fissile material, and how likely 
is it, do you think, that he might obtain it?
    Mr. Tenet. Sir, can we talk about that in closed session, 
please?
    Senator Lieberman. We certainly could.
    Mr. Tenet. Thank you.
    Senator Lieberman. Thank you. My time is up.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Roberts.
    Senator Roberts. Yes, thank you, Mr. Chairman. I am going 
to ask an Iraq question later in closed session and then a 
worry of mine in regards to the threat of terrorism in our own 
hemisphere. More especially, the activity of the rebel forces 
in Central and South America and the activity of organized 
crime and the drug trade, and does that represent a significant 
threat to the United States.
    I think without question, Director Tenet would say `yes,' 
but I will save that until the closed session. I want to thank 
Director Tenet and I want to especially thank Admiral Wilson 
for persevering in their commands, more especially in bringing 
to our attention and that of the public that it is a pretty 
dangerous world. Especially for those in their command who have 
paid the ultimate sacrifice.
    My question is in reference to an overriding principle, it 
seems to me, of what we stand for within our military that is 
synonymous with our American values. I think if you look at the 
American public today and you read who goes where to what 
movies, and that might seem a little incongruous, but I think 
it will become clear--one of the top movies today is ``We Were 
Soldiers.'' One of the top movies just a short time ago was 
``Blackhawk Down.'' Obviously the reruns of ``Saving Private 
Ryan.'' I think it underscores the issue that we leave no one 
behind. I think unfortunately, due to past mistakes now viewed 
in 11 years of 20/20 hindsight, and that is easy to do, that 
that is what we did with reference to a young man by the name 
of Michael Scott Speicher, who was the first pilot shot down in 
the Gulf War back in 1991.
    In pursuing every avenue, absolutely--and I underscore the 
word absolutely--to determine now Captain-Select Speicher's 
fate, that efforts speaks volumes as to the difference between 
our values and that of those who certainly threaten our way of 
life as illustrated by Director Tenet. I think it speaks 
volumes in regards to our relationship with Iraq. So after 
significant congressional prodding, Presidents Clinton and Bush 
and now Secretary of Defense Rumsfeld and those before them, 
indicate that Captain-Select Speicher, quote, ``might be 
alive.'' The Senate Select Committee on Intelligence has had an 
ongoing investigation into the Intelligence Community's 
performance with regard to the 11-year Speicher case. They 
have, and I list them, spearheaded the effort that changed Navy 
Captain Scott Speicher's status from `killed in action' to 
`missing in action.'
    We have pending now before the Defense Department a change 
from `missing in action' to `prisoner of war,' passed 
legislation to establish and maintain an analytic capability 
supporting activities relating to prisoners of war and missing 
persons, and I thank Director Tenet for his efforts in that 
regard. We directed a DOD/CIA Inspector General's review of the 
Intelligence Community efforts to determine the fate of Scott 
Speicher, and I thank Admiral Wilson for his perseverance in 
that regard. We directed the first ever Intelligence Community 
assessment of the fate of Captain Speicher, which resulted in 
President Clinton saying just before he left office that he 
might be alive.
    In view of the numerous reports received since the 
September 2000 Intelligence Community Assessment that indicated 
Scott Speicher probably survived the shoot down, what is your 
assessment today of the probability that Captain Speicher is a 
prisoner of war? I think that Director Tenet indicated that 
Admiral Wilson would respond to my question.
    Admiral Wilson. Senator, we continue to work and track down 
every possible lead regarding Commander or Captain-Select 
Speicher. Our conclusion is that we do not know for sure what 
happened to him, but the Iraqis do know. We certainly do not 
exclude the possibility that he could be alive and still be 
held captive. We simply do not know for sure, but continue to 
pursue with vigor to try to resolve this case.
    Senator Roberts. Well, I thank you for that response, 
because it seems to me that too often unnamed officials in the 
Pentagon indicate well, after 11 years, it really is not very 
probable that Scott Speicher may be alive. The other comment is 
what on earth is in Saddam's head that he would keep somebody 
prisoner for that long? More especially, an American pilot? I 
point out he kept an Iranian pilot 17 years. To try to 
determine what is in Saddam's head I think is rather foolhardy. 
I will tell you what is in his head. It is a dark center of 
evil, representing man's inhumanity against man, with self-
preservation stuffed in there with all of that. I think as you 
look at the background of the man, that he tries to emulate the 
example according to the dissidents that I've talked to of 
people like Stalin and Hitler. So I think to try to evaluate 
Commander, now Captain-Select, Speicher's fate on what is going 
on in Saddam's head is simply counterproductive.
    I thank you for your answer and I yield back the balance of 
my time.
    Mr. Tenet. Senator, I would like to also just comment on 
the POW/MIA cell that you mentioned in your question. I, acting 
as the DCI, assigned that responsibility to DIA. That cell has 
been up and running since summer and has done enormously good 
work in preparing for combat operations in Afghanistan and 
elsewhere, taking all the steps that we can to try to lay the 
framework so that something like the unresolved case of 
Commander Speicher does not happen again.
    Senator Roberts. Well, I really appreciate that because I 
have been saying that A, we did leave somebody behind and 
mistakes were made. That is probably the nicest way I can put 
it. I am not going to get into that. But I have also been 
saying that Team Speicher today, and that is how I refer to it, 
with the State Department, DIA, and DOD, and all of the 
Intelligence Community are working together, and as I have 
indicated before, absolutely endeavoring to determine every 
avenue to pursue the fate of Commander Speicher, now Captain-
Select.
    It speaks to today. It speaks to every serviceman and woman 
who wears the uniform. It speaks to every effort, that we do, 
in fact, leave no person behind. I thank you for your current 
efforts and I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Roberts, and thank you 
for your persistence. It represents the highest values of this 
Nation, and we are all indebted to you. It reflects, I think, 
well upon the Intelligence Community for them to use every 
possible avenue that they have to determine the fate of 
Commander Speicher.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman. I will submit my 
statement for the record.
    [The prepared statement of Senator Carnahan follows:]
              Prepared Statement by Senator Jean Carnahan
    I would like to welcome our witnesses this morning.
    We are here to discuss world-wide threats to our national security.
    The witnesses' written testimony is both thorough and alarming.
    It seems a daunting task for us to confront so many dangers looming 
from so many parts of the world. But the United States has risen to 
challenges like these before . . . and we will do so again.
    To most Americans it might appear as though these threats are new, 
and that the number of dangers we face has exploded since September 11.
    In reality, few if any of these threats are recent developments.
    They have grown for over a decade in countries throughout the 
globe.
    Rogue nations and terrorists have emerged to challenge America like 
never before . . . spreading weapons of mass destruction, threatening 
civilian populations indiscriminately, and testing America's resolve to 
wage a full scale war on terrorism.
    It took terrorist planes crashing into our buildings, anthrax 
attacks upon our population, and the deaths of thousands of our 
citizens before we stood as one nation to take decisive action.
    This hearing will assess America's vulnerability to further threats 
and examine options available to confront and eliminate them.
    This is not a simple matter.
    Many challenges await us----
    Iraq.
    Perhaps no single nation stands out as such a clear-cut danger to 
the safety and security of our citizens.
    Iraq's development of weapons of mass destruction cannot be allowed 
to stand.
    Weapons of Mass Destruction.
    The proliferation of these weapons is aided by countries like Iraq, 
Iran, and North Korea.
    These countries need to know that such actions have consequences.
    We also need greater security for nuclear materials and such for 
nuclear materials and greater investment in efforts to contain this 
problem.
    But perhaps just as dangerous as these weapons, are the attitudes 
of groups that would readily use them.
    There is a growing resentment toward our nation.
    In spite of the good our country does in the world, there are 
religious fanatics and rogue rulers who have spread hatred of America 
among their followers.
    We are successful at winning on the battlefield.
    But we are losing the battle for the hearts and minds of those whom 
we wish to make our friends.
    Finally, we are seeing a blurred definition of ally and enemy.
    Some nations offering us their hand in support use the other hand 
to support those who would do us harm. They receive massive aid from us 
. . . but their state-controlled media spread anti-American venom.
    I hope our hearing today will reveal policy options to provide us 
direction as we confront each of these challenges.

    Senator Carnahan. Director Tenet, in the New York Times 
recently, a security expert was quoted as saying, ``Without 
intelligence information to narrow the search, trying to find 
nuclear weapons smuggled into the United States is worse than 
looking for a needle in a haystack.'' Dr. Steve Fetter from the 
University of Maryland said, ``You just hope you never get to 
the point where you have to track down one of these nuclear 
warheads in a city.'' How can the Intelligence Community 
improve its information sharing with law enforcement 
authorities in the case of such an event?
    Mr. Tenet. Well Senator, I would tell you that the Director 
of the FBI and I, every morning, evaluate all the threat 
information. All the intelligence is passed to him in real 
time, to his joint terrorism task forces around the country. We 
have intelligence officers living with those terrorism task 
forces and I am satisfied that there is not anything we 
generate overseas that Bob Mueller does not get and that he is 
in the process of ensuring that State and local officials are 
also being brought into the process of understanding what we 
collect. So we are joined at the hip on terrorism, and in 
particular, obviously the issue of protecting the homeland. 
Governor Ridge has provided us an enormous amount of help in 
that regard as well.
    Senator Carnahan. Well, I read a report recently that there 
was a credible threat of a nuclear device being smuggled into 
New York City, but Mayor Bloomberg and Governor Pataki were not 
informed until after the fact. Why were they not informed?
    Mr. Tenet. I will tell you that that was not a credible 
threat, and I would like to discuss that in closed session. The 
FBI and everybody working this was on top of this; the 
particulars of whether they were or were not, I do not know, 
but I will tell you this. That we run down everything, but we 
do not attempt to scare the American people when we do not 
think things are credible, or things are brought to us by 
fabricators. In this instance, that was the case.
    This was not a credible threat. Otherwise reported by the 
media, but it was not a credible threat. The individual who 
brought us the information was deemed to be not credible and we 
believed that early on. Truthfully, I know the Director of the 
FBI or Tom Ridge would never withhold credible information from 
any of our mayors or governors when they believe that we have 
to get them to help us act.
    Senator Carnahan. On another topic that we have touched on 
already, I was in Central Asia in January and we met with the 
Turkish government then. I got the impression from them that in 
the event of an attack on Iraq, although Turkey has been our 
ally for years, that they would not want to be a part of that 
attack. What can we do to convince Turkey or others to be with 
us in such an event?
    Mr. Tenet. Well, I am the wrong person to ask that, but let 
me just say that if we ever get to that point and I think it 
is--nobody has made any decisions to do anything. It is really 
interesting that if we are attacking Iraq in the next 24 hours, 
I am not aware of anybody making those kinds of decisions. I am 
sure if the President ever reaches that kind of a decision, he 
and the Secretary of State and the Chairman and others will 
build a coalition of people and make their case. But this is 
something that policy makers and the President will take on 
board when and if he ever makes that kind of a decision. There 
are lots of different strains in the region, and governments 
have different views at this moment in time, and when the 
United States approaches them and says this is what we want to 
do or do not want to do. When you get into the game on game 
day, you find that everybody's attitude changes when you are 
talking to them about something that's specific and real so----
    Senator Carnahan. So you do not feel like this necessarily 
would be a firm commitment on their part? That it could change 
over time?
    Mr. Tenet. Ma'am, my experience is that everybody changes 
their views depending on what you are putting on the table and 
I am not aware that anybody has put anything on the table.
    Senator Carnahan. One final question. The creation of a 
nuclear weapon is not a simple task, but a radiological 
dispersal device is much easier to make and deploy. To the best 
of your knowledge, how prepared are we to detect, deter or 
respond to the use of a dirty bomb?
    Mr. Tenet. Ma'am, I would like to take that in closed 
session, if I could.
    Senator Carnahan. All right. Thank you very much.
    Chairman Levin. Thank you, Senator Carnahan. Senator 
Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. Following up the 
way the last question was asked, it said, implying that making 
a nuclear weapon is not an easy thing. We all understand that. 
But buying a nuclear weapon is a fairly easy thing. Can you 
draw any distinction in your mind as to a threat that could be 
posed to us by any rogue nation, whether they did it 
indigenously or whether they bought the weapon?
    Mr. Tenet. Actually, sir, I think buying a weapon may be 
more difficult. Acquiring fissile material is the issue that--
--
    Senator Inhofe. I see.
    Mr. Tenet.--I think concerns us. We know over the last 
decade, there have been all kinds of anecdotal evidence of 
people attempting to sell fissile material. Any number of 
attempts to do that have been stopped. So the question in our 
mind is where is the fissile material?
    Senator Inhofe. Yes.
    Mr. Tenet. Then the question is do you have expertise, 
design capability to put something together, whether crude or 
more sophisticated? So the real concern we have is material, 
rather than the weapon itself.
    Senator Inhofe. But how easy is it to trace material?
    Mr. Tenet. It is a difficult proposition, sir.
    Senator Inhofe. Yes.
    Mr. Tenet. But we should talk about all that----
    Senator Inhofe. Well, and I understand that, but I just 
think it needs to be said.
    Let me ask you something, Admiral Wilson. I know that you 
could say that there are terrorist threats everywhere, but in 
terms of on the level that has been concerning us, that we are 
dealing with on a daily basis, do you feel that there are 
potential terrorist threats to our forces in Puerto Rico?
    Admiral Wilson. I am not aware of specific indications of 
that, but certainly our military believes that they are a 
target of terrorist groups wherever they can operate. It 
certainly could--we could have a threat in Puerto Rico.
    Senator Inhofe. Yes, well that is a very straightforward 
answer. I know that we are all concerned about our troop 
protection all over the world anywhere, including here in the 
United States. But I think sometimes people will use that in 
this particular environment as an excuse to do things or not do 
things they would otherwise do.
    Let me ask you, Mr. Tenet. I am sorry I had to leave for a 
while, so you may have answered this question. I was here at 
the very beginning. In your testimony on February 6, I think it 
was, of this year, you mentioned Iraq's ties with the al Qaeda 
and their common hatred for America. You also stated in your 
prepared statement that Iraq has had contacts with the al 
Qaeda.
    We know about the meeting in Prague between Mohammad Atta 
and an Iraqi intelligence official. However, on the very moment 
that that happened, of the previous testimony, The Baltimore 
Sun ran an article quoting unnamed U.S. intelligence forces as 
stating that the CIA has no evidence that Iraq has engaged in 
terrorism against the United States since Saddam Hussein tried 
to assassinate President George H.W. Bush in 1993. Can you 
clarify this for the record?
    Mr. Tenet. Sir, I would like to do all of this in closed 
session.
    Senator Inhofe. All right. I am sure you have talked about 
some of the interest in trying to have various reforms in our 
intelligence system. We have the National Security Agency (NSA) 
and the CIA and of course the Defense has their systems, too. I 
remember that my predecessor, with whom you worked, in fact, 
for whom you first came to Washington, had a great interest in 
doing some major reforms and you were involved at an early 
stage.
    I have made an observation and I would not say in an open 
session where this was, but I was very pleased to find that all 
these groups are around the same table exchanging information, 
and it is not the exclusive clubs that some thought it was at 
one time. Do you think we are making progress in our 
communication with each other through the various intelligence 
agencies?
    Mr. Tenet. Yes, sir, and I would ask Admiral Wilson to 
comment, but I think you have a very integrated Intelligence 
Community that communicates every day at the leadership level 
and at the working level, working very hard on the 
relationships with law enforcement, which have improved rapidly 
over the last 5 years. It is not since a few months ago. 
Obviously, the ability to share and move information quickly 
has to be one of our major objectives and we are succeeding in 
that regard.
    Senator Inhofe. Well, let me tell you, Mr. Tenet, I 
witnessed it on the working level and it was working very well. 
Admiral Wilson, any comments on that?
    Admiral Wilson. I think I should comment on--give you an 
example of military intelligence echelon above corps, which is 
all unified commands, DIA and the service intelligence centers. 
When you take a look at how we were organized, how we operated, 
what the doctrine and TTP, tactics, techniques and procedures 
were, and what our problems were in 1991 in the Gulf War, and 
you compare that to the way we are organized, the way we 
operate today, and the way we have capitalized on the explosion 
of information technology to federate and collaborate, it is a 
completely different organization.
    That is for military intelligence. Similar trends are true 
in the Intelligence Community at large.
    Senator Inhofe. That is good.
    Admiral Wilson. It is truly a completely different 
organization, and much smaller.
    Senator Inhofe. Thank you, Admiral and Mr. Tenet. Thank 
you, Mr. Chairman.
    Admiral Wilson. Certainly.
    Chairman Levin. Thank you, Senator Inhofe. Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. Director Tenet 
and Vice Admiral Wilson, I want to thank you for being here and 
certainly extend appreciation for the work you are doing to 
integrate the Intelligence Community to assist us against 
worldwide and domestic threats. Also, to compliment you for the 
work that was done that prevented the loss of lives and 
property in Singapore with the arrest of 13 terrorists, most of 
which apparently received their training in camps in 
Afghanistan.
    So it is clear that we are working together to protect the 
world as well as our citizens here at home. The first question 
I would like to explore is there are apparently interests in 
Iran right now working perhaps in western Afghanistan. In 
particular, Herat and Mazar-e-Sharif. Apparently, there are 
scores of Iranian intelligence and military personnel which may 
have found their way deep inside Afghanistan working groups, 
and others that are designed to destabilize the interim 
government. Is there anything that you might be able to tell us 
in open session about the efforts to determine whether or not 
that is correct and whether our efforts may be successful, if 
there are these interests, in rooting them out, and trying to 
assist the interim government of Chairman Karzai to assist in 
that effort?
    Mr. Tenet. Sir, let me just say, in my opening statement I 
alluded to the fact that we are concerned about this and 
worried about what the clerical regime believes the United 
States may be up to, and it certainly does not like the fact 
that we have become the dominant player on the ground there. 
Beyond that, I would like to talk about it in closed session. 
It is an important subject.
    Senator Ben Nelson. It is probably reasonable to assume 
that they have an interest, being neighbors, and I am certainly 
not going to take their side of the issue, but it is reasonable 
to assume that they do have an interest and that we are going 
to have to be rational in our relationship.
    Mr. Tenet. Well sir, there is an interesting juxtaposition. 
At the Bonn conference that created this interim government, on 
one level the Iranians were helpful on the diplomatic level and 
on another level, what we see in Afghanistan is quite a 
different experience in terms of where their interests may lie 
and the problems they may pose for us, and it may indicate 
dramatically the two faces of this government that we are 
dealing with all the time.
    Senator Ben Nelson. We are used to dealing with schizoid 
behavior, I assume.
    Mr. Tenet. Well it is worse than schizoid, sir----
    Senator Ben Nelson. I see.
    Mr. Tenet.--but I am not a psychologist.
    Senator Ben Nelson. The second question is with respect to 
Iraq. I know there is a question, and Senator Warner brought it 
up, that we may be faced with a decision to enter Iraq and the 
decision may very well be made to enter Iraq. But I believe 
that members of this Committee and members of Congress hope 
that it will not be brought to us as a fait accompli--that once 
the decision is made, now it is brought to us.
    I think the advice and consent relationship that there 
exists between Congress and the administration, keep in mind I 
have had experience on the administration side of State 
government, so I am mindful of the desire for the 
administration to work with Congress, but I hope that we will 
be in a position where in closed session, in appropriate 
discussions, input is achieved before a decision is made at the 
administrative level. I know that may not involve directly your 
position, but I hope that you can express that to the 
administration. Certainly on my behalf and hopefully on behalf 
of my colleagues here on this Committee.
    Chairman Levin. It is safe to say that Senator Nelson 
speaks, if not for all of us, because that I probably cannot 
say, but I do believe for just about everybody in the Senate 
that I have spoken to. Even though that is not your decision as 
to that kind of consultation, probably, it is important that 
you pass that along to the administration because you are very 
much involved in that process. I think the concern which he, 
Senator Warner and others have expressed here is one that is 
shared by most if not all members of the Senate.
    Senator Ben Nelson. Yes. I do not want to suggest that that 
will not happen, but there is always a concern that it might 
happen in that order. Thank you, Mr. Chairman.
    Senator Warner. We thank you, Senator. I certainly have 
done my best in this area to consult from the President on down 
and have received those assurances. But equally important is 
bringing the American people along so they fully understand 
exactly what has to be done.
    Chairman Levin. Thank you.
    Senator Bunning.

                STATEMENT OF SENATOR JIM BUNNING

    Senator Bunning. Thank you, Mr. Chairman. Director Tenet 
and Vice Admiral Wilson, thank you for being here. I would like 
to take a little different approach on what Senator Warner and 
Senator Nelson talked about as far as Iraq is concerned.
    If, in fact, there is a direct connection between Iraq and 
al Qaeda. If it is a connection that we can actually prove, 
that Iraq was involved in the September 11 bombing and whatever 
you want to call it, the Holocaust up in New York and the 
Pentagon and other things--if they were involved in the direct 
planning and fulfilling those plans, I think that the President 
should probably consult with very few members up here, maybe 
the Chairman and Ranking Member of the Armed Services 
Committee. But I think there was a general resolution passed by 
the Senate to take all necessary action to retaliate against 
the al Qaeda. I think that was the resolution that was passed 
on the floor of the Senate and I did not see anybody getting 
very upset here in the United States of America when we went 
into Afghanistan.
    In fact, there was celebration that we were finally taking 
a retaliatory action against those who had acted so 
irrationally and hostilely and the al Qaeda, not necessarily 
just them, but the Taliban--the illegitimate Government of 
Afghanistan. We were extremely happy when we went in with 
coalition partners. So I would think if we are going to react 
to Iraq in any manner, sending them a signal that we are going 
to would just, in my opinion, as Secretary Rumsfeld usually 
says when he comes before us, we are not telegraphing what the 
heck we are going to do. So I agree to an extent with the good 
Senator from Virginia, but I surely do not think that everybody 
in Congress needs to be involved in the decision making process 
and I want you to take that message, that there are some of us 
that think if you have the information you need to react, that 
you should go ahead and do it.
    [The prepared statement of Senator Bunning follows:]
               Prepared Statement by Senator Jim Bunning
    Good Morning Gentlemen:
    I would like to join my colleagues in expressing in my personal 
admiration and respect for the men and women in your organizations who, 
like Mike Spann, place their lives on the line each day to ensure our 
Nation's freedom and security. Details of the threats that you have 
identified before this committee today are absolutely consistent with 
President Bush's address on the ``axis of evil.''
    Mr. Tenet, last year, at this same briefing, you told us that Osama 
bin Laden and the al Qaeda network were the most immediate and serious 
threats to this country. That warning did not prevent the horrific 
events of September 11. We, as a Nation, will never again doubt the 
seriousness of these threats. We now know what they are capable of and 
we will not underestimate them again. As you pointed out before the 
Senate Select Intelligence Committee last year our, ``highest priority 
must invariably be on those things that threaten the lives of Americans 
or the physical security of the United States.''

    Senator Bunning. Today in the Washington Post there is 
report that Sudan had captured a senior member of al Qaeda, Abu 
Liby. Liby is a suspect in the East African embassy bombing. 
Have the Sudanese given us access to him or not?
    Mr. Tenet. Sir, I do not want to talk about this in open 
session. I would like to do it in closed session.
    Senator Bunning. You do not want to talk about it in open 
session?
    Mr. Tenet. No, sir.
    Senator Bunning. All right. I will wait until the closed 
session. Does the CIA have sufficient resources in place to 
protect the United States from another catastrophic attack like 
September the 11th?
    Mr. Tenet. Sir, I think that the CIA, the FBI, the INS----
    Senator Bunning. All the intelligence.
    Mr. Tenet. All of these--well, they are not intelligence 
agencies, but I think the budget that you have in front of you 
that the President has submitted is going to certainly put us 
all in a better place. With the kind of homeland protective 
measures that Governor Ridge is implementing, I think our 
security is improving every day. As we move from brute force to 
smarter thinking about the things we have to do, I think the 
budget in front of you is going to put the country in a much 
better place.
    Senator Bunning. Mr. Tenet, I questioned the Secretary of 
Defense and the head of the Joint Chiefs on our operation in 
Afghanistan and it was hard for me to understand how so many al 
Qaeda and Taliban seem to be able to escape when we were 
hunting them down, specifically leadership people in the both 
the Taliban and the al Qaeda. Maybe you can help me out.
    Mr. Tenet. Well, sir, I would not--certainly a lot of 
people have gone in and over--this is a very tough territory in 
which to operate. Sealing any of those borders----
    Senator Bunning. You do not have to seal them.
    Mr. Tenet. No, sir.
    Senator Bunning. But you can observe them.
    Mr. Tenet. Well, sir, we have worked pretty hard on it, but 
there are still many many points of exit that people in small 
numbers can get out, and it has been something that we have 
worked on quite hard while we are fighting a war, chasing 
people, litigating military and intelligence targets and it is 
certainly--we are frustrated that people did get away, and we 
have worked very hard on this with all of the allies in the 
region to bring their forces to bear to help us not necessarily 
seal, but watch those borders.
    We have picked up lots of people. So I think that it is an 
ongoing problem for us. We are still working it on the ground. 
We have the Pakistanis, the Uzbeks, the Tajiks and others still 
working at it. We would like to seal that border with Iran to 
make sure people do not get in and out of Iran with any 
impunity. That is harder to do.
    Senator Bunning. That seems to be the major exit point.
    Mr. Tenet. Yes, sir.
    Senator Bunning. Even though Pakistan is right sitting 
where all the forces might want to run.
    Mr. Tenet. Yes, sir. So you need host governments to also 
support you in this and that level of support has been----
    Senator Bunning. Iran is not----
    Mr. Tenet. We need a lot more help there, sir.
    Senator Bunning. Just one about the schizophrenic people 
that we deal with. Iran is not only that way, but China is that 
way in many respects as far as cooperating in the war against 
terrorism, and yet on the other side creating the tools of 
terror, with selling off things to those countries--those rogue 
countries and those who are harboring terrorists. So we will 
talk about that in closed session also. Thank you.
    Chairman Levin. Thank you, Senator Bunning.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Director 
Tenet and Admiral Wilson, let me raise one question which might 
have been discussed before either indirectly or directly. That 
is North Korea's indigenous missile development program. 
Estimates have the threat from Korea and even Iran by 2015, but 
there are lots of presumptions that undergird that assessment. 
Could you comment on this situation? I might also note that my 
understanding is that in Iran, the last four tests of the 
Shahab 3 missile have resulted in failures. The last occurred 
in January of this year. What might that add to your estimates 
about potential for a longer range missile threat from North 
Korea and Iran?
    Admiral Wilson. Let me talk first, Senator, about the North 
Korea's indigenous missile program. They have relatively few 
exports of value and they certainly have exported missile 
technology and missiles and in sometimes imaginative marketing 
techniques and schemes, and used income produced by that to 
fund their own, some of those same missiles in their own 
country. We have seen the numbers of short-range ballistic 
missiles increase and we have seen them progressively field 
longer range missiles to where there is a greater threat to the 
theater and ultimately to, potentially even in an 
intercontinental way.
    So it is a very interesting problem in a sense that it is 
the one country where `export first' actually is the fuel that 
allows indigenous development. We are tracking it as a very top 
priority for all of intelligence, and certainly for military 
intelligence. I think that on the Iranian launches, we need--
first of all, we have been in good position to monitor them, a 
good collection capacity that the community can bring to bear, 
and it is very important that our scientific and technical 
analysis people, as they are doing, plunge very deeply into 
what occurred.
    If there were failures, were they significant or some 
minor, easily correctable deficiency? We are constantly taking 
in new information and applying those back into our 
assessments. In this area of endeavor, I would say that quick 
judgments about success or failure are very dangerous. We need 
to analyze all this data over time to make the proper 
assessments about whether a program is proceeding faster than 
we believe, slower than we believed or on pace.
    Senator Reed. Director, do you have comments?
    Mr. Tenet. No.
    Senator Reed. Let me just ask in conclusion, the 2015 
estimate for that intercontinental capability you still feel 
confident is the right estimate or----
    Mr. Tenet. Yes, sir.
    Senator Reed. Based upon all the evidence you have gathered 
and----
    Mr. Tenet. Very high confidence in what we have just put 
out publicly in that regard on the estimate.
    Senator Reed. Thank you, Director. Thank you, Admiral.
    Mr. Tenet. Thank you, Senator. I would say Senator, one 
thing that's the wild card in all of this, all the time in 
these estimates, is the pace of the technology and the pace of 
foreign assistance continually surprise us. So this is a good 
piece of paper this year on what that foreign assistance looks 
like and how technology evolves and how quickly people make 
their indigenous capability. The problem with estimates is 
sometimes you estimate when you do not know, and we have 
learned in the ballistic missile area that things happen a lot 
faster than estimates sometimes predict. So if you were going 
to worry about this, worry on this side of the equation----
    Senator Reed. Right.
    Mr. Tenet. --in terms of how fast some of these things can 
come on and surprise us.
    Senator Reed. Just following up, if I may, the point the 
Admiral raised is that it appears that the North Korean program 
appears to be funded by its exports of similar technology. Are 
you consciously, or I should say not you, but are we 
consciously and deliberately trying to disrupt that trade?
    Mr. Tenet. We are putting a lot of attention to it, sir.
    Senator Reed. Thank you.
    Chairman Levin. Senator Allard.
    Senator Allard. Mr. Chairman, I was going to yield to my 
colleague from Alabama. He stepped out briefly. Would it be 
possible for me to yield and then reclaim part of his time 
later on here when he steps out? He has got a schedule problem, 
if that is okay. But I will just go ahead with my question and 
see if he shows up, if that is okay.
    Chairman Levin. That will be fine.
    Senator Allard. A couple weeks ago, Mr. Robert Walpole, a 
national intelligence officer for strategic and nuclear 
programs of the National Intelligence Council, testified before 
the Senate Government Affairs Subcommittee on International 
Security, Proliferation, and Federal Services regarding the 
national intelligence estimates of foreign missile threats. 
During that hearing, Mr. Walpole made what I thought was a very 
important statement regarding the important, and in fact it was 
an important and eye-opening statement, but it is somewhat 
lengthy. So please bear with me because I want to repeat it for 
the record.
    His statement goes to this effect, ``All this leads us to 
assess the probability that a missile with a weapon of mass 
destruction will be used against U.S. forces. Our interest is 
high today, higher today than during most of the Cold War and 
it will continue to grow as the capabilities of potential 
adversaries mature. More nations have ballistic missiles. They 
have already used missiles against the United States forces and 
allied forces during the Gulf War. Although those missiles did 
not deliver weapons of mass destruction, Iraq has weaponized 
ballistic missile warheads with biological and chemical agents 
and they were available for use.''
    It goes on, ``Moreover, some of the states armed with 
missiles have exhibited a willingness to use chemical weapons 
with other delivery means. In addition, some non-state entities 
are seeking chemical, biological, radiological and nuclear 
materials and would be willing to use them without missiles. In 
fact, we assess that the United States territory is more likely 
to be attacked with these materials from non-missile delivery 
means, most likely from terrorists, than by missiles. Primarily 
because non-missile delivery means are less costly, easier to 
acquire, more reliable and accurate. They can also be used 
without attribution.''
    But I think the third paragraph that I pulled out here is 
very important. He says that, ``Nevertheless, the missile 
threat will continue to grow, in part because missiles become 
important regional weapons in the arsenals of numerous 
countries. Moreover, missiles provide a level of prestige, 
coercive diplomacy and deterrence and non-missile means do 
not.'' In short, Intelligence Community must work both threats. 
We do not have the luxury of choosing to work one at the 
exclusion of the other. Neither is a no-likelihood situation.
    My question is do both of you agree with that statement and 
second--well, go ahead and answer that question. Then I will 
follow up with another question.
    Mr. Tenet. Yes, I do.
    Admiral Wilson. Sure.
    Senator Allard. OK. Then second, do you agree with Mr. 
Walpole then when he said we do not have the luxury of choosing 
to work one at the exclusive of other? Thus, isn't it a false 
choice, protection against non-missile delivery or missile 
delivery of a weapon of mass destruction?
    Mr. Tenet. From our perspective in our business, we do not 
have a choice. We have to work both those things. As 
intelligence professionals, we cannot make that choice. We have 
to work both those hard and continue to provide you estimates 
in this regard.
    Senator Allard. Admiral Wilson?
    Admiral Wilson. I absolutely agree.
    Senator Allard. Yes. I just want to make sure the record 
reflects that both indicated that yes, they agree with both of 
those questions. Then Mr. Chairman, I would like to yield the 
balance of my time to the Senator from Alabama, if I could pick 
up his time on his--when he questions?
    Chairman Levin. I believe you are going to be next anyway, 
so I am not sure----
    Senator Allard. Want me to finish? OK.
    Chairman Levin. He can do it either way; whatever is 
convenient.
    Senator Allard. I will go ahead and finish then if that is 
okay. Your testimony indicates--this is to Admiral Wilson--that 
a number of nations and non-state entities are developing the 
means to disrupt, degrade, and defeat U.S. space systems. Since 
we are increasingly relying on space-based capabilities, I find 
this personally disturbing. What states and non-state entities 
are pursuing these counter-space technologies?
    Admiral Wilson. The more advanced industrial states--
obviously, China and Russia--are the ones that have the most 
capabilities. With regard to non-state pursuit, I'd prefer to 
answer that in closed session.
    Senator Allard. OK. Do we have evidence that our space 
assets have been probed or attacked in the past?
    Admiral Wilson. I would like to take that question for the 
record. I am not aware of any significant examples, but I need 
to be sure.
    Senator Allard. OK. What forms of attack could non-state 
entities pursue, and what is your estimate of the potential 
effectiveness of such attacks?
    Admiral Wilson. Well, the type of attacks that could 
disrupt or degrade space systems include physical attack. For 
example, against important ground stations that we have to 
bring the information back to Earth, to electronic or 
information attacks against computer systems or networks or 
communications systems that make the entire space system work. 
I think that on the low end scale, attacking the ground side 
part of the infrastructure is obviously the larger threat than 
the stuff in orbit, for example.
    But those are the kind of things that concern me most about 
a broader array of actors.
    Senator Allard. Mr. Chairman, I see my time has expired.
    Chairman Levin. Thank you, Senator Allard.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I know that all 
of us are watching the Afghanistan situation and all the 
ramifications of it with great interest. I visited on Saturday 
with seven of our soldiers who were wounded there. It is so 
impressive to be with them at Walter Reed and they are just a 
sense of encouragement for me.
    But we do have other dangers in the world. Let me ask you 
about Colombia. I noticed, Director Tenet, you in your 
statement only had a paragraph on Colombia. Admiral Wilson, you 
made no mention of it. But it is a nation of 40 million people 
in this hemisphere. It is the second oldest democracy to the 
United States. We have--you think about Kosovo, a nation or 
province of 2 million people, Colombia has 40 million where we 
have real trading relations. A nation that represents a 
strategic part of that world that it would be a monumental 
tragedy if the democratic progress that has been made were to 
be eliminated as a result of an adverse outcome in Colombia.
    Let me ask you, first of all, was it at the direction or 
the suggestions of the moment or the Committee that you omitted 
that? Or does that reflect, Mr. Tenet, a relative lack of 
interest in Colombia?
    Mr. Tenet. No, sir. I have a detailed piece in the 
classified statement. In the unclassified form, we had a little 
paragraph in there.
    Senator Sessions. I am sure that is correct. I did not mean 
to be catty about it, but I do think we need to think about the 
importance of Colombia and it is not being focused on 
correctly. President Pastrana recently ended negotiation with 
the FARC, has rejected this safe haven he had previously given 
them in an effort to engage in peace talks and encourage that. 
Let me ask you this, Director Tenet, do you conclude that the 
narcotic terrorists, guerrillas, Communists, kidnapers, dealers 
in narcotics--they have been indicted, I believe in the paper 
it was noted today, for drug smuggling, that they used the time 
that they were given to strengthen their position. Or was it a 
good faith negotiation by the FARC with Colombia over the past 
several years?
    Mr. Tenet. Well sir, I think that they attempted to 
solidify their position in this regard. I think what they are 
trying to do now is basically destroy the will of the Colombian 
people to resist. You have seen what they have done since in 
terms of economic infrastructure attacks, terrorism, plans to 
attempt to take this to urban areas. The Colombian people are 
quite tired of them, and I think there is a new will that is 
emerging down there.
    Now we are in the middle of an election. There will be a 
new President elected. There is a period that we are going to 
have to see what the new leadership thinks, who is elected, 
what they think about it. But this is a group that poses a 
fundamental narcotics challenge--narco-terrorists is certainly 
a good way to describe these people--but they pose a 
fundamental security challenge to the people of Colombia. We 
still have a great outflow of cocaine from Colombia. The 
democracy itself is being challenged. I would tell you the 
administration is looking at the situation quite carefully in 
terms of our evaluation of it, but this one paragraph here does 
not note the importance we attached to it from an intelligence 
perspective, the level of effort down there in trying to 
understand all of this. So you put your finger on something 
that is quite important, sir.
    Senator Sessions. I thank you for that and I certainly 
believe we need to focus more on it. You know the military in 
Colombia is not where it needs to be. The people seem to be 
coming together, in a way, and the military seems to be 
improving. The police seem to be improving. Is there something 
we can do to encourage them to be more effective in this effort 
against the Communist guerrillas? It would seem to me along 
that line that we ought to make clear that that is our policy, 
and I see some changes from the previous administration only 
recently that indicated our previous policy being focused 
solely on narcotics. Absolutely crystal clear: nothing else but 
narcotics was the basis for our involvement there.
    Is there a change in our policy? How would you articulate 
our policy today with regard to Columbia and the guerrilla war 
they are facing?
    Mr. Tenet. Sir, I can tell you that the National Security 
Advisor, the Secretary of State, and the Secretary of Defense 
have this on the plate right now actively looking at this 
issue, thinking their way through the problem. It has got 
everybody's attention. As to those policy changes, it will come 
out of the administration whenever they conclude what their 
next steps are. But you just need to know that this is 
something that is actively--the whole issue of Colombia is 
being thought of very carefully.
    Senator Sessions. Well, I know there are many things on 
their plate, but I wrote Secretary of State Powell on this 
issue not long after he took office encouraging him to 
reevaluate this policy, and I believe it should be done. It is 
overdue. Admiral Wilson, one of the things we have indicated 
that we would do to help Colombia is share intelligence. How 
will that help them in this effort and how is that going?
    Admiral Wilson. I made a trip to Colombia last year and met 
with my counterpart there, the head of the police intelligence 
and all the military chiefs, and we visited Tres Esquinas, the 
jungle base, for example, where counter-narcotics and counter-
insurgency operations are ongoing. They clearly understand that 
they need better tactical and human intelligence on the foe, 
the FARC that they face, and we are working with our embassy 
and with military and CIA to provide the kind of intelligence 
that we can that helps them and to develop within their own 
forces the tactical intelligence skills that are necessary. It 
is really the continuum from a national level view down to the 
tactical level that needs to be successfully worked by 
Colombia. I think it is at that tactical level where they 
really have to help themselves and where we have lessons 
learned and recommendations that can be helpful to them. We are 
engaged through the embassy and through the Southern Command on 
these issues.
    Senator Sessions. Thank you very much, Mr. Chairman, and I 
do not see any solution to this at this point other than 
Colombia being successful militarily. Perhaps at that point 
they can negotiate someday, but until they really get these 
people on the run or either totally defeat them, that country 
is going to be weakened, incapable of stopping narcotics. We 
cannot expect a country that does not control its territory to 
be able to stop narcotics. So hopefully we can figure a way to 
support them in that effort. Thank you.
    Chairman Levin. Thank you, Senator Sessions. The open 
session will now conclude. It has been a very----
    Senator Bunning. Mr. Chairman? May I make sure that my 
opening statement gets put into the record?
    Chairman Levin. Absolutely. It will be made part of the 
record, as will all opening statements.
    This has been a very helpful session. I think it is 
important that we begin in open session, but it is also 
important we now have an opportunity to go directly to 
executive session in room SH-219. We will stand----
    Senator Warner. Mr. Chairman? Could I commend our 
witnesses? They have a difficult assignment coming up before 
Congress in open session and balancing that information which 
at this point in time can be shared in the public domain, but I 
hope those following the hearing understand the seriousness of 
the nature of your work and that we have to operate in 
classified session in order to balance the responsibility of 
the Executive Branch, which you proudly represent, and we, the 
congressional branch of government. Thank you.
    Chairman Levin. They do have a heavy responsibility and 
they both carry it out very well. We thank you for that, and we 
will now move to room SH-219.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                     intelligence community reform
    1. Senator Warner. Director Tenet and Admiral Wilson, both 
President Bush and Secretary Rumsfeld have spoken of the need to better 
organize our Intelligence Community in response to the emerging threats 
of the 21st century. What changes to the current Intelligence Community 
structure do you think are needed?
    Mr. Tenet. National Security Policy Directive number five requested 
that I review the findings of the two panels that review the status of 
the Intelligence Community. The External Panel, headed by General 
Scowcroft, has reported its findings to me and they have been reviewed 
by the National Security Council principals. The Internal Panel, 
composed of Intelligence Community officials, did not complete its 
review due to the demands of our continuing war on terrorism. I am 
currently in the process of formulating a set of recommendations for 
the President's consideration based on the work of the Scowcroft Panel 
and the views of my colleagues on the NSC. I will report to you on the 
progress of this directive once the President has made his decision on 
the future direction of the Community.
    Admiral Wilson. The Secretary of Defense has stated that he is not 
sure the Intelligence Community (IC) needs a radical reorganization. I 
agree. Speaking specifically about the General Defense Intelligence 
Program, which I have managed since July 1999, we operate in a truly 
federated manner. That means that DIA, the unified command joint 
intelligence centers, and the military service national intelligence 
centers are incredibly connected--by technology, by doctrine, and by 
philosophy. The federation is efficient and effective, but severely 
short of resources to respond to the many, varied, and complex 
requirements levied for satisfaction.

    2. Senator Warner. Admiral Wilson, what changes to the current 
defense intelligence structure do you feel are necessary to best 
support military operations, as well as national intelligence needs?
    Admiral Wilson. I do not believe structural changes are required. 
Our fiscal year 2003 budget request includes investments in new 
collection planning approaches that promise significant improvements. 
We are expanding human intelligence (HUMINT) capabilities with more 
advanced document exploitation technologies, chemical and biological 
intelligence support teams, and partnerships between analysis and 
collections. We have begun to modernize our aging MASINT sensors, which 
are essential for missile defense and intelligence assessments of 
chemical, biological, and nuclear threats. Investments in the General 
Defense Intelligence Program (GDIP) production enterprise include 
additional manpower authorizations across all components as well as 
funding for the Virtual Knowledge Base, where all types of intelligence 
data will be available through common portals to users in any location 
around the world.
    [Deleted.]
    The Secretary of Defense noted in his introduction to the 
Quadrennial Defense Review that, ``Transformation is not a goal for 
tomorrow, but an endeavor that must be embraced in earnest today.'' The 
fiscal year 2003 GDIP budget request continues the transformation in 
the GDIP that began a decade ago. This transformation postures us well 
for continued change, but transformation was not the product of an 
elegant master plan. Rather, it was the result of a number of factors 
that combined to drive major changes in the way we are organized and do 
business. These factors include:

        <bullet> Lessons learned from Operation Desert Storm that 
        taught us we had problems with dissemination, interoperability, 
        and joint operations.
        <bullet> The Goldwater-Nichols Act which legislated jointness 
        even though we had not yet organized jointly or written joint 
        doctrine, tactics, techniques, and procedures.
        <bullet> Mandated personnel reductions that forced us to 
        address a flood of new requirements and challenges with fewer 
        people to do the work.
        <bullet> The explosion of information technology that allows 
        the GDIP to operate in ways we never imagined.

    The above factors led to the phenomenal transformation of the GDIP 
in the 1990s. We could not have envisioned in 1991 how the GDIP 
federation--DIA, the service intelligence centers, and the unified 
command joint intelligence centers--would be organized and operate in 
2002. We are 26 percent smaller, about two-thirds joint, and 
connected--technically, procedurally, and philosophically--in ways that 
allow the GDIP to be better than the sum of its parts. This 
transformation is clearly evident in the Defense HUMINT Service (DHS), 
now 7 years old, which is more effective, efficient, and 
technologically advanced than the component parts that led to its 
creation when they were merged into DHS in 1995.
    The Central MASINT Organization, established in 1992, has created 
an overarching architecture for MASINT; improved the tasking, 
processing, exploitation, and dissemination of MASINT collection; 
brought MASINT capabilities closer to the warfighter; and increased 
research and development in advanced technologies. The federated 
Department of Defense Intelligence Production Program (DODIPP), begun 
in 1994, assigned analytic responsibilities to all the GDIP production 
centers, thereby reducing or eliminating a great deal of duplication 
throughout the community. This federated structure enables the United 
States to respond to crises with agility. GDIP components work together 
to share targeting and battle damage assessment responsibilities, and 
they also relieve a supported command of many analytic responsibilities 
that are not central to ongoing military operations in that theater. 
The joint reserve intelligence centers also are critical players in 
this process, assuming many production responsibilities.
    Joint training and technology have been the two key enablers for 
the GDIP transformation. Virtual intelligence training, regional 
training centers, and mobile training teams have allowed our global 
work force to receive just-in-time training when and where it is 
needed. The fundamental building block for all our GDIP intelligence 
operations is the Joint Worldwide Intelligence Communications System 
(JWICS). By the mid-1990s, JWICS enabled the GDIP to support deployed 
forces with National Intelligence Support Teams equipped with 
deployable secure intelligence data bases and communication systems. 
The IC's Intelink system has enabled the United States to disseminate 
huge quantities of information to warfighters digitally. Finally, the 
Joint Intelligence Virtual Architecture is providing analysts with 
advanced tools, collaborative capabilities, and a robust supporting 
infrastructure.
    This decade-long transformation is something we in the GDIP are 
very proud of. We have cured many of the ills seen in Operation Desert 
Storm--uncoordinated HUMINT operations, multiple and conflicting orders 
of battle, and hardcopy intelligence products getting lost en route to 
the theater. We have written the joint doctrine to tie all our 
operations together and to institutionalize and inculcate this way of 
doing business.
    As I conclude my tenure as GDIP manager, I am confident that the 
superb men and women in the program will continue the transformation 
process. We must continue incorporating the latest commercial 
technology; developing advanced intelligence capabilities; adopting 
best business practices; and refining tactics, techniques, and 
procedures. The GDIP will continue to adapt to change, and, with 
continuing congressional support, will improve our military 
intelligence enterprise. I appreciate the support of the Congress in 
ensuring that our Nation's intelligence capabilities remain the best in 
the world.

                        open source intelligence
    3. Senator Warner. Director Tenet and Admiral Wilson, in recent 
years, information available to most people has increased dramatically, 
largely due to technologies such as computers, fiber optics, and the 
Internet, giving rise to the term, `` Information Age.'' Is such 
readily available information a viable source of intelligence?
    Mr. Tenet. Yes-openly available information has always been a key 
element in intelligence analysis, and in intelligence operations as 
well. Many years ago, Allen Dulles noted that a large percentage of 
peacetime intelligence could be collected overtly. That basic judgment 
held firm throughout the Cold War and remains valid today. Surveys of 
intelligence sources consistently rank openly available information 
near the top in terms of utility and impact.
    There is every prospect that openly available information will not 
only remain a viable source of intelligence, but will grow in 
importance. Today, material taken from the Internet makes up just over 
a third of CIA's open source reporting. This material is taken from 
media sources that have migrated to the Web and from unique sources 
that are present only on the Web. Measured in words, this Internet-
based reporting has increased almost twenty-fold since 1996.
    Even with this growth, many repositories of information that can 
help inform policy decisions are relatively untapped. There is much 
material available in local TV and radio broadcasts, the press and the 
``deep'' Internet that can help us understand the messages that are 
sent and received in countries around the world.
    The opportunities to extract intelligence from the richness and 
variety of such sources are unprecedented and ensure that openly 
available information will remain central to a comprehensive national 
intelligence effort.
    Admiral Wilson. Yes, open source information is a viable source of 
intelligence. As such, establishing analyst access to open sources is 
an area of DIA emphasis; however, open source information presents a 
very different challenge to the analyst. Rather than receiving a 
selective, credible information flow, as in the traditional 
intelligence disciplines (i.e., signals intelligence, HUMINT, imagery 
intelligence, measurement and signature intelligence), open sources 
present the analyst with a torrent of unevaluated data, much of which 
arrives--and remain--untranslated. Thus, open source access must be 
accompanied by advanced analytic tools that give the analyst the 
ability to process and make sense of the voluminous data stream. 
Analysts also need the capability to identify and procure access to 
online information brokers, commercial data bases, and specialty 
presses (e.g., for scientific or medical issues).
     [Deleted.]

    4. Senator Warner. Director Tenet and Admiral Wilson, what efforts 
are you making in your respective organizations to evaluate, analyze, 
and use open source information?
    Mr. Tenet. Open source information is part of the foundation of 
intelligence analysis and operations. Every good analyst working 
through an intelligence problem will look first to use open sources as 
a basis for analytical thought. And every successful operations officer 
or technical collection officer will draw on open sources as part of 
the detailed planning that determines success. Evaluation, analysis, 
and use of open sources have always been part of the everyday work of 
intelligence and remain ingrained in standard practice.
    As we look ahead, the greatest challenge to using open sources lies 
in the sheer volume of information that is available. For example, the 
rate of growth on the Internet is staggering and the number of Web 
pages available on any given day cannot be counted with confidence. 
This poses problems, but it also poses extraordinary opportunities.
    We face three problems as we seek to draw advantage from such 
opportunities. The first centers on selection, that is, what material 
to choose from the seemingly limitless array of sources and data that 
we can now acquire with relative ease. The second is how to make that 
material meaningful for analysts and  policy makers. The third is how 
to process the totality of information to derive insights that cannot 
be gleaned from individual items. We must be able to see trends and 
patterns across a wide range of sources if we are to provide useful 
insights and detect associations that will give the U.S. an advantage 
in addressing high priority targets like terrorist networks.
    We have work underway that holds significant promise with respect 
to these problems. We are working with the private sector to devise 
methods to extract value and insights from vast quantities of 
information, and we are increasing our ability to deal with data in 
bulk. Information technology, including powerful data search and mining 
technology and the ability to deal with languages in the vernacular, 
plays a critical role in the solutions and approaches we are pursuing. 
The aim is to equip analysts with tools that will enable insights and 
free time for analysis. Our goal is not to increase the quantity of 
products we disseminate--rather it is to increase the quality and 
relevance of those products.
    Admiral Wilson. Within the GDIP we have several ongoing open source 
efforts. GDIP open source intelligence funding, $1.7 million in fiscal 
year 2002, provides for acquisition, digitization and translation, and 
data base population of foreign scientific and technical materials in 
support of the Defense Intelligence Information Sciences Program. We 
are engaged in focused research partnerships with the private sector 
and academia for knowledge base and data base population, including the 
Assistant Director of Central Intelligence (Analysis and Production) 
Global Coverage effort. We also participate in the Open Source Steering 
Committee, an IC effort led by the Assistant Director of Central 
Intelligence (Collection) to optimize our data acquisition and 
dissemination efforts. DIA analysts use regional and functional program 
funds to satisfy their specialized open source information needs. We 
also are working to provide Internet to the desktop for DIA analysts.

                         intelligence training
    5. Senator Warner. Director Tenet and Admiral Wilson, I often hear 
that our analytical workforce is aging rapidly and will soon begin 
retiring in record numbers. Clearly, trained, experienced intelligence 
analysts are essential to producing quality intelligence products. What 
efforts are you making and what additional efforts are required to 
ensure we have a robust analytical workforce into the future?
    Mr. Tenet. [Deleted.]
    Admiral Wilson. Our agency is experiencing a phenomenon that is 
common across the federal government work force. A significant 
percentage of our work force will be eligible for retirement within 5 
years. That percentage grows when you look out over 10 years. We have 
anticipated this for some time and have been aggressive in our 
succession planning.
    DIA's Directorate for Analysis and Production (DI) has the lead in 
ensuring that we maintain our world-class analytic work force. DI 
developed a comprehensive projection of future skills requirements for 
key functional areas (i.e., counter-narcotics analysis, counter-
proliferation, military capabilities, science and technology, and 
information technology). Also, DI identified the key positions we need 
to fill in coming years, as well as the education requirements for 
those positions--particularly specialized experience or skills, such as 
foreign language skills and military experience, that will help DIA 
ensure a highly qualified analytical work force.
    DI cooperates closely with DIA's Office of Human Resources in 
recruiting the analytical work force. DI has a cadre of managers who 
are trained to participate in recruitment events and are active in 
making on-the-spot job offers to highly qualified candidates. DI's 
managers also participate in DIA's Corporate Selection Board (CSB), a 
process we established to ensure that more DIA managers have access to 
candidates identified during recruitment events.
    In 2001, DI and the Joint Military Intelligence Training Center 
(JMITC) worked together to create a midlevel intelligence analytic 
curriculum. Although entry-level analytic training and development 
opportunities are adequate, there are few opportunities for mid- and 
senior-level intelligence analysts. We have provided GDIP with 
production resources to identify shortfalls, as well as new and 
expanding mission areas that require additional focus. We will field at 
least two mid-level analytic development courses per year over the 
coming years to begin to address these shortfalls.
    Other Defense Intelligence Production Council (DIPC) members also 
expressed their interest in these analytic development courses that 
will be a combination of classroom training, online learning via the 
Joint Intelligence Virtual University (JIVU), and practical exercises 
based on course and training objectives. The curriculum will help to 
ensure that students will achieve the requisite analytic knowledge and 
skills.
    Also, DI's Analytic Development Office works with the Central 
Intelligence Agency's Sherman Kent School to provide additional 
training and development opportunities as part of the DIA/DI and CIA/DI 
partnership to ensure that IC intelligence analysts work together to 
address key intelligence issues. They co-instruct a joint 3-week course 
on military analysis that analysts have rated as very successful. In 
addition, the Analytic Development Office provides opportunities for 
intelligence analysts from CIA, the National Imagery and Mapping Agency 
(NIMA), the military service centers, and the unified commands' joint 
intelligence centers (JIC) to participate in Analytic Development 
Office-sponsored courses.

                           iraqi air defenses
    6. Senator Warner. Admiral Wilson, in over 10 years of combat air 
patrols over northern and southern Iraq, not a single manned aircraft 
has been lost over hostile territory--a remarkable achievement. 
Recently, however, several unmanned aircraft have reportedly been shot 
down by the Iraqis. What is your assessment of current Iraqi air 
defense capabilities? Are U.S. and coalition-manned aircraft at 
increasing risk?
    Admiral Wilson. [Deleted.]

    7. Senator Warner. Admiral Wilson, how have the Iraqis been able to 
reconstitute their air defense system in spite of the U.N. arms 
embargo?
    Admiral Wilson. [Deleted.]

                              north korea
    8. Senator Warner. Director Tenet and Admiral Wilson, I have heard 
reports that starvation is still widespread in North Korea, and that 
the North Korean leader continues his practice of diverting scarce 
resources to the military and his political supporters. Can you update 
us on this situation and on the primary causes for this tragedy?
    Mr. Tenet. Domestic grain production appears to have averaged about 
3 million tons over the past several years, about 1.8 million tons 
short of what the country would need to maintain the bare minimum of 
nutritional standards for the population and stave off famine. The 
international community has made up most of the deficit since the 
country's food crisis began in 1997. Even with international aid, 
however, North Korea's population must contend with malnutrition and 
hunger.
    We assess that those most at risk of starving are people located in 
regions farthest geographically from the capital city of P'yongyang. 
These regions are farthest from the central distribution centers, and 
the North Korean leadership prohibits access to most of these areas by 
foreigners. The World Food Program is feeding 6.4 million people in 
North Korea this year--about 29 percent of an overall population of 
approximately 22 million--and has defined the most vulnerable 
population groups  as children under the age of five, the elderly, and 
pregnant and lactating women.
    Geographic and climatic factors, including drought and flood damage 
and lack of arable land, are partly responsible for the food shortage, 
but the main reason is the country's political and economic system. 
Government policies that reduce individual incentive and support the 
collectivization of farms and price controls constrain agricultural 
production, and the economy is not able to produce or import 
agricultural inputs such as fertilizer, quality seed, fuel, and 
machinery.
    The North Korean leadership continues to divert scarce resources, 
including food, to the military and political supporters as a means to 
ensure continuing support for the regime. The North Korean media 
continues to expound the regime's ``military first'' policy as its 
national philosophy, suggesting that the leadership uses external 
threats to justify allocating scarce resources to the military at the 
expense of the general public's welfare.
    Admiral Wilson. [Deleted.]

    9. Senator Warner. Director Tenet and Admiral Wilson, what percent 
of the fuel and food shipments delivered to North Korea by the 
international community actually makes it to the North Korean people?
    Mr. Tenet. We do not know what percentage of fuel and food 
shipments delivered to North Korea by the international community makes 
it to the North Korean people. P'yongyang has imposed constraints on 
World Food Program (WFP) monitors--who do not have random access at all 
stages of the food distribution process--making it difficult to verify 
whether food has reached the target beneficiaries in the proper 
amounts.
    To a large extent, grain is a fungible resource, making it 
difficult to distinguish whether diverted grain is from domestic or 
international sources. Given the tightness of total food supplies--aid, 
imports, and domestic production--North Korea at times may make 
distribution decisions based on transportation resources or local needs 
rather than on supplier-based instructions.
    WFP officials acknowledge that their ability to monitor food 
distribution in North Korea is restricted and falls short of its 
monitoring efforts for other WFP programs.

        <bullet> The WFP has access to only 168 out of 211 counties in 
        the country and, in the majority of cases, must submit a 
        request to visit a distribution site at least 48 hours in 
        advance.
        <bullet> The North Korean government controls the tracking 
        system, restrains food aid monitors from conducting spot 
        checks, does not provide food-use reports, and resists follow-
        up nutritional surveys. 

    Admiral Wilson. I defer to CIA for an authoritative answer on this 
issue.

                            nato enlargement
    10. Senator Warner. Admiral Wilson, there are currently nine 
nations aspiring to join NATO. If all are invited to join, NATO would 
become an organization of 28 members, all of whom would have Article 5 
guarantees. What, if any, specific military contributions do each of 
the nine aspirant nations have to offer NATO?
    Admiral Wilson. [Deleted.]

                       un sanctions against iraq
    11. Senator Warner. Director Tenet, Iraq has been the subject of 
comprehensive economic and military sanctions on the part of the United 
Nations since the end of the Gulf War in 1991. Limited oil sales to 
purchase food and medicine are allowed, but more extensive economic 
activity and purchase of military equipment is severely limited. In 
your view, what has been the impact of U.N.-approved sanctions on Iraq? 
What would happen if these sanctions were removed?
    Mr. Tenet. U.N. sanctions have prevented Iraq from acquiring major 
weapons systems and have limited its ability to maintain existing 
systems. Iraq has been able to import military spare parts and other 
items with military applications, but financial and logistical 
constraints limit even these acquisitions.
    Saddam Hussein's refusal to comply with U.N. resolutions on 
disarmament has prolonged the economic sanctions crippling Iraq's 
infrastructure and economy.

        <bullet> Malnutrition rates remain high in part because most 
        Iraqis cannot afford to supplement government-supplied rations 
        to ensure a balanced diet.
        <bullet> Although residents of Baghdad now have fairly reliable 
        electricity service, rural areas do without electricity for up 
        to 18 hours daily.
        <bullet> One third of the population-mostly in rural areas-do 
        not have access to water services. The lack of clean water and 
        sanitation services has resulted in high levels of water-borne 
        disease.

    Nevertheless, lifting economic sanctions would have little--impact 
on Iraq's military or economic situation in the short term. U.N. 
military sanctions would remain in effect, preventing the acquisition 
of major weapons systems.

        <bullet> Iraq could boost purchases of more easily smuggled 
        items such as spare parts, or dual-use items because the regime 
        would have control over its oil reserve.

    After sanctions, financial constraints would test the regime's 
willingness and ability to balance an increase in military spending 
with rising public expectations of improved living standards. 

        <bullet> At least 50 percent of Iraq's oil export earnings in a 
        post-sanctions environment will go to pay Gulf War claims, debt 
        service and oil production costs.
        <bullet> Rehabilitating the economic infrastructure will 
        require years of intense capital investment. Estimates of the 
        total cost range between $35 and $100 billion.

    12. Senator Warner. Director Tenet, how has Saddam Hussein been 
able to circumvent U.N. sanctions and continue to work on acquiring 
weapons of mass destruction and advanced missile technologies?
    Mr. Tenet. Saddam Hussein has taken advantage of lax enforcement at 
his borders to import items to support his WMD and missile programs, 
although financial and logistical constraints have slowed Iraq's 
development of these weapons.

        <bullet> U.N. monitors are not authorized to inspect non-U.N. 
        cargo at approved entry points. No inspectors are present at 
        Iraq's illicit entry points.
        <bullet> In addition, airplanes, trains, and ferries regularly 
        arrive in Baghdad from neighboring states without inspection at 
        departure or arrival.
        <bullet> Oil-for-food goods, such as trucks and construction 
        materials, are diverted to military and weapons development 
        projects.

                            india--pakistan
    13. Senator Warner. Director Tenet, the cooperation of Pakistan has 
been critical to successful U.S. military operations in Afghanistan. 
Simultaneously, Pakistan has experienced very tense relations with 
India, forcing Pakistan to divert the attention of its intelligence and 
military capabilities to the Indian frontier. In your view, how serious 
is the current situation between India and Pakistan?
    Mr. Tenet. Both India and Pakistan have undertaken the largest 
military mobilizations in their history. India has postponed--but not 
ruled out--military action against Pakistan for now and is looking to 
Jammu and Kashmir state assembly elections, expected by October, as a 
litmus test of Pakistan's commitment to rein in the militancy. Violent 
disruptions by Pakistan in the elections will be seen by India as a 
provocation. New Delhi has made it clear that it is not satisfied with 
President Musharraf's declared crackdown on terrorism and continues to 
demand a demonstrable cessation of militant infiltration and 
dismantling of camps and support infrastructure in Pakistani Kashmir. 
President Musharraf, however, asserts he has done enough and that India 
must make the next move.
    There has been no serious bilateral dialogue aimed at reducing 
tensions.
    As long as military forces remain deployed in large numbers along 
the border, war could erupt quickly through either a calculated strike 
or miscalculation.

    14. Senator Warner. Director Tenet, what is your assessment of the 
ability of both India and Pakistan to maintain effective control over 
their respective nuclear forces?
    Mr. Tenet. [Deleted.]

                        chinese defense spending
    15. Senator Warner. Admiral Wilson, recent reporting indicates that 
China will significantly increase defense spending next year by over 17 
percent. This is on top of an almost 18 percent increase in spending 
this year. Does this increase represent a significant military buildup 
on the part of the Chinese?
    Admiral Wilson. [Deleted.]

    16. Senator Warner. Admiral Wilson, in what areas and capabilities 
do you anticipate the Chinese will invest these resources?
    Admiral Wilson. [Deleted.]

                     nato expansion--russian views
    17. Senator Warner. Director Tenet, this fall, NATO will consider 
inviting nine additional nations to join the Alliance, including the 
three Baltic nations that were previously an integral part of the 
Soviet Union--Estonia, Latvia, and Lithuania. What is the view of the 
Russian government and Russian military with regard to this proposed 
expansion of NATO?
    Mr. Tenet. Opposition to Baltic membership in NATO is one of the 
few foreign policy issues on which there is consensus within Russia. 
Indeed, officials ranging from President Putin on down have steadfastly 
maintained that enlarging the Alliance to include the Baltic States 
would merely increase tension--rather than promote security--on the 
European continent.
    Since 11 September, Moscow has refined that argument to assert 
that, because international terrorism is the major challenge facing 
nations today, enlarging NATO is a pointless exercise that will not 
make the European public safer.
    That said, Moscow is not employing the threatening rhetoric on this 
issue that marked its stance during the first round of NATO 
enlargement. In fact, Putin has indicated publicly that Moscow will not 
get ``hysterical'' over NATO enlargement to the Baltic States, but 
remains concerned about the implications for Russian security.

    18. Senator Warner. Director Tenet, in your view, how will Russia 
react if, in fact, former Soviet republics are invited to join NATO?
    Mr. Tenet. Putin, unlike some of his conservative critics, has 
refrained from issuing threats regarding Baltic membership in NATO. He 
has apparently chosen to offer positive incentives to the West in 
return for consideration of Moscow's interests. Putin probably 
calculated months ago that there was little Moscow could do to prevent 
an invitation to the Baltic states--the question then became what 
benefits he might obtain to soften the blow.
    Russia appears to be satisfied with the recent U.S.-Russia Summit 
and the subsequent launching of the NATO-Russia Council in late May. 
These developments have been key to muting Russian reaction to the 
upcoming round of NATO enlargement.
    Some Russians seem to have concluded that enlargement of the 
Alliance will inevitably turn NATO into a more political organization 
and a less effective military structure.
    At the same time some political and military leaders perceive, no 
matter how illogically, the presence of NATO member states near 
Russia's population and industrial heartland as a security threat
    While Russia has resigned itself to the inevitability of further 
enlargement, it is still working actively to mitigate its impact on a 
military already strained by the burdens of the Chechen campaign and 
struggling with the process of military reform.
    The Russians are striving to incorporate the Baltic States into 
conventional arms control regimes and seek to negotiate limits to 
NATO's freedom of action on the new members' territory. To reassure a 
skittish Russian public and skeptical armed forces that the military 
impact of Baltic membership in NATO will be kept at a minimum, Moscow 
has been actively pushing for the Baltic states to declare their 
intention prior to the Prague Summit to accede to the Adapted CFE 
treaty--and its restrictions on deployed forces.

              operation enduring freedom--lessons learned
    19. Senator Warner. Director Tenet and Admiral Wilson, both 
publicly and privately, intelligence and defense officials have lauded 
the level of cooperation between national level intelligence 
capabilities and military commanders in the area of operations. In your 
view, what has enabled this improved level of cooperation?
    Mr. Tenet. [Deleted.]
    Admiral Wilson. A great portion of the described success is due to 
the federated approach we use in everything we do. Through forums such 
as the Military Intelligence Board, the DOD Intelligence Information 
System's Management Board, and the Defense Intelligence Production 
Council, I work with the senior defense intelligence leadership of the 
other DOD intelligence agencies, the service intelligence components, 
and the unified command J2s to develop and implement coordinated joint 
strategies to support our defense intelligence customers. Collectively, 
we have built a federated analytic structure and an interoperable 
environment to provide critical, actionable intelligence to wherever 
the need exists with sharper focus and better timeliness than was 
possible a decade ago. This has improved greatly our capability across 
all echelons--national-level, theater, local commander--to support 
military operations.
    [Deleted.]
    Robust electronic connectivity with CENTCOM, via the Joint 
Worldwide Intelligence Communication System (JWICS), enables close and 
timely collaboration between national-level intelligence agencies and 
theater elements. We have made extensive use of secure video 
teleconference capabilities to conduct regular intelligence sessions 
between Washington and theater-level personnel, allowing enhanced 
analysis, planning, and problem solving. The deployment of National 
Intelligence Support Teams (NIST) to the CENTCOM area of responsibility 
(AOR) in particular provides a critical link between theater- and 
national-level nodes.
    [Deleted.]
    These accomplishments are evidence that we are meeting our 
transformational goals as well as those of the Secretary of Defense and 
the Director of Central Intelligence.

    20. Senator Warner. Director Tenet, what lessons have you learned 
during recent operations? How have procedures improved as a result?
    Mr. Tenet. The cooperation between military and intelligence 
officials is key and has been addressed in some detail in question 19.

                  intelligence and information sharing
    21. Senator Warner. Director Tenet, reportedly, one lesson learned 
during and after September 11 is that it is very difficult to share 
sensitive information with local and regional governments, including 
governors of our states and law enforcement agencies, even though these 
entities bear significant responsibility in detecting and initially 
responding to threats to our homeland. What are your recommendations to 
improve the ability of the U.S. Government to share important 
information with local, State, and regional officials who have 
significant detection and/or first response duties?
    Mr. Tenet. The Intelligence Community has been and will continue to 
be committed to getting critical information into the hands of those 
who need to prevent, deter and plan for consequences of terrorist 
attacks. We have learned, however, that we face two challenges in 
getting information into actionable form for use by local and regional 
actors:

          (1) when sending classified information to State and local 
        officials, we must find the proper balance between the 
        transparency legislated by state sunshine laws and the needs 
        for secrecy mandated by federal legislation; and
          (2) when sending information to law enforcement officials for 
        use in investigations or plans for prosecution, we must find 
        ways to deal with the ``alignment'' issue that forces airing of 
        intelligence sources and methods in open courtrooms.

    We are working with Governor Ridge's Office of Homeland Security to 
develop solutions to the former issue, and my Law Enforcement Working 
Group is developing solutions to the latter. We are still actively 
developing these solutions; our current thinking, outlined below, is to 
address the issues by declassifying as much information as possible. 
For the information that cannot be declassified, we are endeavoring to 
find solutions that will not require new legislation or statutory 
changes.
    In general, we currently plan to address state sunshine laws by 
attempting to divide as much of our classified information (NSI--
National Security Information) as possible into unclassified pieces 
that will meet the needs of State and local actors but will not reveal 
our sensitive sources and methods. The remaining information, that 
which cannot be stripped of sensitive sources and methods identifiers, 
will be disseminated in classified NSI channels. Governor Ridge and OMB 
are working with a coalition of Federal agencies to develop a 
Presidential directive that mandates establishment of a process by 
which State and local actors will protect, store, and further 
disseminate the unclassified information (which will likely be called 
Sensitive Homeland Security Information--SHSI). We are working closely 
with Governor Ridge's office to devise training programs on proper 
storage, use and dissemination of NSI and SHSI for new recipients of 
these types of information. Governor Ridge's coalition of federal 
agencies has agreed to resolve the sunshine laws, impact on both 
classified information and federal information protection programs 
during the implementation phase of the Presidential Directive. At 
present, the coalition is concerned about recommending legislation that 
limits state sunshine law's impact on federal information protection 
systems because of concerns over states' rights issues.
    For the law enforcement piece, our primary solution to get the 
information in actionable format is to downgrade our classified 
information by stripping data of facts that identify sources and 
methods. For information that cannot be declassified, the Law 
Enforcement Working Group is attempting to identify ways to more widely 
distribute to law enforcement officers intelligence information as `` 
lead information.'' Law enforcement officers would then use this `` 
lead information'' to develop independent sources of information that 
would then become the basis of prosecution and investigation. At 
present, the Law Enforcement Working Group is concerned about 
recommending new legislation to expand abilities to prosecute on the 
basis of intelligence information without discovery due to concerns 
over  defendants' judicial rights.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                          russia and al qaeda
    22. Senator Thurmond. Director Tenet, over the past months the 
newspapers have reported that Russian criminal elements have worked 
with al Qaeda and may have sold plans for weapons of mass destruction 
and laundered money. What can you tell the committee about the 
relationship between al Qaeda and the Russian criminal elements? Is 
there any evidence of Russian technology being sold to terrorist 
organizations?
    Mr. Tenet. [Deleted.]

                       iran's role in afghanistan
    23. Senator Thurmond. Director Tenet, although Iran has had a long 
relationship with Afghanistan and harbored many resistance groups 
during the Taliban rule, there are now reports that the Iranians are 
undermining the Afghan interim government. The Washington Times 
recently reported that U.S. intelligence agencies have spotted scores 
of Iranian intelligence and military personnel inside Afghanistan 
working to destabilize the interim government. What is Iran's role in 
Afghanistan and what is its goal regarding the future of Afghanistan?
    Mr. Tenet. We assess that Iran seeks the establishment of a stable, 
broad-based government in Afghanistan that is friendly to Iran, 
incorporates the Afghan Shia minority, and does not provide a base for 
drug traffickers or Sunni militants. Tehran remains concerned, however, 
about the U.S. presence in Afghanistan because of a perception that 
Washington seeks to encircle Iran and destroy the Islamic Republic.
    Tehran has pursued its goals by simultaneously seeking to bolster 
the Afghan Interim Authority and to maximize Tehran's influence in 
Afghanistan. Iran's efforts to gain influence are intended to counter 
the U.S. presence in Afghanistan and are also likely a hedge against 
the possibility that the Interim Authority will collapse.
    Iran is contributing to Afghan reconstruction efforts, but  has 
also deployed military and intelligence personnel to Afghanistan as 
part of its efforts to gain influence.
    It is possible that the activities of these forces--for example 
attempting to curry favor with individual warlords by providing money 
or weapons--will backfire and undermine the Interim Authority.

                          narcotic trafficking
    24. Senator Thurmond. Director Tenet, the tragic events of 
September 11 and the subsequent war against terrorism have taken the 
spotlight in the news. We have all but forgotten the war against drugs 
and the insurgency in Colombia. What impact has the war in Afghanistan 
had on the war on drugs? Have the narcotics traffickers taken advantage 
of our preoccupation with Afghanistan?
    Mr. Tenet. There has been no dramatic shift in the flow of drugs 
from supply countries through the transit zones--due in part to higher 
levels of vigilance among security forces in many countries--and 
interdiction activities against the drug trade are now at relatively 
normal levels.

                             south america
    25. Senator Thurmond. Director Tenet, both Argentina and Venezuela 
are facing severe economic crises. Are there any indications that 
leftist groups will take advantage of the fiscal and political crises 
in these countries to launch a resurgence of the various guerilla 
movements?
    Mr. Tenet. Various small and poorly organized radical groups have 
tried to capitalize on Argentina's current economic and political 
crisis to mobilize support for renewed anti-government violence. These 
groups have attempted to incite violence during peaceful demonstrations 
by labor groups, the unemployed, pensioners, and Argentines with frozen 
bank deposits.
    A few protests in 2002 turned violent--two protesters were killed 
in a clash with security forces in Buenos Aires in June--but the vast 
majority remained peaceful.
    President Chavez in Venezuela--in the face of mounting opposition 
to his policies--has relied heavily on an informal network of 
supporters called ``Bolivarian Circles'' to defend his revolution.
    Press reports indicate between 50,000 and 450,000 activists are 
associated with the Circles, and a growing number of them appear to be 
armed. This group has been widely blamed in local media for initiating 
the gunfire on 11 April that left 17 dead  and led to Chavez's brief 
ouster.

                            mideast turmoil
    26. Senator Thurmond. Director Tenet, the Palestinian-Israeli 
conflict is escalating on a daily basis. What is your assessment of 
Yasser Arafat's control over the Palestinian radicals? What is your 
assessment regarding the potential that this conflict could escalate 
and involve other nations in the region?
    Mr. Tenet. [Deleted.]

                                 kosovo
    27. Senator Thurmond. Director Tenet, Lord Robertson, the NATO 
Secretary General, recently stated that: ``One of the main priorities 
of the international community is to reestablish the rule of law as the 
cornerstone of a democratic society in Kosovo.'' What is your 
assessment of the situation in Kosovo? Is NATO accomplishing its 
mission and how much longer will we have to maintain forces in that 
region?
    Mr. Tenet. The situation in Kosovo has improved considerably since 
the end of the fighting in the summer of 1999, but there is still much 
important work to be done there.

        <bullet> The new democratic government in Belgrade accepts the 
        legitimacy of the international presence in Kosovo and 
        cooperates with the U.N. Interim Mission in Kosovo (UNMIK) and 
        NATO's Kosovo Force (KFOR).
        <bullet> After a surge in violence immediately after the end of 
        the fighting, mainly involving revenge killings, the level of 
        civilian casualties has dropped dramatically.
        <bullet> Virtually all of the ethnic Albanian refugees who want 
        to return have done so, but most of the ethnic Serbs, who 
        remain concerned for their safety, have not.

    The main challenge now is to build up locally-based governmental 
structures that can take over some of the UNMIK's functions and make it 
possible for the international presence to be sharply reduced over 
time. A provisional government, based on the results of last November's 
elections, has been in place since March and has been organizing 
itself.

        <bullet> One of the greatest challenges will be to deal with 
        the continuing high level of crime in Kosovo. Work has only 
        just begun on organizing autonomous courts and police.
        <bullet> Another challenge is to create a viable economy that 
        is not dependent on international aid. Current unemployment in 
        Kosovo, for example, is over 40 percent. But it is proving 
        difficult to privatize state-owned industries and attract 
        investment as long as the final status of Kosovo is uncertain.
        <bullet> The greatest challenge is creating a stable multi-
        ethnic society, which is the most important prerequisite for 
        resolving Kosovo's final status. There has been little 
        meaningful progress on this front.

    Given the magnitude of the problems that remain, it is difficult to 
project an exact date when U.N. Security Council Resolution 1244's 
goals of a secure environment and self-government will be accomplished, 
but I believe significant international involvement will be necessary 
for several more years.

                           arms proliferation
    28. Senator Thurmond. Admiral Wilson, President Bush has identified 
Iraq, Iran, and North Korea as the primary nations responsible for the 
proliferation of weapons of mass destruction and missile technology. 
Although it is widely recognized that North Korea is selling 
technology, Iran's role is not as widely publicized; in fact, many 
believe that Iran's moderate government has taken steps to change its 
image as a supporter of terrorist organizations and an arms salesman. 
What can you provide in open sessions on Iran's role both as a 
supporter of terrorist organizations and in the proliferation of 
weapons technology?
    Admiral Wilson. Iran is the world's most active state sponsor of 
terrorism. Tehran is most aggressive in its support of Palestinian 
terrorist groups, including extremists in the Palestinian Authority. 
This was demonstrated most visibly by Israel's seizure of the cargo 
ship Karine-A and its cache of weapons packaged in sophisticated 
containers designed for underwater smuggling. Iran also provides open 
support to Lebanese Hizballah, whose terrorist element was responsible 
for the most U.S. lives lost to terrorism (including 241 people killed 
in the bombing of the U.S. Marines barracks in Beirut, Lebanon, in 
October 1983) until al Qaeda's September 11, 2001 hijackings.
    Iranian support for terrorism has been clearly detected on several 
occasions throughout the 1990s. Iran supported Saudi Hizballah, the 
group responsible for killing 19 Americans in the June 1996 bombing of 
Khobar Towers in Saudi Arabia. Iranian officials directed and received 
surveillance reports for the operation, according to the U.S. 
indictment of the Khobar suspects. Iranian military officers also 
prepared to destabilize the government of Bahrain, as demonstrated by 
Manama's disruption of an Iranian surrogate group in 1996. Iranian 
military officers also staffed a terrorist training facility in 
Fojnica, Bosnia, that was disrupted in March 1996. The facility was 
used to train Bosnian citizens in assassination techniques and special 
operations tactics.
    Iran's goal is to become self-reliant in the production of military 
hardware, including nuclear/biological/chemical (NBC) weapons and 
missiles. With Iran's progress in recent years, particularly in 
chemical warfare and ballistic missiles, the potential has increased 
that it will export these weapons, the related technology, or the 
expertise to other countries of proliferation concern, such as Libya or 
Syria. Iran probably will also attempt to export medium-range and 
short-range ballistic missiles to countries of concern once development 
of their missile programs is complete.

                       state of russia's military
    29. Senator Thurmond. Admiral Wilson, in previous years both you 
and Director Tenet testified on the readiness and conditions within 
Russia's military. Despite President Putin's promises to improve 
Russia's defense budget, there are reports of electricity being turned 
off at military installations due to overdue bills. My concern is that, 
as pressure builds on Russian commanders to pay bills and provide for 
their men, there may be the temptation to sell technology for revenue. 
What is the DIA's analysis of conditions in Russia's military and the 
potential that some commander may sell weapons technology to terrorist 
groups?
    Admiral Wilson. Conditions for Russia's military have improved 
modestly in the past years; however, some Russian military commanders 
and individual service members probably will continue to sell small 
arms and some military equipment to civilians, some of whom could be 
terrorists.
    Russia's armed forces continue to deal with the legacy of 
downsizing and underfunding. The military is dealing with the funding 
problem by delaying the purchase of new systems, extending the life of 
existing weapon systems, and selectively cannibalizing stored and 
reserve equipment. Manpower and morale problems persist, but military 
personnel appear to be receiving most pay and allowances on a more 
regular basis, an improvement over the late 1990s, when many troops 
went months without any pay.
    There have been several credible reports of power cuts to military 
units, even strategic nuclear missile bases, throughout the country. 
Some have been deliberate cutoffs by local power companies engaged in 
billing disputes with the military. Others have been inadvertent 
cutoffs because of power cables or lines being stolen by local 
civilians to sell as scrap metal.
    [Deleted.]

                        chinese submarine threat
    30. Senator Thurmond. Admiral Wilson, although Russia still has a 
formidable submarine force, the lack of funds has severely curtailed 
its operations. I understand that China is in the process of building 
up its submarine force, although it will be primarily focused on 
coastal defense. How does the Defense Intelligence Agency rate the 
Chinese submarine threat? What threat does the Chinese submarine force 
pose to our operations in the waters around Taiwan and Korea?
    Admiral Wilson. [Deleted.]

                             nato expansion
    31. Senator Thurmond. Admiral Wilson, in 1999, Poland, Hungary, and 
the Czech Republic joined NATO as full partners of the organization. As 
a condition for membership, they had to make certain commitments to 
upgrade their armed forces. What progress are these nations making in 
the modernization of their armed forces and integrating their 
capabilities into the NATO military structure?
    Admiral Wilson. [Deleted.]
                                 ______
                                 
               Questions Submitted by Senator John McCain
                    saudi arabia/terrorist financing
    32. Senator McCain. Director Tenet, I agree with your statement 
that, `` The problems that the terrorists exploit--poverty, alienation, 
and ethnic tensions--will grow more acute over the next decade. This 
will especially be the case in those parts of the world that have 
served as the most fertile recruiting grounds for Islamic extremist 
groups.'' Of course, we know that the most fertile terrorist recruiting 
ground is Saudi Arabia, 15 of whose countrymen brought down the World 
Trade towers. We know that Saudi citizens are a major source of 
terrorist financing that makes al Qaeda's worldwide operations 
possible. One senior Saudi official who visited me 2 months after the 
terrorist attacks told me a Saudi government investigation of terrorist 
financing from individuals and so-called Islamic ``charities'' in his 
country had not revealed any links whatsoever between Saudi Arabian 
citizens and al Qaeda.
    Many of us believe Saudi Arabia is part of the problem of global 
terrorism. We need them to be part of the solution. Do you believe the 
Saudi Arabian government is an ally in the war on terror? How would you 
rate their cooperation with us on disrupting networks of terrorist 
financing emanating from their country?
    Mr. Tenet. Since 11 September, the Saudi Arabian Government has 
reaffirmed its commitment to combat terrorism and responded positively 
to various requests for concrete action to support the global coalition 
against al Qaeda and the Taliban. The King, Crown Prince, Minister of 
Defense, Minister of Interior, Minister of Information, senior 
religious leaders, and official news media publicly and consistently 
condemned terrorism in unequivocal terms, to include refuting 
ideological and religious justifications for terrorism. We are working 
with the Saudis to enhance and expand the level of cooperation that 
currently exists.
    Saudi cooperation with the U.S. on terrorist finance has been 
unprecedented, although we remain concerned about the problem of 
financial support for terrorism from sources in Saudi Arabia and other 
countries. Riyadh is tightening regulation of nongovernmental 
organizations (NGOs) that have links to terrorists. In March, the Saudi 
Government cracked down on two foreign branches of Al-Haramayn Islamic 
Foundation and directed that NGOs inform the Ministry of Foreign 
Affairs in advance of overseas projects to ensure the money is not 
going to terrorists.

                         tora bora/intelligence
    33. Senator McCain. Director Tenet, the Christian Science Monitor 
reports that bin Laden himself was present at Tora Bora during the U.S. 
assault. That newspaper also reports that bin Laden's deputy, Ayman al-
Zawahiri, may have been present in the caves of Shah-i-Kot just before 
the recent U.S. attack there. Do you agree with these assessments, and 
if so, would you attribute the escape of these senior leaders, possibly 
including Osama bin Laden himself, to an intelligence failure?
    Mr. Tenet. There is a wide variety of reporting suggesting that 
Osama bin Laden and several of his subordinates, including Ayman al-
Zawahiri, were present at Tora Bora in December. Reporting on their 
status and whereabouts since then has been spotty, unreliable, and 
contradictory.
    Bin Laden and other senior al Qaeda leaders have extensive personal 
ties to some tribal leaders in eastern Afghanistan and the border 
regions of Pakistan. This, coupled with an intimate knowledge of the 
region's geography developed since the fighting with the Soviets in the 
1980s, makes it easier for the organizations leadership to avoid 
coalition efforts to capture or kill them.

                             iran/al qaeda
    34. Senator McCain. Director Tenet, advocates of rapprochement with 
Iran have pointed to Iran's role in allowing humanitarian overflights 
into Afghanistan and supporting the Afghan peace process. But it now 
seems clear that the Iranian regime assisted al Qaeda leaders in 
escaping from Afghanistan and provided some of them sanctuary in Iran. 
In your testimony, you note Tehran's failure to ``move decisively'' 
against al Qaeda members who have ``relocated'' to Iran from 
Afghanistan. Does the Iranian government not control its border with 
Afghanistan, or is there truth to the numerous published accounts that 
Iran actively aided and abetted the escape of senior al Qaeda leaders 
from Afghanistan, and provided them sanctuary? If so, how have we 
responded to this tacit alliance of the clerics' regime with the al 
Qaeda terrorists?
    Mr. Tenet. The long and rugged nature of Iran's border with 
Afghanistan makes sealing it virtually impossible. Iran's Law 
Enforcement Forces have attempted to screen those trying to enter Iran 
from Afghanistan, and we believe that they are turning back anyone 
suspected of involvement with the al Qaeda organization. However, other 
elements of the Iranian regime have provided assistance to al Qaeda 
members and associates.

                             iran/hezbollah
    35. Senator McCain. Director Tenet, if we are serious about 
fighting global terrorism, what have we done differently since 
September 11 to counter the supply chain of weapons and materiel from 
Tehran to Damascus and into Lebanon? In addition to its attacks across 
international borders against Israel, we know that Hezbollah has a 
presence in the United States and many European capitals, that 
Hezbollah terrorists are active in Latin America, and in Southeast 
Asia. Is Hezbollah a terrorist organization with global reach? If so, 
do you believe there is a way to carry out the President's policy of 
eliminating terrorism with global reach without going to the source of 
Hezbollah's support in Tehran?
    Mr. Tenet. [Deleted.]

                          iraq/terrorist links
    36. Senator McCain. Director Tenet, you say that `` Iraq has a long 
history of supporting terrorism, including giving sanctuary to Abu 
Nidal,'' that despite their ``divergent ideologies . . . tactical 
cooperation between them is possible,'' and that ``[Iraq] has also had 
contacts with al Qaeda.'' Other than the famous meeting in Prague 
between Mohammed Atta and an agent of Iraqi intelligence, what more can 
you tell the American people about Iraqi contacts with al Qaeda?
    Mr. Tenet. Over the past decade there have been many reports about 
Iraqi contact with al Qaeda beginning in the early 1990's when Osama 
bin Laden resided in Sudan. At the time, then-National Islamic Front 
(NIF) leader, Hassan al-Turabi, was promoting an ambitious pan-Islamic 
foreign policy and reportedly helped bin Laden develop contacts and 
relationships with a variety of states, including Iran and Iraq, as 
well as various Islamic groups. According to U.S. court documents from 
the Africa Embassy bombing trial, bin Laden reached an 
``understanding'' with Saddam in 1993 resulting in bin Laden trainers 
instructing his followers not to undertake actions against the Iraqi 
leader. We continue to investigate reports of these connections.

                           colombia/terrorism
    37. Senator McCain. Director Tenet, I understand that the 
administration continues to formulate a new strategy for U.S. policy 
towards Colombia. Can you share with us your views on how you believe 
we can best help the democratic government in Bogota to defeat the 
terrorist threat in our own hemisphere?
    Mr. Tenet. We defer to the policy community to respond to this 
question.

    38. Senator McCain. Director Tenet, can you also give us your views 
on the extent to which neighboring countries like Ecuador continue to 
be destabilized by drug trafficking and civil war in Colombia?
    Mr. Tenet. Colombia's neighbors have longstanding economic, 
political, and social challenges to stability that are independent of 
the strife in Colombia. Governments in the region are nonetheless 
concerned about spillover of Colombian violence and crime.

        <bullet> We have anecdotal press reports that members of the 
        Revolutionary Armed Forces of Colombia are spending money 
        lavishly in some border communities in an apparent attempt to 
        garner local support. At the same time, many leaders in the 
        region are wary of any expansion of a U.S. military role 
        because of longstanding fears of U.S. infringement on national 
        sovereignty.
        <bullet> Ecuador and Panama are the most affected by spillover 
        from Colombia, which is largely limited to the border regions. 
        These governments often complain to Washington about the 
        problem they face as a result of the Colombian violence.
        <bullet> Brazil and Peru are the least affected by spillover, 
        and their officials often play down the threat of Colombia's 
        problems spreading across their borders.
        <bullet> President Chavez in Venezuela criticizes the military 
        aspects of Plan Colombia counternarcotics program, and his 
        administration has been widely reported in the press to have 
        provided assistance and safehaven to insurgents.

                   proliferation/u.s. export controls
    39. Senator McCain. Director Tenet, I appreciate and share your 
concerns that proliferators ``are taking advantage of the dual-use 
nature of WMD- and missile-related technologies to establish advanced 
production capabilities and to conduct WMD- and missile-related 
research under the guise of legitimate commercial or scientific 
activity.'' We have a real problem in this country of dual-use exports 
falling into the wrong hands overseas. Do you have an opinion on 
whether our liberalized export controls feed into this problem of 
proliferation?
    Mr. Tenet. While the Intelligence Community plays a role in the 
U.S. export control process, we would generally defer to the policy 
community, particularly the Department of Commerce, on the level and 
effectiveness of U.S. export controls. However, we share with our 
policy colleagues the task of determining which dual-use technologies 
we should target to stem WMD and missile proliferation. This is 
particularly difficult and complex, because the broad globalization and 
diffusion of advanced technologies obviously contribute broadly to the 
base upon which foreign countries build their weapons capabilities.
    CIA supports the U.S. export control process in a variety of ways 
to slow or stem transfers of technology to rogue states and actors.

        <bullet> For those dual-use goods that are controlled because 
        of their potential to contribute to WMD and missile programs 
        and that, therefore, require a U.S. export license, CIA 
        provides information and analysis on the foreign end users to 
        help export control policy makers stop those exports that pose 
        proliferation and national security threats.
        <bullet> By tracking developing WMD and missile programs of 
        concern, we monitor the technology needs of those countries--
        including innovative uses of technologies that might not be 
        controlled. Policy makers and the U.S. law enforcement 
        community can use this information to protect U.S. technologies 
        with the tools they have available.
        <bullet> We also identify those advanced technologies critical 
        to the national security of the United States to inform 
        policymakers' decisions on appropriate controls.

                           cdr scott speicher
    40. Senator McCain. Admiral Wilson, recently there has been an 
flurry of press quoting new U.S. intelligence reports on the case of 
CDR Scott Speicher, the Naval aviator shot down over Iraq in January 
1991. According to many articles, new evidence has surfaced as to his 
fate. Would you please explain what in this situation has changed and 
what DIA is doing with regards to solving the mystery of CDR Speicher.
    Admiral Wilson. [Deleted.]
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                         space based assets/gps
    41. Senator Smith. Director Tenet, with the increasing reliance on 
GPS and other space based assets, both in terms of our military and in 
the civil sector, it seems we should be very clear in our minds where 
we are headed with the issues of space needs and security--issues such 
as frequency protection, military versus civilian control, signals, 
power, accuracy, dissemination of space-based imagery, and 
international competition, etc. I am sure our enemies know that space 
is absolutely critical to Intelligence Community and our military 
capabilities--this may be a true ``Achilles heel.'' However, I have not 
seen a clear plan for the future of protection of our space-based 
assets and how they will continue to support national security 
objectives. In general, what have your agencies been working on to 
protect these assets and have you received an appropriate amount of 
support from other agencies in working on this difficult challenge?
    Mr. Tenet. [Deleted.]

                                  iraq
    42. Senator Smith. Director Tenet, a good deal of the information 
presented to date deals with the production of weapons and Iraq's 
delivery capabilities on the battlefield and in the geographical 
region. I would like to know if there has been any information gathered 
or gleaned about the lower end items associated with Iraq's ability to 
sustain a WMD combat offensive capability--items such as individual 
protective measures, personnel and equipment decontamination 
capabilities, and so on--that would indicate their ability to conduct 
sustained operations over time or do indicators point to a one time, 
big bang use of the NBC weapons at a tactical or strategic level?
    Mr. Tenet. [Deleted.]

                       china mil-to-mil exchanges
    43. Senator Smith. Admiral Wilson, is your office working on any 
type of robust counterintelligence briefing for any of our officers 
prior to renewal of U.S.-People's Republic of China (PRC) mil-to-mil 
exchanges, in order to avoid the types of inadvertent provision of 
militarily useful information to the Chinese?
    Admiral Wilson. DIA's counterintelligence country specialists brief 
U.S. military officers traveling to China to prepare them for the 
active surveillance and targeting environment in China. DIA's briefing, 
prepared in response to a presidential mandate and first presented on 
15 February 2002, considers the post-EP-3 sensitivities between China 
and the United States. DIA is ready to brief officers upon request and 
envisions a videotape version for distribution outside the Washington 
area.

                     personnel-qualified linguists
    44. Senator Smith. Admiral Wilson, I have seen several press 
accounts indicating that we may not have had sufficient numbers of 
linguists trained in the languages spoken in Afghanistan, such as Dari 
and Pashto, to communicate with the locals as quickly as we would have 
liked. This shortage also includes numerous other languages where we 
may be considering action in the war on terrorism as well. Do you have 
enough foreign language speakers in the appropriate language skills to 
provide the essential link between your forces and the native 
populations?
    Admiral Wilson. Neither DIA nor the rest of the IC has a 
significant number of full-time employees with skills in the principal 
languages spoken in Afghanistan, such as Dari and Pashto. Prior to 11 
September 2001, we did not have sufficient requirements to maintain a 
large number of employees with skills in those languages. For example, 
DIA did not even have a requirement for a defense attache with those 
language skills because we did not have a defense attache office in 
Afghanistan. There are some DIA personnel, however, with capabilities 
in those languages, and most were among the first personnel that DIA 
deployed to the theater.
    DIA and the IC met many challenges in the short time between the 
events of 11 September and the start of Operation Enduring Freedom. 
Unfortunately, proficiency in Dari and Pashto is not possible in such a 
short time. Minimal proficiency--and we need more than that--requires 
approximately 66 weeks of full-time training and study. The Defense 
Language Institute (DLI) is now starting its first 66-week courses in 
Dari, Pashto, and Uzbek.
    Absent sufficient language-proficient employees in these languages, 
we undertook several measures to meet our new requirements. We are 
focusing recruitment efforts to hire new employees with skills in those 
languages. We also are working with the military services to identify 
active and reserve personnel with skills in the target languages. 
Wherever possible, we are using contractors that specialize in 
providing foreign language expertise. Also, we are taking advantage of 
the fact that many in Afghanistan speak Russian or Arabic and are using 
these languages in which we have stronger capabilities. Still, we are 
finding it difficult to process expeditiously all the Arabic language 
materials we are acquiring. We have deployed document exploitation 
teams with the technical capability to transmit documents 
electronically to the United States for review and translation by 
contract linguists.

    45. Senator Smith. Admiral Wilson, what is the plan to increase the 
number of language-trained personnel in service and do we need more 
language training programs?
    Admiral Wilson. We are looking at several approaches for increasing 
our language capabilities. We have worked closely with the military 
services to identify reserve and active personnel with language skills. 
We have expanded our document translation efforts with contract 
linguists. We also are concentrating our recruiting efforts on hiring 
personnel with skills in the target languages (e.g., Arabic, Farsi, 
Dari, Chinese). Although we have received hundreds of resumes from 
applicants with the necessary language skills, our difficulty is 
getting them a security clearance. Since most languages of interest 
regarding the global war on terrorism are not taught widely in the 
United States, the applicants with those language skills are either 
non-citizens or first generation citizens with close ties to their home 
countries.
    We are preparing a comprehensive review of language capabilities in 
the agency and a billet scrub to ensure that the appropriate numbers of 
billets are designated as ``requiring'' language capability. As part of 
this review, our Directorate for Analysis and Production, for example, 
will determine the foreign language skills needed to deal with the huge 
volume of both open-source and classified materials. Also, the Foreign 
Language Program Office and Joint Intelligence Virtual University are 
working to enhance language maintenance opportunities by bringing live 
foreign language broadcasts and language training materials developed 
by the DLI to the employee's desktop. Finally, we will soon issue a new 
agency foreign language regulation designed to build a stronger foreign 
language program focused on critical language skills.
    I do not believe we need more language training programs. Our 
language training programs have the capacity to expand to meet new 
requirements. The DLI has contracts with a number of schools to support 
all our requirements. Since 11 September, we have instituted a language 
maintenance program for DIA employees to update language skills. We 
have received superb support from DLI for this effort.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                   military intelligence to colombia
    46. Senator Santorum. Admiral Wilson, the government of Colombia is 
battling narco-traffickers and Marxists rebels. Insurgent groups--
Revolutionary Armed Forces of Colombia (FARC) and National Liberation 
Army (ELN)--are committed to seizing power and instituting a Marxist-
Leninist state.
    Presidential Decision Directive 73, signed by President Clinton, 
prevents the Department of Defense from sharing vital intelligence on 
the left-wing rebel terrorists with the Colombian government. The U.S. 
military has, and can generate daily, photos of FARC troop encampments 
and movement. Passed along to Colombian pilots and ground commanders, 
the images would become invaluable in conducting precision strikes.
    Do you believe that if the United States were to provide Colombian 
military forces and law enforcement personnel with actionable 
intelligence, particularly electronic intelligence, that it would make 
a demonstrable difference in the Colombian government's efforts to 
defeat the FARC and the ELN?
    Admiral Wilson. [Deleted.]

                                  iran
    47. Senator Santorum. Director Tenet, in his paper `` The Power 
Struggle in Iran,'' Professor Mark J. Gasiorowski of Louisiana State 
University notes that the reformers in Iran ``may gradually win the 
power struggle, pushing back the conservatives and carrying out reforms 
that create a `kinder, gentler' Islamic regime or perhaps even change 
the regime altogether, as occurred in the Soviet Union under Gorbachev 
. . . [yet] the balance of power between reformers and conservatives 
currently does not favor it and is not likely in the foreseeable 
future.'' Do you share this point of view?
    Mr. Tenet. Dr. Gasiorowski's paper, published some 18 months ago, 
was an excellent exploration of Iranian factional politics in the run 
up to the last Iranian presidential elections. In retrospect, his 
analysis of the factional balance of power appears accurate and we 
would agree that a balance of power favoring the forces opposed to 
reform continues to hold.
    We would add, however, that the course of action followed by the 
hardliners during the past 18 months closely resembles another scenario 
that Dr. Gasiorowski describes in the same paper, that of ``de facto 
coup.''

        <bullet> In his paper Dr. Gasiorowski argues that, in the ``de 
        facto coup'' scenario, hardliners would permit the reformers to 
        retain office but would prevent them from carrying out 
        significant reforms. Dr. Gasiorowski further argues that the 
        success of this course of action ``would depend mainly on 
        whether the conservatives could defuse popular pressures for 
        reform not only with repression but with sociocultural and 
        economic reforms.''
        <bullet> The conservatives have failed to implement such 
        reforms sufficiently during the last 18 months, which suggests 
        that a change in tactics or leadership by reformers, in ways 
        that makes greater use of the popular demand for change, might 
        alter the current balance of power in favor of more meaningful 
        reform.

    48. Senator Santorum. Director Tenet, do you believe that there has 
been any discernable change in the views of Iran's Guardian Council, 
its judiciary, or its security forces?
    Mr. Tenet. During the past year there has been no change in the 
political views of these institutions as expressed in the public 
comments of their leadership or in their political actions, such as 
vetoing reform legislation, prosecuting pro-reform newspapers, or 
repeating the willingness to defend the regime against real- and 
perceived-internal threats.

    [Whereupon, at 11:24 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
